<html>
<title> - WEATHERING CHANGE: NEED FOR CONTINUED INNOVATION IN FORECASTING AND PREDICTION</title>
<body><pre>[Senate Hearing 112-638]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-638

 
  WEATHERING CHANGE: NEED FOR CONTINUED INNOVATION IN FORECASTING AND 
                               PREDICTION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
77-020                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
MARIA CANTWELL, Washington           JOHN BOOZMAN, Arkansas
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 16, 2011................................     1
Statement of Senator Begich......................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Boozman.....................................    31

                               Witnesses

Hon. Mary M. Glackin, Deputy Under Secretary for Operations, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................     5
    Prepared statement...........................................     7
Hon. Todd J. Zinser, Inspector General, U.S. Department of 
  Commerce.......................................................    14
    Prepared statement...........................................    15
David C. Trimble, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................    19
    Prepared statement...........................................    20
Rear Admiral Cari B. Thomas, Director of Response Policy, United 
  States Coast Guard.............................................    25
Tom Iseman, Program Director, Water and Climate Adaptation, 
  Western Governors' Association.................................    37
    Prepared statement...........................................    39
Dr. Peter P. Neilley, Vice President, Global Forecasting 
  Services, The Weather Channel Companies........................    44
    Prepared statement...........................................    46
Robert S. Marshall, Founder and CEO, Earth Networks, Inc.........    49
    Prepared statement...........................................    50

                                Appendix

John D. Rockefeller IV, U.S. Senator, West Virginia, prepared 
  statement......................................................    63
Daniel A. Sobien, President, National Weather Service Employees 
  Organization, prepared statement...............................    63
Response to written questions submitted to Hon. Mary M. Glackin 
  by:
    Hon. John D. Rockefeller IV..................................    66
    Hon. Maria Cantwell..........................................    71
    Hon. Amy Klobuchar...........................................    75
    Hon. Olympia J. Snowe........................................    77
    Hon. Roger F. Wicker.........................................    78
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Hon. Todd J. Zinser..........................    80
Response to written questions submitted to David C. Trimble by:
    Hon. Amy Klobuchar...........................................    81
    Hon. Olympia J. Snowe........................................    82
Response to written question submitted by Hon. Roger F. Wicker to 
  Rear Admiral Cari B. Thomas....................................    82
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Tom Iseman...................................    83
Response to written questions submitted by Hon. Roger F. Wicker 
  to:
    Dr. Peter P. Neilley.........................................    84
    Robert S. Marshall...........................................    85


                           WEATHERING CHANGE:
                     NEED FOR CONTINUED INNOVATION
                     IN FORECASTING AND PREDICTION

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2011

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:33 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. It's like the beginning of church. Everyone 
is very quiet. I'm not sure if we're starting or not, but we 
are. So thank you all very much for being here.
    I will call this meeting to order of the Oceans 
Subcommittee. Thank you again for the panelists to be here this 
morning. We anticipate one or two additional senators to be 
here, but I wanted to go ahead and start the meeting. And 
again, good morning to all of you.
    We're here to talk about the weather and the climate, which 
really is just the same as weather, on a longer time scale. 
Today's hearing is meant to provide oversight of these two 
important functions of the National Oceanic and Atmospheric 
Administration, otherwise known as NOAA.
    NOAA's weather programs touch the lives of every American 
every day. Forecasts help people make informed decisions, 
whether a family planning their annual trip from their village 
to Anchorage, or a fisherman trying to stay safe in the Gulf of 
Maine.
    And while the phrase ``climate change'' is always 
controversial, we in Alaska are already living the effects. 
Having solid information about climate trends is critical for 
good governance and business planning. I'm proud to serve on 
the Commerce Committee where, for decades, both Republicans and 
Democratic chairmen have promoted the highest standards of 
scientific integrity.
    I'm a big supporter of efficient and effective government, 
too. So as I look forward to hearing more today about efforts 
to better support state and local governments and business 
decisionmakers through the creation of the Climate Service 
within NOAA, you don't have to be a climate scientist to wonder 
what's going on this year.
    2011 has shattered weather and climate records across the 
country, from record heat and cold, to snow and rain, drought 
and flooding. Even in Alaska, where we are used to braving many 
extremes, last week's massive storm was a sobering reminder of 
the importance of knowing what's coming and being as prepared 
as possible.
    Last week, Alaska was hit by a massive winter storm. Had it 
hit the lower 48, it would have stretched from Mexico to 
Canada. With hurricane-force winds and 10-foot tidal surges, it 
was truly an epic event. Fortunately, NOAA was able to give 
clear warnings of what was coming. Alaskans are resilient. They 
hunkered down, and communities implemented their emergency 
plans. While assessments are still under way, the damage could 
have been far worse if we did not have the benefit of those 
warnings from NOAA a few days in advance of the storm.
    NOAA weather satellites are key to providing these advanced 
warnings. I joined several members of this committee this year 
to fight for funding of the Joint Polar Satellite System. Polar 
satellites provide critical data for forecasters of severe 
weather nationwide, and to Alaska in particular, since NOAA's 
other satellites don't adequately cover our northern state.
    I'm pleased to report that the House and Senate conference 
report on NOAA appropriations supported funding for that 
expensive yet critical program.
    I hope today's hearing will help NOAA and the Committee 
find ways to continue to promote the highest level of 
innovation, even as we recognize the tough budget climate we 
face for the coming years. Our nation cannot afford to overlook 
the importance of reliable weather information.
    Today's hearing is meant to push deeper and promote cost-
effective and earlier decisions regarding program management in 
the deployment of weather and climate services. The last 
administration ran up a multi-billion price tag due to program 
delays in the management of the weather satellites, and I want 
to make sure this administration is a better steward of the 
taxpayer funding.
    For these reasons I am pleased to welcome our witnesses 
here today, and I want to extend a very special thank you to 
Deputy Under Secretary Mary Glackin.
    Ms. Glackin, I understand you are to retire from what has 
been an exceptional career in public service. You have worked 
at NOAA for more than three decades, earning seemingly every 
professional award possible, including twice the Presidential 
Rank Award.
    I am grateful you are here today, particularly given your 
own expertise and your leadership in improving weather 
operations by capitalizing on new technology and science. Your 
retirement is a real loss to NOAA and to the Federal 
Government, but I wish you every success and fulfillment in 
your future endeavors, and thank you again for being here.
    I'm also pleased to welcome the Honorable Todd Zinser, 
Department of Commerce Inspector General. Mr. Zinser will 
testify about the challenges NOAA faces in its efforts to 
develop and launch the Joint Polar Satellite System, while 
minimizing the loss of critical weather and climate 
information.
    David Trimble, Director of the Natural Resources and 
Environment branch of the Government Accountability Office, 
will assist the Committee in providing recommendations to help 
advance Federal climate change strategic planning efforts.
    And I'm honored to welcome Rear Admiral Cari B. Thomas, 
Director of Response Policy in the United States Coast Guard. 
With this year's extreme weather events around the country, 
including last week's massive Alaskan storm, I welcome your 
timely perspective regarding the importance of NOAA weather and 
climate information to the success of the Coast Guard's search 
and rescue mission.
    Panel 2 will include Dr. Peter Neilley, Vice President of 
Global Forecasting Services for the Weather Channel Companies, 
which I was happy to participate in recently about the Alaska 
storm. Doctor, it's amazing they let a senator on the Weather 
Channel, but we thank you for that.
    Dr. Neilley will speak to the relationship between the 
private sector and NOAA in the development of weather and 
climate information and outline the priorities for NOAA's 
services. And I know you're a big fan of the new Coast Guard 
reality show also, Dr. Neilley.
    Tom Iseman of the Western Governors' Association will offer 
perspective on the significant impacts that severe weather 
events and long-term climate trends can have on life in the 
West. He will also speak to the partnership that I believe 
shows significant promise, the Governors' close coordination 
with NOAA on the delivery and sharing of objective, credible 
weather and climate information and services.
    Thank you all for willing to be witnesses. I will ask 
Senator Snowe to say a couple of words but give her a second 
here.
    I will also say, with the Coast Guard's new reality show, I 
will say that Alaska now has the most reality shows of any 
state----
    [Laughter.]
    Senator Begich.--anywhere, and we love it because it shows 
more about Alaska. But it also shows, if you notice, almost 
every one of those shows has a significant weather component. I 
don't care if you're flying or out there catching crab or in 
the Coast Guard, whatever it might be. It is weather that 
dictates a lot of our activity in Alaska, and literally our 
weather systems are vast and wide when you think about where we 
are and how large we are.
    So again, thanks to this panel and the panel that will be 
coming up next.
    Let me ask my Ranking Member, Senator Snowe, to say a few 
words, and then we'll start the discussion.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, for holding this 
hearing on the state of our nation's environmental and weather 
observation infrastructure and satellite systems. As you know, 
I've been a long supporter of the Integrated Ocean Observing 
System, introducing authorizing legislation in each of the last 
four Congresses.
    The IOOS system, which was first piloted in the Gulf of 
Maine in 1999 and has been collecting data since 2001, has 
proven to be a highly successful nationwide network of regional 
coastal and ocean observing systems. It served as a model in 
the development of innovative applications that makes data 
readily available to decisionmakers in real time for critical 
uses ranging from oil spill response in Portland Harbor to a 
lobsterman checking wave heights offshore.
    Certainly, we have witnessed the benefits of this network 
approach in Maine. Indeed, scientists at the Woods Hole 
Oceanographic Institute have determined that the Gulf of Maine 
Observing System has returned six dollars to our region's 
economy for every one dollar invested in the system.
    Now, as we look forward, this hearing is especially timely. 
We are at the intersection of the previous satellite program, 
the National Polar-orbiting Operational Environmental Satellite 
System, or NPOESS, which operated from 1994 to 2010, when it 
was dismantled by the White House Office of Science and 
Technology; and the Joint Polar Satellite Program, or the JPSS, 
currently under development by NOAA and NASA.
    On October 28, the only Earth-observing satellite completed 
under the NPOESS program, the NPOESS Preparatory Project, or 
NPP--a lot of acronyms--was successfully launched as a bridge 
to the next generation of the Joint Polar Satellite System. And 
frankly, there should be no question it is now crucial in order 
to preserve the continuity of vital data for our long-range 
weather forecasting climate record that we ensure the $920 
million appropriated for the Joint Polar Satellite Program, 
which represents over one-third of NOAA's Fiscal Year 2012 
appropriation, is implemented efficiently and in a timely 
manner.
    The fact of the matter is, according to the Government 
Accountability Office and the Inspector General, whom we'll 
hear from today, we could expect to see a gap in the data 
provided by our polar satellites several years from now due 
either to the failure of the NPP satellite or delayed launch of 
its replacement, the JPSS-1. Yet underlying acquisition and 
management issues that led to the dissolution of the NPOESS in 
the first place remain unresolved.
    Indeed, the GAO has reported that the NPOESS was plagued by 
cost overruns and delays since 2005. The program's original 
cost estimate was $6.5 billion, yet by 2010 that estimate had 
more than doubled to $15 billion. Moreover, the program 
suffered setbacks to the development of vital new sensors, 
which delayed the launch of the final NPOESS satellite for 5 
years. And now, the most recent reports on the development of 
the Joint Polar Satellite System Program from the Inspector 
General, as well as the GAO, regrettably show that cost 
estimates have not improved, and that sensor and ground system 
development may delay the launch of the JPSS-1.
    Well, we simply cannot afford to repeat the mistakes of the 
NPOESS program in implementing the Joint Polar Satellite 
System, nor can we countenance new problems that the GAO is 
concerned with in terms of a lack of interagency strategy for 
environmental observations among NOAA, NASA, and the Department 
of Defense, which could result in loss of economic benefit from 
a coordinated approach and limit our ability to understand 
long-term climate change. The stakes are simply far too high 
for failure.
    According to the National Climatic Data Center, the 
economic costs of severe weather events have exceeded $50 
billion this year alone. Our ability to effectively predict and 
mitigate extensive damage from severe weather events, such as 
the massive coastal storm that just struck Alaska, relies 
heavily on the continual data coverage provided by NOAA's 
geostationary and polar-orbiting satellites. The two- to three-
day forecasting capability provided by this data can mean the 
difference between safe evacuation or lost lives in the case of 
a hurricane, or provide enough time to take shelter before a 
tornado strikes.
    Given the devastation we have witnessed in the Midwest and 
the Southeast in April and May, clearly these extra minutes and 
days matter greatly in the context of saving human lives from 
the strength of the storm. Indisputably, the long-term 
investment in the infrastructure that provides this critical 
information must be a national priority.
    In the short term, we must also explore a range of options 
to ensure data continuity via alternative sources. The private 
sector is thinking creatively about how to obtain the same 
forecasting capacity with fewer resources by creating new 
platforms capable of supporting a range of sensors or using 
existing ones such as commercial aircraft in different ways.
    So I look forward to hearing from each of our panelists 
today on the innovations and technologies they believe can 
provide the most accurate, cost-effective information that we 
rely on in so many aspects of our daily life and commercial 
activities. So with that, I welcome the panelists, and I thank 
you, Mr. Chairman, again for convening this hearing.
    Senator Begich. Thank you very much, Senator Snowe.
    Let's first start with the Deputy Under Secretary of 
Operations, National Oceanic and Atmospheric Administration, 
Mary Glackin. And again, I can't stress enough your 30 years of 
service to this country. I know when people retire it really 
means they're going to be doing more work in some field that 
they've been wanting to do for a long time, so I wish you the 
best there. But, please.

        STATEMENT OF HON. MARY M. GLACKIN, DEPUTY UNDER 
        SECRETARY FOR OPERATIONS, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Ms. Glackin. Thank you, Chairman Begich, and thank you for 
your kind words about not only myself but NOAA services. And, 
Ranking Member Snowe, we appreciate all of the support from 
this committee, and also the opportunity to testify in front of 
you today about the need for, and NOAA's role in, supporting 
innovations to improve weather and climate services.
    NOAA has a leading role in understanding changes in weather 
and climate extremes, including trends in severe local storms 
and extremes in precipitation, whether it's too little or too 
much, too often or too infrequent. This year we have seen an 
unprecedented number of natural disasters, from the heart-
wrenching tornado outbreaks in Alabama and neighboring states 
in April, and in Joplin, Missouri in May, to the record 
flooding in the upper Plains and the Northeast, to the extreme 
drought that is continuing across the Southwest.
    We have seen at least 10 disasters, each costing $1 billion 
or more this year. In the face of these challenges, NOAA has 
been able to provide accurate forecasts because of its 
continued investments in mission-focused research and 
development that drive innovation. There is much more to be 
done if we are to achieve new, life-saving advancements for the 
future, and NOAA is committed to working with its partners in 
the climate and weather enterprise to continue to spur 
innovation and build upon this record of success.
    Our scientists have been at the forefront of weather and 
climate science, forecasting and public preparedness for 
decades. Our science helps save lives and livelihoods. I want 
to briefly discuss two timely examples, weather radar and 
environmental satellites.
    In recent years, NOAA has developed a new weather radar 
upgrade called Dual Polarization Radar Technology. This 
capability is being installed this Fiscal Year and will assist 
forecasters in the warning and forecast process, leading to, 
among other things, better estimates of precipitation for water 
management, more accurate flood warnings, better identification 
of rain to snow transitions, and more precise severe 
thunderstorm warnings.
    Now, to turn to polar satellites, which have been 
highlighted here today, they have supported weather forecast 
models for over 30 years. NOAA is working toward the launch of 
the next polar satellites, the Joint Polar Satellite System, 
JPSS. We thank the Committee and the Senate as a whole for 
their recognition of this national priority, and their support 
in the Senate's Fiscal Year 2012 appropriations bill for NOAA.
    Nonetheless, NOAA is expecting a data gap beginning as 
early as late 2016, when the current satellites reach the end 
of their life expectancies. Within available resources, NOAA is 
preparing to mitigate this gap to the greatest extent possible.
    NOAA is continuing working to improve the science and 
practice of forecasting and prediction. It's not enough, 
however, to provide longer lead times for droughts, seasonal 
flooding, heavy rainfall events, and heat waves. We must also 
ensure that people hear these warnings and take informed and 
appropriate action to protect their own safety.
    The mixture of technology and social science advancements 
is a new approach to building a weather-ready nation, one that 
we expect to provide huge returns measured in avoided economic 
losses and lives saved. In all its efforts to support 
innovation, NOAA works in close partnership with the broader 
weather and climate enterprise that includes other Federal 
agencies, the private sector weather and climate industry, 
academic institutions and consortia, state and local 
governments, and other non-government organizations. My written 
testimony provides several examples of these ongoing 
partnerships, and I'm pleased that you'll hear testimony from 
several key partners at this hearing today.
    So in conclusion, the investments made by Congress and the 
administration in NOAA's weather prediction and warning 
capabilities directly saves lives in the United States during 
these disasters. NOAA is continuing to innovate to improve 
preparedness, detection, modeling, and forecasting efforts 
necessary for improved decisionmaking and to save lives and 
property. Although nothing can eliminate the physical threat 
that severe weather and natural hazards pose, NOAA has 
demonstrated success in better predicting them, reducing their 
impact, and helping vulnerable communities become more 
resilient to their devastating effects, and will work to 
continuously improve its products and services to the Nation.
    I'll be happy to take any questions from the Committee.
    [The prepared statement of Ms. Glackin follows:]

Prepared Statement of Hon. Mary M. Glackin, Deputy Under Secretary for 
   Operations, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Good morning Chairman Begich, Ranking Member Snowe, and Members of 
the Subcommittee. My name is Mary Glackin and I am the Deputy Under 
Secretary for Operations at the National Oceanic and Atmospheric 
Administration (NOAA). Thank you for the opportunity to testify today 
about the need for, and NOAA's role in, supporting innovation to 
improve weather and climate services.
    NOAA, since its beginnings, has relied on mission-focused research 
and innovation as a means of improving services to the Nation. NOAA has 
the sole responsibility of issuing severe weather warnings to 
communities across the country. NOAA-led weather innovations such as 
the national Doppler RADAR network and weather modeling improvements 
continue to provide our Nation with increases in advanced warnings that 
protect lives and property from tornadoes and other severe weather 
events. This year we have seen an unprecedented number of natural 
disasters, from the heart wrenching tornado outbreaks in Alabama and 
neighboring states in April, Joplin, Missouri in May, to record 
flooding in the upper Plains and the Northeast. In the face of these 
challenges, NOAA has been able to provide advanced and accurate 
forecasts because of its continued investment in the long-term research 
and development that drive innovation. There is much more to be done if 
we are to achieve new life saving advancements in the future, and NOAA 
is committed to working with its academic, private sector, and other 
partners in the broader climate and weather enterprise to continue this 
record of success.
    NOAA scientists have been at the forefront of weather and climate 
science, forecasting and public preparedness for decades--our science 
helps save lives and livelihoods. NOAA has a leading role in 
understanding changes in weather and climate extremes, such as trends 
in severe local storms and extremes in precipitation--too little or too 
much, too often or too infrequent. Extreme weather and associated 
societal impacts have increased in recent years, and with our changing 
climate, the Nation can expect more frequent extreme weather events in 
the future. To combat this increased vulnerability, communities across 
the country must become more resilient to extreme events, with smarter 
land use planning, more widespread use of emergency action plans, and 
numerous other actions.
    Our nation's environmental predictive capabilities are supported by 
four foundational pillars: observations, computer modeling (including 
High Performance Computing), scientific research, and our people, who 
provide forecasts, warnings, and decision support services to key 
decisionmakers. By strengthening the pillars--through improved 
satellite and in-situ observations, computational capacity, and coupled 
atmosphere, ocean, land models, and necessary research--we can 
revolutionize the forecast process across the entire spectrum, from 
relatively small-scale, short range applications to long range weather 
and climate predictions.
    Yet, the success of NOAA's mission should not only be measured by 
the accuracy of its information, but by the effectiveness of its 
application. As such, NOAA is pursuing a number of innovative 
approaches to not only to provide significantly more lead time for 
forecasts, but to also ensure that people hear these warnings and take 
informed and appropriate actions to protect their own safety. This 
mixture of technological and social science advancements is a new 
approach to building a ``Weather-Ready Nation'' and one that we expect 
to provide huge returns--measured in avoided economic losses and lives 
saved.

A Historic Year in the Making
    Despite NOAA's quality forecasts and outlooks, severe weather 
events in 2011 have demonstrated the need for continued investment in 
scientific innovation to improve environmental intelligence. 2011 has 
already established itself in the record books as a historic year for 
weather-related disasters, and it is not over. We have already seen ten 
$1-billion-plus disasters. Total damages from weather- and water-
related events since January for the United States are well over $45 
billion and climbing. 2011 is now the fourth deadliest tornado year for 
the United States since 1875, and the deadliest since 1936, with 548 
people killed as of November 6. April 2011 ranks as the most active 
tornado month on record with 875 tornadoes, breaking the previous 
record of 542 set in 2003. More tornadoes occurred on April 27 of this 
year than any other day in the past 61 years. On May 22, a large 
portion of Joplin, Missouri was devastated by an EF-5 (winds greater 
than 200 mph) tornado, resulting in over 150 fatalities and over 1,000 
persons injured. The Joplin tornado was the deadliest this year and is 
ranked 7th among the deadliest tornadoes in U.S. history.
    Fueled by record-setting precipitation totals, historic flooding 
has hit the Midwest and Ohio Valley, from the smallest streams to the 
largest rivers. The Ohio Valley region had its wettest April on record, 
and the record goes back to 1895 for some states. Record breaking heavy 
rains across Montana and the Dakotas, combined with runoff from record 
winter snowpack, caused tremendous flooding across those states, with 
Minot, North Dakota, being among the hardest hit.
    This year the United States has also experienced severe impacts due 
to decadal-scale changes in our climate. Across the U.S. Southwest 
extreme drought continues--stretching from New Mexico through Texas and 
Oklahoma across the Gulf States and Florida. According to the State of 
Texas, the past twelve months--from October 2010 through September 
2011--have been the driest in state history since 1895. Nearly two-
thirds of Texas is currently experiencing drought categorized as 
``exceptional''--the most severe type. Texas has responded to more than 
24,000 fires in approximately the same period, which have burned more 
than 3.8 million acres and destroyed over 7,000 businesses and homes. 
The Texas Agrilife Extension Service has calculated that Texas' 
agriculture sector alone experienced losses of roughly $5.2 billion 
through August.
    Prime wildfire conditions continue across large portions of the 
Southern Plains and Southwestern States. More than 8.2 million acres 
have burned nationwide--nearly 120 percent of the 10-year average by 
this time of year.

What it Means
    Nearly 90 percent of all Presidentially declared disasters are 
weather- and water-related, and our vulnerability to the impacts is 
increasing as our population grows. As shown in the chart below, the 
number of natural catastrophes resulting in property damage and/or 
bodily injury in the United States is trending upward, with 2011's 
numbers on track to surpass last year's record as of July.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Munich Re NatCatSERVICE (statistics and chart).

    Over the past thirty-plus years, the United States has seen a total 
of 107 weather- and climate-related disasters each totaling over $1 
billion dollars in damage. Total standardized losses since 1980 exceed 
$750 billion (inflation-adjusted to 2011 dollars using the Consumer 
Price Index).
    Demographic trends and population growth and an increased reliance 
on technology have made our society more vulnerable to high impact 
events at a time when we are seeing an increasing trend in extreme 
weather events. As a result, many agricultural, business, and urban 
planners are looking for ways to increase community resilience now. For 
example, the City of Chicago is taking steps to prepare for the 
likelihood of intense storms striking more often, of rainfall events 
causing more flooding, and of warmer temperatures. Local climate 
studies, along with recent trends such as an increase in the frequency 
of heavy rainfall events, have led them to conclude that proactive 
steps are needed to mitigate the cost and impact of these events. New 
York City is also engaged in adaptation planning, with particular focus 
on the risk of flooding from rising sea level. The Navy's Task Force on 
Climate Change has advised that the Navy should prepare to police the 
equivalent of an extra sea as the Arctic ice melts. These cities and 
organizations, among many others, recognize the need to understand 
changes and trends in weather patterns, and to apply this to planning 
that may reduce vulnerability to high-impact weather and water events. 
Their recognition of the need to reduce their vulnerability to weather 
and water extremes is an important first step. However, there is much 
more that needs to be done in other sectors of our economy and with the 
general public to increase our resiliency to the impacts of these 
events.

NOAA Science Spurs Innovation to Better Meet Societal Needs
    NOAA's science spurs innovation within the agency. NOAA science 
includes discoveries and ever new understanding of the oceans and 
atmosphere, and the application of this understanding to such issues as 
the causes and consequences of climate change, the physical dynamics of 
high-impact weather events, the dynamics of complex ecosystems and 
biodiversity, and the ability to model and predict the future states of 
these systems. NOAA is supported in these efforts by key pieces of 
legislation, such as the Global Change Research Act and America 
COMPETES Act, the latter of which this Committee reauthorized in 2010.
    NOAA conducts and supports innovative research in order to provide 
the public with information, products, and services that enable 
stakeholders to make the best decisions possible to advance economic 
growth while promoting a healthy environment. NOAA is not alone in 
these endeavors and works in close partnership with the broader weather 
and climate enterprise that includes other Federal agencies, the 
private sector weather and climate industry, academic institutions and 
consortia, state and local governments, and other organizations. NOAA 
supports research at partner institutions such as Cooperative 
Institutes, its Sea Grant college network, Regional Integrated Science 
and Assessments program, and other mechanisms.
    Often, NOAA-supported advances are conducted in partnership with 
the private sector, such as through the NOAA Small Business Innovation 
Research program, and foster additional opportunities for economic 
growth in the private sector. Many innovative weather and climate 
technology advances spurred by NOAA investments in its own and partner 
institutions have been commercialized by the private sector and are now 
sold by the private sector around the world as the gold standard, such 
as NOAA's Argo floats, which are state-of-the-art profiling floats that 
are providing realtime pressure, and ocean temperature and salinity for 
climate, weather, and other service applications and research efforts.

Research, Observations and Prediction
    Longer lead-time forecasts for droughts, seasonal flooding, heavy 
rainfall events, heat waves and cold spells provide tremendous economic 
value for the Nation through overall reductions in loss of life and in 
physical and economic damage. NOAA provides a spectrum of critical 
information across a range of time and space scales, which is used by 
government, business, emergency managers, planners, and the public. The 
value of that information increases when businesses, farmers, energy 
producers and utilities, as well as the general public, are prepared 
and have effective plans of action to mitigate impacts.
    Returning to NOAA's four pillars, future investments in innovation 
will be focused on: observations, computer modeling (including High 
Performance Computing), foundational scientific research, and our 
people, who will be better positioned to advise key decisionmakers 
during extreme events. For example, on the larger scale, coupled 
environmental models provide improved simulations of the interaction 
between the ocean and atmosphere, resulting in more accurate 
predictions of tropical cyclone behavior. On smaller scales, higher 
resolution observations and models can provide the type of short-term 
severe weather predictions that will 1 day allow us to know up to 60 
minutes ahead of time where a tornado will touch down, and to provide 
warning to the public based on these forecasts.
    An example of scientific innovation in observations is NOAA's 
deployment of Dual Polarization radar technology. Developed in NOAA, 
``Dual Pol'' is the latest weather radar upgrade, providing both 
horizontal and now vertical components to what NEXRAD Doppler radar is 
seeing. It will add fourteen new products to the suite of data already 
available to NOAA weather forecasters and our partners who receive 
radar data. These new tools will assist forecasters in the warning and 
forecast process. With Dual-Pol radar, forecasters can better glean 
information such as the size, shape, and type of precipitation 
particles. This information will lead to better estimation of total 
precipitation for water management and flood forecasting; accurate 
identification of the snow levels in higher terrain; improved ability 
to identify areas of heavy rainfall, including flash flooding 
potential; identification of rain-to-snow transitions, to alert 
travelers and road crews; and more precise severe thunderstorm 
warnings, especially for those containing hail. The full benefit of 
Dual-Pol radar, however, will not be fully realized until weather 
forecasters and research meteorologists develop new ways to utilize the 
data specific to their geographic areas and gain experience.
    One of NOAA's very promising technologies toward improving higher 
resolution observation that supports weather predictive capabilities is 
called Multi-Function Phased Array Radar (MPAR)--the potential future 
generation replacement of weather radars. These new prototype radars 
build off existing military technology with a unique antenna that 
collects the same weather information as existing weather radar, but in 
about one-sixth the time. MPAR could not only expand the current 
weather surveillance network, but also has the potential to meet air 
traffic surveillance, homeland security and defense requirements for 
identifying and tracking non-cooperative aircraft over the United 
States. The decision to determine the feasibility of MPAR deployment is 
still several years out and will require significant research and 
collaboration with academic and industry partners. Steps for 
finalization include research, prototype development, testing and 
evaluation, and, if the technology proves feasible, eventual deployment 
of new systems.
    We anticipate numerous enhanced weather and climate service 
benefits from MPAR. MPAR's adaptive sensing capability has the 
potential to support continued improvements to the severe weather 
warning system for tracking tornadoes, strong wind gusts, hail and 
locally heavy rains responsible for flash floods and mudslides. In 
addition, MPAR will provide observations that allow for more precise 
information about hazardous weather that affect flight safety and 
airspace capacity, in turn providing economic efficiency to domestic 
aviation and surface transportation systems. Finally, more detailed 
atmospheric observations, such as would flow from MPAR, are anticipated 
to improve air quality real-time advisories and forecasts, climate 
variability monitoring and forecasting, and wildfire monitoring and 
prediction.
    We know that shifts in weather patterns are often regional in 
nature, and have variable time spans. For example, El Nino and La Nina, 
which have become household words, are generally predictable over 
fairly definable areas and time spans. During the 1997-1998 El Nino and 
1998-1999 La Nina, the U.S. agricultural sector experienced damages of 
$2.4-2.8 billion and $3.6-10.7 billion (in 2010 dollars), respectively. 
We are coming to understand many of these larger scale phenomena, such 
as the North Atlantic Oscillation, which is a change in the water 
temperature in the North Atlantic that is strongly correlated with 
heavy snowfall events in the Mid-Atlantic and Northeast states. These 
patterns, observed in-situ by NOAA's Tropical Atmosphere-Ocean (TAO) 
buoy array in the equatorial Pacific Ocean, strongly influence and can 
help inform NOAA's seasonal forecasts, including the recently published 
2011-2012 Winter Outlook. NOAA has successfully transitioned numerous 
research innovations such as the TAO array into operations, turning 
wise investments into critical operational tools for accurate 
environmental prediction.
    Our tornado warnings have improved significantly over the past two 
decades primarily because of past research efforts. More research would 
help us better understand the rapid evolution of severe thunderstorms 
and why some produce tornadoes and others do not. We face a similar 
challenge with our understanding of hurricanes. While our track 
forecasts have improved greatly--our forecast location for 5 days out 
is now as accurate as the forecast location for 3 days out was 15 years 
ago--we still do not understand what causes some tropical systems to 
jump two intensity categories in less than 24 hours, while others do 
not. NOAA's goal--through an innovative research-to-operations test-bed 
called the Hurricane Forecast Improvement Project (or HFIP)--is to 
demonstrate a 20 percent reduction to the average errors of hurricane 
track and intensity forecasts by the end of Fiscal Year and 
operationalize that improvement over the next few years. This will 
improve the accuracy and reliability of hurricane forecasts; extend 
lead time for hurricane forecasts with increased certainty; and 
increase confidence in hurricane forecasts. The desired outcome is to 
ultimately reduce the Nation's risk to hurricane impacts by delivering 
improved forecasts and tools for community planners and other 
decisionmakers. The anticipated societal benefits will reduce deaths, 
injuries and property damage, and reduce the other costs associated 
with hurricanes by enabling decisionmakers to better identify at-risk 
populations and property, and by raising the confidence levels to 
initiate mitigation measures further in advance of approaching 
hurricanes.
    NOAA is making investments in key research and development areas 
that address a key information gap today between instruments on Earth's 
surface and on satellites. One area of NOAA investment that could help 
bridge that gap is in Unmanned Aerial Systems (UAS). Operated by remote 
pilots and ranging in wingspan from less than six feet to more than 115 
feet, UAS collect data from dangerous or remote areas. UAS have the 
potential to improve NOAA's ability to monitor and understand the 
global environment by collecting data from areas that are currently 
inaccessible. In partnership with NASA NOAA spent 6 weeks in the fall 
of 2010 studying hurricane formation and development in the Gulf of 
Mexico and the western Atlantic Ocean. Researchers sent the Global 
Hawk, equipped with a suite of instruments, over hurricanes Earl, Karl, 
and other storms in the region. The UAS flew multiple times over 
hurricane eyes, soared above one storm (a record for a unmanned 
aircraft system), and collected high-resolution data on the storms' 
wind and cloud structures, particles in the air, lightning strikes and 
other meteorological variables. NOAA is partnering with other Federal 
agencies, academia, and private companies to test a variety of UAS. UAS 
may also have significant benefits beyond hurricanes, including new 
observational support for improving: the accuracy of other storm, 
flood, and drought forecasts, benefiting emergency managers and diverse 
private industries; our understanding of climate change; assessments of 
changes in Arctic sea ice and effects on ecosystems and coasts; and 
fire weather forecasts to increase safety and success in fighting 
wildfires that threaten people and property.
    NOAA also fosters innovation through partnerships. Water management 
decisionmakers require a new generation of water information, 
forecasts, and decision support. NOAA is working with its Federal 
partners USGS, USACE and others to implement Integrated Water Resources 
Science and Services, creating an integrated, high-resolution common 
operating picture for water information, supporting timely and critical 
water management decision in full coordination and collaboration with 
forecasting and decision support services.
    And finally, advances in data assimilation, computer modeling, and 
atmospheric observations through high-tech polar orbiting satellites 
and geostationary satellites have led to substantial improvements in 
NOAA's model forecasts. For example, leading up to the ``Snowmageddon'' 
event of February 2010, NOAA was able to detect the storm threat seven-
plus days in advance and begin alerting the East Coast up to 5 days in 
advance of the storm. This allowed states to implement contingency and 
continuity of operations plans, airlines to rearrange flights, and the 
retail industry to pre-stock their shelves. As a result, there was 
minimal impact to national and local airline and highway 
transportation. This long lead time was made possible in large part by 
observations obtained by NOAA's polar-orbiting satellite and numerical 
weather prediction models.
    Polar-orbiting satellites are the backbone of all model forecasts 
for 3 days and beyond; however, future innovation in our observations 
and improvements in our forecasting are at risk. The launch of the next 
generation of NOAA's polar-orbiting satellites, the Joint Polar 
Satellite System (JPSS), has been further delayed by funding shortfalls 
in Fiscal Year 2011. As a result, NOAA is faced with a nearly 100 
percent chance of a data gap in the U.S. civilian polar orbit, on which 
both civilian and military users rely, by late 2016 to early 2017 when 
the current polar satellites reach the end of their life expectancy. 
JPSS is a critical part of NOAA's future infrastructure needed to 
continue our path of forecast improvement--and to maintain what we have 
built over the last 30 years. NOAA thanks the Committee, and the Senate 
as a whole, for their recognition of this crucial need and their 
support in the Senate's Fiscal Year appropriations bill for NOAA.
    Uninterrupted flow of data from NOAA satellites is required to 
support two Department of Commerce Primary Mission Essential Functions 
(PMEF),\1\ which have been approved by the National Continuity 
Coordinator, thus making NOAA satellites not just NOAA priorities but 
also national priorities. NOAA is investing now to ensure that the 
Nation can continue to rely on these critical observations in the 
future. These observations and the derived products and services allow 
the Nation to prepare effectively for and deal with severe weather and 
other environmental phenomena.
---------------------------------------------------------------------------
    \1\ PMEF DOC-2: Collect and provide the Nation with critical 
intelligence data, imagery, and other essential information for 
predictive environmental and atmospheric modeling systems and space-
based distress alert systems by operating NOAA-controlled satellites, 
communications equipment, and associated systems.
    PMEF DOC-3: Provide the Nation with environmental forecasts, 
warnings, data, and expertise critical to public safety, disaster 
preparedness, all-hazards response and recovery, the national 
transportation system, safe navigation, and the protection of the 
Nation's critical infrastructure and natural resources.
---------------------------------------------------------------------------
Getting the Word Out
    As the Federal Government's sole official voice for issuing 
warnings during life-threatening weather events, and as an established, 
reliable, and trusted source, NOAA provides the Nation's first line of 
defense against severe weather. NOAA operates the Nation's 
geostationary and polar orbiting satellites, a nationwide network of 
Doppler weather radars and surface observing stations. Scientists 
develop computational models that combine these observations with 
equations describing the physics of our atmosphere and ocean, and our 
forecasters interpret and deliver critical information. Alerts and 
warnings for severe weather and other near term hazards (tornadoes, 
hurricanes, severe thunderstorms, winter storms, most floods, chemical 
spills, volcanic ash, tsunami, space weather, etc.,) are delivered 
through multiple redundant mechanisms, including: NOAA Weather Radio, 
which triggers the Emergency Alert System; NWSChat, which focuses on 
real-time coordination with local core customers in the broadcast media 
and emergency management; the Internet; and, through our private sector 
partners, commercial television and radio, which communicate critical 
information to much larger audiences and effectively inform those in 
harm's way to take appropriate action.

Preparedness
    Our prospects for achieving our vision of resilient communities lie 
in our unique enterprise capabilities. The goal of disaster resilience 
is to enhance the capacity of a community exposed to hazards to adapt, 
by resisting or changing, in order to reach and maintain an acceptable 
level of functioning and structure. The preparedness challenge remains 
essentially the same across both short-term and long-term weather and 
water events: public awareness, education, and plans of action to 
mitigate impacts on the personal, community, and regional scales 
provide the best protection against potential disasters. NOAA has long-
held and strongly established ties to the emergency management 
community, through state, local, and tribal officials, which help 
ensure appropriate action is taken to prepare communities for weather 
and water events. NOAA and its partners, such as the National Sea Grant 
network, use integrated research, training, and technical assistance to 
enhance the ability of communities to prepare for, respond to, and 
rebuild after disasters strike. For example, we are developing a 
Coastal Resilience Index that provides a tangible way for communities 
to identify gaps and examine how prepared they are for storms and storm 
recovery, and provide guidance on how to increase resilience through 
measures including strengthening infrastructure or adopting stricter 
building codes.
    The historic floods, which spanned from Montana across the Dakotas, 
into northern and central plains and southern Mississippi Valley 
earlier this year, are an excellent example of why we need to prepare 
for catastrophic events. The NOAA spring flood outlook highlighted 
those particular areas as having the likelihood of major flooding. Our 
River Forecast Centers and local Weather Forecast Offices worked with 
Federal, state and local emergency managers and planners to help 
prepare for and plan to mitigate the impact of the flooding. Based on 
our forecasts, communities took extensive actions to limit the impact 
of the flooding, including massive levee reinforcements and eventual 
evacuations to prevent loss of life. FEMA prepositioned relief assets, 
and the USGS ensured their river gauges were operational--all of the 
agencies worked together to help mitigate the potential impact.
    Unfortunately, in spite of our best efforts, severe weather events 
still cause loss of life and significant damage. More of this could be 
mitigated with more timely, accurate and focused warnings. The impacts 
and lives lost from the disasters mentioned above would have been far 
worse without critical data input of observations from satellites and 
in-situ observations, and the extensive work of NOAA and our Federal, 
non-Federal, state, and local partners to improve the Nation's 
preparedness for these events through education and outreach. However, 
as evidenced by the tragic loss of life in a number of these events, 
there is a long way to go to truly achieve a Weather-Ready Nation.

Achieving a Weather- and Water-Ready Nation
    With the high death toll and impacts we've seen this year, we take 
little solace in knowing that outcomes could have been worse without 
the extensive work of NOAA and our Federal, non-Federal, state, and 
local partners. There is much more that needs to be done to improve the 
Nation's resilience for these events. Research, education, and outreach 
are the essential ingredients to improving preparedness and via 
improved forecast and warning accuracy and lead times. Realizing a 
Weather-Ready Nation, where society is prepared for and responds to 
weather dependent events, is vital.
    NOAA has started a national dialog with the Nation's top experts in 
broadcast meteorology, emergency management, and the weather industry 
to examine what is happening with severe weather and what can be done 
in the short-and long-term to improve the Nation's severe weather 
forecasts and warnings, and community preparedness. Included in this 
effort are social sciences, innovative technologies, and social media 
to improve our effectiveness in reaching those in harm's way and 
provoking appropriate response, whether to the urgency of a tornado or 
tsunami warning, or to the longer-term likelihoods of flooding or 
drought. For example, most NWS offices have established Facebook pages, 
providing an additional medium for conducting outreach and education, 
as well as highlighting information about ongoing or upcoming weather 
events. Additionally, NOAA uses NWSChat to give private sector partners 
an invaluable opportunity to interact with NWS experts and to refine 
and enrich their communications to the public. Moreover, more private 
companies are carrying weather warnings on wireless networks, providing 
real-time alerts to your cell phone or e-mail.
    Sustaining our commitment to existing services, while continuing to 
innovate to improve our capacity to meet the Nation's weather and water 
needs, requires targeted investments to shore up aging infrastructure, 
improve scientific understanding, and implement enhanced services to 
reduce risk to the Nation caused by weather and water. NOAA must 
increase our capacity to collect and assimilate increasing amounts of 
data to improve model performance, which is achieved through scientific 
innovation and technological advancements. Future technology 
improvements include more advanced polar and geostationary satellites, 
more sophisticated radar coverage, observing systems, and improved 
computing capabilities. These technology assets are crucial pieces of 
our national infrastructure.
    Additional, innovative projects, such as the Weather and Emergency 
Manager Decision Support (WxEM) and the HFIP's Socio-Economic Research 
Recommendations Projects are also integrating social science into NOAA 
products and information to encourage more resilient behavior that 
reduces loss of life and property.
    Through the Weather and Emergency Manager Decision Support, NOAA is 
exploring ways to make its information easier to find, easier to 
understand, and easier to apply in operations by the Emergency 
Management community. This will result in improved decisionmaking for 
risk management of life and property. Further, the HFIP Socio-Economic 
Research project is using social science to help improve tropical 
cyclone risk communication, including the development of new or 
reconfigured existing graphics (e.g., the hurricane forecast cone of 
uncertainty) and visualization techniques, to better communicate 
tropical cyclone and storm surge risk and promote appropriate public 
response.
    We know that NOAA forecasts, warnings, and community-based 
preparedness programs are vital in enhancing the economy and saving 
lives. It all starts with a commitment on improved forecasting and ends 
with a Weather-Ready Nation in which businesses, governments, and 
people are prepared to use those forecasts to mitigate impacts.

Summary
    To achieve an increase in community resilience and reduce the 
Nation's vulnerability to weather and water related extreme events, we 
must continue to improve predictions. Again, our Nation's environmental 
predictive capabilities are supported by four foundational pillars: 
observations, computer models, research, and our people. By 
strengthening the pillars--through continued innovation in improved 
satellite and in-situ observations, computing capacity, coupled 
atmosphere, ocean, land models, and necessary research and science 
improvement--we can revolutionize the forecast process across the 
entire spectrum from relatively small-scale, short range applications 
to long range weather and climate predictions.
    The dual goals of preparing for and mitigating natural hazards 
require the continuous commitment and partnership of many individuals 
and sectors--from Federal, state, tribal, and local to public, private, 
and academic. The investments made by Congress and the Administration 
in NOAA's weather prediction and warning capabilities directly save 
lives in the United States during these weather disasters. NOAA remains 
committed to leading U.S. efforts to save lives and property through 
preparedness, detection, modeling, and forecasting efforts necessary 
for improved decisionmaking. Although nothing can eliminate the 
physical threat that severe weather and natural hazards pose, NOAA has 
demonstrated success in better predicting them, reducing their impact, 
and helping vulnerable communities become more resilient to their 
devastating effects--and will work to continuously improve its natural 
hazards products and services to the Nation.

    Senator Begich. Thank you very much for your comments.
    Next we'd like to have Todd Zinser, Inspector General, U.S. 
Department of Commerce.

   STATEMENT OF HON. TODD J. ZINSER, INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Zinser. Thank you, Mr. Chairman, Ranking Member Snowe. 
Thank you for the opportunity to testify today, and thank you 
for your recognition of Mary's service. It's been a privilege 
of mine to serve with her these past 4 years as Inspector 
General.
    My office has oversight responsibility for NOAA, including 
NOAA's weather satellite programs. We recently issued an audit 
report this past September on the Joint Polar Satellite System, 
known as JPSS. My written testimony summarizes our findings and 
recommendations, and this morning I would just offer three 
observations based on our continuing oversight.
    First, JPSS is a critically important program for the 
Nation and its ability to observe weather and provide data for 
forecast watches and warnings, but it is a program that must 
overcome years of setbacks experienced by its predecessor 
program called the National Polar-orbiting Operational 
Environmental Satellite System, or NPOESS. NPOESS was an early 
effort dating back to the mid-1990s to reduce duplication and 
overlap in the polar environmental satellite programs of the 
Department of Defense, NASA and NOAA. The effort did not 
succeed, and, in February 2010, after many years of delays and 
cost overruns, in February 2010 the administration restructured 
the program. This involved decoupling Defense on the one hand 
and NOAA and NASA on the other.
    NOAA and NASA are now partners on JPSS and my sense is 
that, despite a difficult transition over the past 21 months, 
the program officials are continuing to work diligently and are 
optimistic about continued progress of the program.
    My second observation is that there are many challenges 
ahead for JPSS, and those challenges must now be met against a 
backdrop of seriously constrained budgets for perhaps the next 
decade. We have placed these challenges into two groups. Number 
one, the JPSS program must take steps to prevent a potential 
near-term coverage gap from the current polar satellite called 
NOAA-19, and a stop-gap satellite called NPOESS Preparatory 
Project, or NPP that was successfully launched late last month 
as part of a contingency plan. NPP was originally intended as a 
test satellite but has been launched with the intent to use the 
data it collects to provide continuity of weather observations.
    While NPP was successfully launched by NASA and the 
checkout period for the instruments is progressing well, it is 
expected to take 18 months or longer before the NPP satellite 
data is fully operational. That 18-month time-frame coincides 
with the end of NOAA-19's design life in March 2013, leaving 
very little room for contingencies and creating the potential 
for a near-term coverage gap. The plan to use NPP as a 
contingency created other challenges identified in our 
September report.
    The second major challenge for the JPSS program is to 
mitigate a longer-term coverage gap that is expected to occur 
between the end of design life for the NPP satellite and the 
operational date for JPSS-1. NPP's projected end of design life 
is November of 2016. The program plans to launch JPSS-1 in the 
first quarter of Fiscal Year 2017. That date depends on full 
funding for JPSS for Fiscal Year 2012 and beyond. There will 
also be a checkout period for JPSS-1 instruments which could 
extend from 6 to 18 months after launch. If an extended 
checkout period is necessary for JPSS-1, the coverage gap for 
polar satellite data could be as long as 21 months.
    My third observation, then, Mr. Chairman, is that the 
senior management at NOAA and the JPSS program must take steps 
(a) to ensure that there is no additional slippage in the 
schedule through close management of the program and (b) 
minimize the potential impact of any coverage gap. Our recent 
report makes two recommendations in that regard.
    First, NOAA needs to finalize a program baseline which 
includes costs, and scheduling requirements, and keep the 
Department and Congress informed of the program's performance 
against that baseline. In doing so, the JPSS program should 
prioritize all requirements and contingencies in order to 
maintain the current planned launch date.
    Second, NOAA should coordinate across the agency to develop 
contingencies for a coverage gap. NOAA needs to ensure, for 
example, that the scientists who work for the National Weather 
Service are working together with the scientists from the 
satellite service to develop options for using data from all of 
its sources to compensate for some of the possible loss of 
polar satellite data. Our concern is that, at this point, there 
is no coordinated approach to the problem across NOAA's lines 
of businesses--and that there should be.
    Mr. Chairman, this concludes my statement. I'd be happy to 
respond to any questions.
    [The prepared statement of Mr. Zinser follows:]

     Prepared Statement of Hon. Todd J. Zinser, Inspector General, 
                      U.S. Department of Commerce

    Chairman Begich, Ranking Member Snowe, and Members of the 
Subcommittee:

    I appreciate the opportunity to testify today about the challenges 
NOAA faces in its efforts to develop and launch its new environmental 
satellites while minimizing expected data gaps.
    For the past 50 years, NOAA, in partnership with the National 
Aeronautics and Space Administration (NASA), has been responsible for 
developing and operating polar and geostationary environmental 
satellite systems. NOAA's environmental satellite operations and 
weather forecasting are designated primary mission-essential functions 
of the Department of Commerce because they directly support government 
functions the President has deemed necessary to lead and sustain the 
Nation during a catastrophe. But NOAA's current constellation of polar 
and geostationary operational environmental satellites is aging, and 
its capabilities will degrade over time. As a result, the risk 
increases for gaps in critical satellite data.
    Between 1995 and early 2010, NOAA partnered with the Department of 
Defense (DOD) and NASA in the development of the National Polar-
orbiting Operational Environmental Satellite System (NPOESS), which was 
at that time the planned replacement system for NOAA's Polar 
Operational Environmental Satellite System and DOD's Defense 
Meteorological Satellite Program. The original NPOESS program was to 
develop six satellites, with first launch planned for 2009 and an 
estimated life-cycle cost of $6.5 billion through 2018. By late 2009, 
however, the program had reduced its scope to four satellites; the 
first launch was delayed until 2014, while its life-cycle cost estimate 
had escalated to $14 billion through 2026.
    In February 2010, the White House's Office of Science and 
Technology Policy announced its decision to have NOAA, in partnership 
with NASA, establish the Joint Polar Satellite System (JPSS) program as 
part of a NPOESS restructuring due to its long history of cost overruns 
and schedule delays. At that time, the JPSS program planned to launch 
two satellites--at an estimated cost of $11.9 billion--to collect data 
for short-and long-term weather and climate forecasting through 2026. 
In order to be included in the Fiscal Year President's budget request, 
NOAA had to develop the JPSS budget estimate so quickly that--while 
NOAA had existing NPOESS requirements in place--it did not have time to 
formally approve high-level requirements for JPSS. In September 2011, 
NOAA notified Congress that it had recently completed its high-level 
JPSS requirements, was refining its cost estimate, and planned to 
incorporate updated baselines (cost, schedule, and performance) in the 
upcoming Fiscal Year budget submission.
    The Senate Committee on Appropriations has proposed funding JPSS 
with $921 million in Fiscal Year while the House of Representatives 
appropriations bill recommends $901 million. Both bills fall short of 
the President's $1.07 billion budget request for JPSS, which the 
program maintains is necessary to ensure the first JPSS satellite's 
(JPSS-1's) launch date in the first quarter of 2017.
    Given its history, this critical program requires strong program 
management and close oversight to minimize further delays and prevent 
interruptions in satellite coverage. Our work has identified these 
near-term priorities for NOAA as it manages JPSS:

  <bullet> complete the data checkout for the NPOESS Preparatory 
        Project (NPP) and

  <bullet> strengthen program management and systems engineering to 
        mitigate JPSS coverage gaps.

Preventing Near-Term Coverage Gaps: from NOAA-19 to NPP
    JPSS-1 will be preceded in orbit by the NPP satellite, originally a 
NASA-led risk reduction effort to test NPOESS' new instruments in 
flight. NOAA will now use NPP to maintain continuity of climate and 
weather forecast data between NOAA's current polar-orbiting operational 
environmental satellite (NOAA-19) and JPSS-1. Despite recent efforts by 
NASA's NPP team (including contractors) to meet the satellite's 
scheduled launch date, late development of the ground system has 
compressed the mission schedule--and delayed the schedule for data 
product availability.
    Since we issued our September 30, 2011, report on JPSS, NASA 
successfully launched NPP on October 28 and reports that satellite 
checkout activities, such as instrument activation, are proceeding 
according to schedule. Once checkout completes, NASA will turn the 
satellite over to the JPSS program to calibrate the instruments and 
validate the scientific quality of data products; ultimately, the JPSS 
program will hand over satellite operations to NOAA.
    After the launch, NOAA originally planned to make NPP operationally 
ready in 18 months, which coincides with the end of the design life of 
NOAA-19 (approximately March 2013). This plan left little room for 
contingencies. Both NOAA and our office have identified a number of 
risks that, if not properly mitigated, could cause further delays in 
NPP operational readiness and degradation of NOAA's weather and climate 
forecasting capability:

  <bullet> Potential coverage gap. According to the ground system's 
        contractor, Raytheon, the ground system will not be able to 
        support the validation of a significant number of data records 
        until after a system upgrade, planned for March 2012. In 
        addition, NOAA has not finalized coordination between the NPP/
        JPSS program and NOAA's Center for Satellite Applications and 
        Research (STAR), which is critical to transferring satellite 
        observation into operations. Consequently, NOAA has extended 
        its projection for readiness from 18 to 24 months after launch, 
        which could lead to a gap in operational data between NOAA19 
        and NPP if NOAA-19 stops functioning properly at the end of its 
        design life.

  <bullet> Insufficient number of ground station locations. Unlike 
        NOAA's existing operational satellite systems, NPP has only a 
        single mission management center for controlling the satellite, 
        and NPP's ground station has the system's only science data 
        downlink (the means to transmit a signal from the satellite to 
        the ground station). NOAA and JPSS program officials have 
        commissioned studies to develop an alternate mission management 
        center and hope to have one ready well in advance of the JPSS-1 
        launch. Program officials indicated that the ground station has 
        redundancy in terms of antennas and equipment. However, while 
        there is redundancy, the use of a single ground station in a 
        single geographic location is not consistent with NOAA's 
        existing polar and geostationary operational environmental 
        satellite systems, which use more than one location.

  <bullet> Postlaunch ground system development challenges. NASA 
        conducted two major ground system/NPP satellite compatibility 
        tests in 2011; the first test had been delayed when ground 
        system software builds took longer than expected to produce. 
        Both tests experienced further delays and compressed the 
        remaining work schedule for the NPP launch. NASA has also 
        postponed analysis of some test results and requirements 
        verification. Further, in response to an independent review 
        team's recommendations, the project completed a stress test in 
        late September and early October to evaluate NPP's operational 
        readiness--any system fixes required to mitigate identified 
        concerns would add to the postlaunch data production workload.

    In order to reduce the risk of a data gap between NOAA-19 and NPP, 
NOAA management needs to provide sufficient oversight to enable 
communication and coordination between the JPSS program and STAR. 
Further, it must balance instrument calibration and data validation 
activities (needed to produce operational data) with other ground 
system development tasks. NOAA should also determine the feasibility of 
establishing an alternate mission management center and an additional 
science data downlink for NPP as soon as possible.

Mitigating Longer-Term Coverage Gaps: from NPP to JPSS-1
    NOAA expects a gap in weather and climate observations between 
NPP's end of design life and the operational date of JPSS-l. NPP's 
projected end of design life is November 2016, NOAA plans to launch 
JPSS-1 in the first quarter of 2017,\1\ and there is a minimum 6-month 
checkout period before key data products from JPSS-1 will become 
operational. We project that, due to continued budget uncertainty and 
probable Fiscal Year funding somewhat below the President's budget 
request, the JPSS-1 launch date will be no earlier than February 2017. 
Based on a February 2017 launch, the gap would last at least 9 months 
(3 months from November to February, plus the additional 6 months for 
checkout). Should checkout take 18 months (as NOAA predicts NPP's 
will), the gap would extend a total of 21 months (see figure 1). NOAA's 
studies have found that its weather forecasting at 5, 4, and 3 days 
before an event could be significantly degraded during the coverage gap 
period.
---------------------------------------------------------------------------
    \1\ NOAA projected a JPSS-1 launch in the first quarter of Fiscal 
Year 2017, pending (1) the program receiving the full President's 
budget request for Fiscal Year 2012 ($1.07 billion) and beyond and (2) 
no Fiscal Year 2012 continuing resolution beyond the first quarter of 
Fiscal Year 2012.
---------------------------------------------------------------------------
    JPSS-1 will require a checkout period longer than 6 months to 
achieve full operational capability (versus an interim capability to 
produce key data products). Full checkout could be prolonged because 
JPSS-1 instruments will have manufacturing changes from the models 
flown on NPP--and, in all probability, NPP will no longer be 
operational when JPSS-1 is on-orbit, thus leaving the JPSS-1 mission 
without a direct, and more efficient, means for comparison.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: OIG analysis of NOAA data, as of August 22, 2011.

    We have identified the following areas that require senior 
management attention to help ensure JPSS-1 operational readiness and 
minimize the potential impact of the coverage gap:

  <bullet> Prioritize all JPSS requirements,\2\ develop reliable cost 
        estimates to support future funding requests, and 
        systematically communicate planned actions and progress with 
        decisionmakers. NOAA is currently developing a revised life-
        cycle cost estimate. Additionally, NOAA tasked NASA with 
        developing contingencies that prioritize some of the most 
        important requirements and maintain a launch readiness date no 
        later than February 2017. We believe the JPSS program should 
        formally prioritize all of its requirements, not just the 
        subset in this contingency exercise, so that it can efficiently 
        adjust the program's performance capabilities or launch dates, 
        if needed, in response to year-to-year funding variances. 
        Further, the program should develop a plan to accommodate 
        requirements that may have to be removed or relaxed when annual 
        funding falls short of the program's budget but could be 
        recouped in future appropriations. Finally, due to the 
        importance and complexity of the JPSS program, NOAA must 
        establish a program baseline (cost, schedule, and requirements) 
        as soon as possible--and keep the Department and Congress 
        informed of its planned actions and progress against this 
        baseline to facilitate decisionmaking.
---------------------------------------------------------------------------
    \2\ High-level requirements include the number of spacecraft, the 
instruments needed, the observational data to be provided, the 
timeliness of data delivery, and data distribution methods, among 
others.

  <bullet> Coordinate NOAA response, in case NPP does not live through 
        its 5-year design life. The NPP spacecraft was designed to last 
        5 years and carries enough fuel to last 7 years. However, most 
        of its instruments were managed and developed under the NPOESS 
        contract, which received limited government oversight and had a 
        history of technical issues. Additionally, under the NPOESS 
        contract, NASA lacked technical oversight during the instrument 
        development, manufacturing, and testing phases, creating 
        uncertainty about the instruments' ability to operate for the 
        length of the spacecraft's design life. For these reasons, 
        NASA's revised criteria for NPP mission success called for only 
        3 years of operability. Although NOAA's current analysis 
        assumes that NPP will have a 5-year operational life, NOAA 
        understands that a residual risk of a shorter life expectancy 
        remains due to the lack of oversight during the development of 
        most of NPP's instruments. In order to sufficiently prepare for 
        an expected gap in polar satellite data from the afternoon 
        orbit, NOAA should coordinate efforts from across its line 
        offices to minimize the degradation of weather and climate 
---------------------------------------------------------------------------
        forecasting during gaps in coverage.

    In conclusion, Mr. Chairman, we have provided (and will continue to 
provide) our independent assessment of the JPSS program. We look 
forward to NOAA's action plan to address recommendations in our 
September 30 audit report. The hope is that, when closing the looming 
satellite coverage gaps, NOAA finds innovative solutions--and can 
convey them, in a timely fashion, to Congress and other stakeholders. 
This concludes my prepared statement, and I will be pleased to respond 
to any questions you or other Subcommittee members may have.

    Senator Begich. Thank you very much.
    Next we have David Trimble, Director, Natural Resources and 
Environment, Government Accountability Office.

            STATEMENT OF DAVID C. TRIMBLE, DIRECTOR,

               NATURAL RESOURCES AND ENVIRONMENT,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. Chairman Begich, Ranking Member Snowe, I'm 
pleased to be here today to discuss Federal efforts to provide 
climate data and services to decisionmakers. Recent assessments 
of the potential impacts of climate change in the United States 
have found, among other things, that climate-related changes 
such as rising temperature and sea level will combine with 
pollution, population growth, urbanization, and other social, 
economic and environmental stresses to create larger impacts 
than from any one of these factors alone.
    Policymakers are increasingly viewing adaptation, defined 
as adjustments to natural human systems in response to actual 
or expected climate change, as a risk management strategy to 
protect vulnerable sectors and communities that might be 
affected by changes in the climate. It may be costly to raise 
river or coastal dikes to protect communities and resources 
from sea level rise, build higher bridges or improve storm 
water systems, but there is a growing recognition that the cost 
of inaction could be greater.
    Over the years, GAO has reported on many climate change 
issues, including recent reports on adaptation and Federal 
funding for climate change programs and activities. Let me 
highlight four points from these reports.
    First, climate change adaptation has begun to receive more 
attention and resources because the greenhouse gases already in 
the atmosphere are expected to continue altering the climate 
system into the future regardless of efforts to control 
emissions. Further, there is a growing recognition that past 
practices for making decisions may no longer be reliable. 
According to the National Research Council, many decision rules 
for such things as building bridges or establishing zoning 
rules assume a continuation of past climate conditions with 
similar patterns or variation and the same probability of 
extreme events. According to the NRC, that assumption, 
fundamental to the way people and organizations make their 
choices, is no longer valid.
    Second, Federal, state and local authorities on the front 
line of early adaptation efforts face challenges obtaining 
local or site-specific climate data such as projected 
temperature and precipitation changes, and translating that 
data into information they need to make decisions. The lack of 
such data makes it hard for these officials to understand or 
quantify the potential impacts of climate change, and difficult 
to justify the cost of adaptation efforts since projections of 
future benefits are less certain than current costs.
    Third, according to the experts we have surveyed, Federal 
actions to provide and interpret site-specific information 
could help address some of these challenges. Our 2009 report on 
climate change adaptation discusses several potential actions 
that Federal, state and local officials identified as useful to 
inform adaptation decisionmaking. These included state and 
local climate change impact and vulnerability assessments, and 
the development of processes and tools to access, interpret, 
and apply climate information.
    In that report, we also obtained information regarding the 
creation of a climate service, a Federal service to consolidate 
and deliver climate information to decisionmakers to inform 
their adaptation efforts. While we have not made a 
recommendation regarding the creation of a climate service 
within NOAA or any other agency or interagency body, our 2009 
report discussed a range of potential strengths and limitations 
of such a service.
    Fourth, adaptation will require making policy and 
management decisions that cut across traditional sectors, 
issues and jurisdictional boundaries. Many Federal entities, 
executive offices and organizations manage programs and 
activities related to climate change. However, getting these 
entities to work toward a common goal is complicated. In 2009, 
we recommended the development of a strategic plan to guide the 
nation's efforts to adapt to a changing climate, including the 
identification of mechanisms to increase the capacity of 
Federal, state and local agencies to incorporate information 
about current and potential climate change impacts into 
government decisionmaking.
    The recent Interagency Climate Change Adaptation Task Force 
is a positive step, but coordination on climate change issues 
across the government is still a challenge. Our May 2011 report 
on climate change funding found that Federal officials do not 
have a shared understanding of strategic government-wide 
priorities, including the roles and responsibilities of the key 
Federal entities. In a period of declining budgets, effective 
collaboration across all Federal agencies is critical, now more 
than ever.
    That concludes my statement. I will, of course, be happy to 
answer any questions.
    [The prepared statement of Mr. Trimble follows:]

Prepared Statement of David C. Trimble, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office

    Chairman Begich, Ranking Member Snowe, and Members of the 
Subcommittee:

    I am pleased to be here today to discuss Federal efforts to provide 
climate data and services to decision makers. Climate change is a 
complex, crosscutting issue that poses risks to many existing 
environmental and economic systems, including agriculture, 
infrastructure, ecosystems, and human health. A 2009 assessment by the 
United States Global Change Research Program (USGCRP) found that 
climate-related changes--such as rising temperature and sea level--will 
combine with pollution; population growth; urbanization; and other 
social, economic, and environmental stresses to create larger impacts 
than from any of these factors alone.\1\ According to the National 
Academies, USGCRP, and others, greenhouse gases already in the 
atmosphere will continue altering the climate system into the future, 
regardless of emissions control efforts. Therefore, adaptation--defined 
as adjustments to natural or human systems in response to actual or 
expected climate change--is an important part of the response to 
climate change.
---------------------------------------------------------------------------
    \1\ USGCRP coordinates and integrates Federal research on changes 
in the global environment--including climate change--and their 
implications for society.
---------------------------------------------------------------------------
    Many Federal entities manage climate change programs and 
activities. According to the Office of Management and Budget's June 
2010 Federal Climate Change Expenditures Report to Congress, 9 of the 
15 cabinet-level departments, along with 7 other Federal agencies, 
received funding for climate change activities in Fiscal Year 2010.\2\ 
In addition, entities within the Executive Office of the President, 
such as the Office of Science and Technology Policy, and Federal 
interagency coordinating bodies, like USGCRP, work together to ensure 
Federal climate change activities are guided by the latest climate 
science. A September 2010 report by the National Academy of Public 
Administration, which was prepared for the National Oceanic and 
Atmospheric Administration (NOAA) and Congress, referred to this set of 
Federal activities as the Federal ``climate change enterprise.'' \3\
---------------------------------------------------------------------------
    \2\ Office of Management and Budget, Federal Climate Change 
Expenditures Report to Congress (June 2010). See  http://
www.whitehouse.gov/sites/default/files/omb/assets/legislative_reports/
FY2011_Climate_Change.pdf.
    \3\ Panel of the National Academy of Public Administration, 
Building Strong for Tomorrow: NOAA Climate Service, a report prepared 
for Congress, the Department of Commerce, and NOAA (Sept. 13, 2010).
---------------------------------------------------------------------------
    Federal climate programs are shifting their focus to adaptation and 
climate services. Our October 2009 report on climate change adaptation 
found no coordinated national approach to adaptation, but our May 2011 
report on climate change funding cited indications that Federal 
agencies were beginning to respond to climate change more 
systematically.\4\ About the same time as the issuance of our October 
2009 report, Executive Order 13514 on Federal Leadership in 
Environmental, Energy, and Economic Performance called for Federal 
agencies to participate actively in the Interagency Climate Change 
Adaptation Task Force.\5\ The task force, which began meeting in Spring 
2009, is co-chaired by the President's Council on Environmental 
Quality, NOAA, and the Office of Science and Technology Policy and 
includes representatives from more than 20 Federal agencies and 
Executive Branch offices. The task force was formed to develop Federal 
recommendations for adapting to climate change impacts both 
domestically and internationally and to recommend key components to 
include in a national strategy. In addition, USGCRP recently launched a 
national climate assessment designed to engage stakeholders in a 
process that builds on science, data, and information to help decision 
making. Individual agencies are also beginning to consider adaptation 
actions. For example, in May 2009, the Chief of Naval Operations 
created Task Force Climate Change to address the naval implications of 
a changing Arctic and global environment.
---------------------------------------------------------------------------
    \4\ GAO. Climate Change Adaptation: Strategic Federal Planning 
Could Help Government Officials Make More Informed Decisions, GAO-10-
113, (Washington, D.C.: Oct. 7, 2009), and Climate Change: Improvements 
Needed to Clarify National Priorities and Better Align Them with 
Federal Funding Decisions, GAO-11-317, (Washington, D.C.: May 20, 
2011).
    \5\ For more information about the Interagency Climate Change 
Adaptation Task Force, see http://www.whitehouse.gov/administration/
eop/ceq/initiatives/adaptation.
---------------------------------------------------------------------------
    My testimony today addresses: (1) the data challenges that federal, 
state, and local officials face in their efforts to adapt to a changing 
climate, (2) the actions Federal agencies could take to help address 
these challenges, and (3) Federal climate change strategic planning 
efforts. The information in this testimony is based on prior work, 
largely on our recent reports on climate change adaptation and Federal 
climate change funding.\6\ Our work was based on, among other things, 
analysis of studies; site visits to areas pursuing adaptation efforts; 
responses to a web-based questionnaire sent to federal, state, and 
local officials knowledgeable about adaptation; and interviews with 
such officials. A detailed description of our scope and methodology is 
available in each issued product. All of the work on which this 
statement is based was performed in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \6\ GAO-10-113 and GAO-11-317.
---------------------------------------------------------------------------
A Lack of Site-Specific Data, Such as Local Projections of Expected 
        Changes, Can Challenge the Ability of Officials to Manage the 
        Effects of Climate Change
    As we reported in October 2009, insufficient site-specific data, 
such as local projections of expected changes, make it hard for 
federal, state, and local officials to predict the impacts of climate 
change, and thus hard for these officials to justify the current costs 
of adaptation efforts for potentially less certain future benefits.\7\ 
Based on the responses by a diverse array of federal, state, and local 
officials knowledgeable about adaptation to a web-based questionnaire 
designed for that report, related challenges generally fit into two 
main categories: (1) translating climate data--such as projected 
temperature and precipitation changes--into information that officials 
need to make decisions and (2) difficulty in justifying the current 
costs of adaptation with limited information about future benefits.
---------------------------------------------------------------------------
    \7\ GAO-10-113.
---------------------------------------------------------------------------
    The process of providing useful information to officials making 
decisions about adaptation can be summarized by the following:

  <bullet> First, data from global-scale models must be ``downscaled'' 
        to provide climate information at a geographic scale relevant 
        to decision makers. About 74 percent (133 of 179) of the 
        officials who responded to our questionnaire rated 
        ``availability of climate information at relevant scale (i.e., 
        downscaled regional and local information)'' as very or 
        extremely challenging.

  <bullet> Second, the downscaled climate information must be 
        translated into impacts at the local level, such as increased 
        stream flow. Some respondents and officials interviewed for our 
        October 2009 report said that it is challenging to link 
        predicted temperature and precipitation changes to specific 
        impacts. For example, one Federal official said that ``we often 
        lack fundamental information on how ecological systems/species 
        respond to non-climate change related anthropogenic stresses, 
        let alone how they will respond to climate change.''

  <bullet> Third, local impacts must be translated into costs and 
        benefits, since this information is required for many decision 
        making processes. Almost 70 percent (126 of 180) of the 
        respondents to our questionnaire rated ``understanding the 
        costs and benefits of adaptation efforts'' as very or extremely 
        challenging.\8\ As noted by one local government respondent, it 
        is important to understand the costs and benefits of adaptation 
        efforts so they can be evaluated relative to other priorities.
---------------------------------------------------------------------------
    \8\ The number of respondents varies because some officials did not 
respond to certain questions.

  <bullet> Fourth, decision makers need baseline monitoring data to 
        evaluate adaptation actions over time. Nearly 62 percent (113 
        of 181) of the respondents to our questionnaire rated the 
        ``lack of baseline monitoring data to enable evaluation of 
        adaptation actions (i.e., inability to detect change)'' as very 
---------------------------------------------------------------------------
        or extremely challenging.

    These challenges make it difficult for officials to justify the 
current costs of adaptation efforts for potentially less certain future 
benefits. A 2009 report by the National Research Council (NRC) 
discusses how officials are struggling to make decisions based on 
future climate scenarios instead of past climate conditions.\9\ 
According to the report, requested by the Environmental Protection 
Agency and NOAA, usual practices and decision rules (e.g., for building 
bridges, implementing zoning rules, using private motor vehicles) 
assume a stationary climate--a continuation of past climate conditions, 
including similar patterns of variation and the same probabilities of 
extreme events. According to the NRC report, that assumption, which is 
fundamental to the ways people and organizations make their choices, is 
no longer valid.
---------------------------------------------------------------------------
    \9\ National Research Council of the National Academies, Panel on 
Strategies and Methods for Climate-Related Decision Support, Committee 
on the Human Dimensions of Global Change, Informing Decisions in a 
Changing Climate (Washington, D.C., 2009).
---------------------------------------------------------------------------
Federal Actions to Provide and Interpret Site-Specific Information 
        Would Help Officials Understand the Impacts of Climate Change 
        and Available Adaptation Strategies
    Federal actions to provide and interpret site-specific information 
would help address challenges associated with adaptation efforts, based 
on our analysis of responses to the web-based questionnaire and other 
materials analyzed for our October 2009 report.\10\ The report 
discussed several potential Federal actions that federal, state, and 
local officials identified as useful to inform adaptation decision 
making. These included state and local climate change impact and 
vulnerability assessments and the development of processes and tools to 
access, interpret, and apply climate information. In that report, we 
also obtained information regarding the creation of a climate service--
a Federal service to consolidate and deliver climate information to 
decision makers to inform adaptation efforts.
---------------------------------------------------------------------------
    \10\ GAO-10-113.
---------------------------------------------------------------------------
    About 61 percent (107 of 176) of the federal, state, and local 
officials who responded to the web-based questionnaire developed for 
our October 2009 adaptation report rated the ``creation of a Federal 
service to consolidate and deliver climate information to decision 
makers to inform adaptation efforts'' as very or extremely useful.\11\ 
Respondents offered a range of potential strengths and weaknesses for 
such a service. Several said that a climate service would help 
consolidate information and provide a single-information resource for 
local officials, and others said that it would be an improvement over 
the current ad hoc system. A climate service would avoid duplication 
and establish an agreed set of climate information with uniform 
methodologies, benchmarks, and metrics for decision making, according 
to some officials. According to one Federal official, consolidating 
scientific, modeling, and analytical expertise and capacity could 
increase efficiency. Similarly, some officials noted that with such 
consolidation of information, individual agencies, states, and local 
governments would not have to spend money obtaining climate data for 
their adaptation efforts. Others said that it would be advantageous to 
work from one source of information instead of different sources of 
varying quality. Some officials said that a climate service would 
demonstrate a Federal commitment to adaptation and provide a credible 
voice and guidance to decision makers. In an announcement on February 
8, 2010, the Department of Commerce proposed establishing a NOAA 
climate service. Though not yet established, information is available 
on the NOAA climate service website, including draft vision and 
strategic framework documents.\12\ According to NOAA documents, such a 
climate service would provide a single, reliable, and authoritative 
source for climate data, information, and decision support services to 
help individuals, businesses, communities, and governments make smart 
choices in anticipation of a climate changed future.\13\ A September 
2010 report by the National Academy of Public Administration discusses 
the factors needed for a NOAA climate service to succeed--such as the 
designation of a lead Federal agency to be the day-to-day integrator of 
the overall Federal effort regarding climate science and services--and 
makes recommendations on how to achieve those factors.\14\
---------------------------------------------------------------------------
    \11\ GAO-10-113.
    \12\ For more information about the NOAA Climate Service, see 
http://www.noaa.gov/climate.html. A range of climate information is 
presented at www.climate.gov, NOAA's Climate Services Portal.
    \13\ The Department of Defense and Full Year Continuing 
Appropriations Act, 2011 prohibited any funds appropriated in the act 
to be used to implement, establish, or create a NOAA Climate Service as 
NOAA had previously described it during Fiscal Year 2011.
    \14\ Panel of the National Academy of Public Administration, 
Building Strong for Tomorrow: NOAA Climate Service, a report prepared 
for Congress, the Department of Commerce, and NOAA (Sept. 13, 2010).
---------------------------------------------------------------------------
    Other respondents to our questionnaire, however, were less 
enthusiastic about the creation of a climate service. Some voiced 
skepticism about whether it was feasible to consolidate climate 
information, and others said that such a system would be too rigid and 
may get bogged down in lengthy review processes. Furthermore, certain 
officials stated that building such capacity may not be the most 
effective place to focus Federal efforts because the information needs 
of decision makers vary so much by jurisdiction. Several officials 
noted that climate change is an issue that requires a multidisciplinary 
response, and a single Federal service may not be able to supply all of 
the necessary expertise. For example, one Federal official stated that 
the information needs of Bureau of Reclamation water managers are quite 
different from the needs of Bureau of Land Management rangeland 
managers, which are different from the needs of all other resource 
management agencies and programs. The official stated that it seems 
highly unlikely that a single Federal service could effectively 
identify and address the diverse needs of multiple agencies. Several 
respondents also said that having one preeminent source for climate 
change information and modeling could stifle contrary ideas and 
alternative viewpoints. Moreover, several officials who responded to 
our questionnaire were concerned that a climate service could divert 
attention and resources from current adaptation efforts by reinventing 
duplicative processes without making use of existing structures. The 
2009 NRC report on informing decisions in a changing climate recommends 
that the Federal government's adaptation efforts should be undertaken 
through a new integrated interagency initiative with both service and 
research elements but that such an initiative should not be centralized 
in a single agency.\15\ Doing so, according to this report, would 
disrupt existing relationships between agencies and their 
constituencies and formalize a separation between the emerging science 
of climate response and fundamental research on climate and the 
associated biological, social, and economic phenomena. Furthermore, the 
report states that a climate service located in a single agency and 
modeled on the weather service would by itself be less than fully 
effective for meeting the national needs for climate-related decision 
support. The NRC report also notes that such a climate service would 
not be user-driven and so would likely fall short in providing needed 
information, identifying and meeting critical decision support research 
needs, and adapting adequately to changing information needs.
---------------------------------------------------------------------------
    \15\ USGCRP's September 30, 2011 Draft Strategic Plan reflects 
elements of these NRC recommendations.
---------------------------------------------------------------------------
    We have not made recommendations regarding the creation of a 
climate service within NOAA or any other agency or interagency body, 
although the provision of climate data and services will be an 
important consideration in future governmentwide strategic planning 
efforts, particularly in an era of declining budgets.
Federal Climate Change Strategic Planning Efforts Could Be Improved
    Federal strategic planning efforts could be improved for many 
aspects of the climate change enterprise. Our October 2009 report on 
climate change adaptation concluded that, to be effective, related 
Federal efforts must be coordinated and directed toward a common 
goal.\16\ This report recommended the development of a strategic plan 
to guide the Nation's efforts to adapt to a changing climate, including 
the identification of mechanisms to increase the capacity of federal, 
state, and local agencies to incorporate information about current and 
potential climate change impacts into government decision making. Some 
actions have subsequently been taken to improve Federal adaptation 
efforts, but our May 2011 report on climate change funding found that 
Federal officials do not have a shared understanding of strategic 
governmentwide priorities.\17\ This report recommended, among other 
things, the clear establishment of Federal strategic climate change 
priorities, including the roles and responsibilities of the key Federal 
entities, taking into consideration the full range of activities within 
the Federal climate change enterprise. In other reports, we also noted 
the need for improved coordination of climate-related activities. For 
example, our April 2010 report on environmental satellites concluded 
that gaps in satellite coverage, which could occur as soon as 2015, are 
expected to affect the continuity of important climate and space 
weather measurements.\18\ In that report, we stated that, despite 
repeated calls for interagency strategies for the long-term provision 
of environmental data from satellites (both for climate and space 
weather purposes), our Nation still lacks such plans.
---------------------------------------------------------------------------
    \16\ GAO-10-113.
    \17\ GAO-11-317.
    \18\ GAO. Environmental Satellites: Strategy Needed to Sustain 
Critical Climate and Space Weather Measurements, GAO-10-456, 
(Washington, D.C.: Apr. 27, 2010). For another example of the need for 
improved strategic planning, see Climate Change: A Coordinated Strategy 
Could Focus Federal Geoengineering Research and Inform Governance 
Efforts, GAO-10-903, (Washington, D.C.: Sept. 23, 2010).
---------------------------------------------------------------------------
    Of particular importance in adaptation are planning decisions 
involving physical infrastructure projects, which require large capital 
investments and which, by virtue of their anticipated lifespan, will 
have to be resilient to changes in climate for many decades. The long 
lead time and long life of large infrastructure investments require 
such decisions to be made well before climate change effects are 
discernible. Our ongoing work for the Senate Committee on Environment 
and Public Works Subcommittee on Oversight and Subcommittee on 
Transportation and Infrastructure will explore this issue by reviewing 
the extent to which federal, state, and local authorities consider the 
potential effects of climate change when making infrastructure 
investment decisions.
    Chairman Begich, Ranking Member Snowe, and Members of the 
Subcommittee, this concludes my prepared statement. I would be happy to 
respond to any questions that you or other Members of the Subcommittee 
may have.

Why GAO Did This Study
    Climate change is a complex, crosscutting issue that poses risks to 
many existing environmental and economic systems, including 
agriculture, infrastructure, ecosystems, and human health. A 2009 
assessment by the United States Global Change Research Program (USGCRP) 
found that climate-related changes---such as rising temperature and sea 
level---will combine with pollution, population growth, urbanization, 
and other social, economic, and environmental stresses to create larger 
impacts than from any of these factors alone.
    According to the National Academies, USGCRP, and others, greenhouse 
gases already in the atmosphere will continue altering the climate 
system into the future, regardless of emissions control efforts. 
Therefore, adaptation---defined as adjustments to natural or human 
systems in response to actual or expected climate change---is an 
important part of the response to climate change.
    This testimony addresses (1) the data challenges that Federal, 
state, and local officials face in their efforts to adapt to a changing 
climate, (2) the actions Federal agencies could take to help address 
these challenges, and (3) Federal climate change strategic planning 
efforts. The information in this testimony is based on prior work, 
largely on GAO's recent reports on climate change adaptation (GAO-10-
113) and Federal climate change funding (GAO-11-317). These reports are 
based on, among other things, analysis of studies, site visits to areas 
pursuing adaptation efforts, and responses to a web-based questionnaire 
sent to Federal, state, and local officials.

What GAO Found
    As GAO reported in October 2009, challenges from insufficient site-
specific data--such as local projections--make it hard for Federal, 
state, and local officials to predict the impacts of climate change, 
and thus hard to justify the current costs of adaptation efforts for 
potentially less certain future benefits. Based on responses from a 
diverse array of Federal, state, and local officials knowledgeable 
about adaptation, related challenges generally fit into two main 
categories: (1) translating climate data--such as projected temperature 
and precipitation changes--into information that officials need to make 
decisions and (2) the difficulty in justifying the current costs of 
adaptation with limited information about future benefits.
    Federal actions to provide and interpret site-specific information 
would help address data challenges associated with adaptation efforts, 
based on responses to GAO's web-based questionnaire sent to Federal, 
state, and local officials and other materials analyzed for its October 
2009 report. In addition to several potential Federal actions 
identified as useful by respondents to GAO's questionnaire, including 
the development of state and local climate change vulnerability 
assessments, GAO's 2009 report also contained information about the 
creation of a Federal climate service. Specifically, about 61 percent 
(107 of 176) of respondents rated the ``creation of a Federal service 
to consolidate and deliver climate information to decisionmakers to 
inform adaptation efforts'' as very or extremely useful. Respondents 
offered a range of potential strengths and weaknesses for such a 
service. For example, several respondents stated that a climate service 
would help consolidate information and provide a single information 
resource for local officials. However, some respondents to GAO's 
questionnaire voiced skepticism about whether it was feasible to 
consolidate climate information, and others stated that such a service 
would be too rigid and may get bogged down in lengthy review processes. 
GAO has not made recommendations regarding the creation of a climate 
service within the National Oceanic and Atmospheric Administration or 
any other agency or interagency body.
    Federal strategic planning efforts could be improved for many 
aspects of the climate change enterprise. For example, GAO's October 
2009 report on climate change adaptation concluded that, to be 
effective, related Federal efforts must be coordinated and directed 
toward a common goal. This report recommended the development of a 
strategic plan to guide the Nation's efforts to adapt to a changing 
climate, including the identification of mechanisms to increase the 
capacity of Federal, state, and local agencies to incorporate 
information about current and potential climate change impacts into 
government decisionmaking. Some actions have subsequently been taken to 
improve Federal adaptation efforts, but GAO's May 2011 report on 
climate change funding found that Federal officials do not have a 
shared understanding of strategic governmentwide priorities.
    [For an online version of this testimony, go to  http://
www.gao.gov/products/GAO-12-238T].

    Senator Begich. Thank you very much.
    The next person is Admiral Thomas, Director of Response 
Policy, United States Coast Guard.

STATEMENT OF REAR ADMIRAL CARI B. THOMAS, DIRECTOR OF RESPONSE 
               POLICY, UNITED STATES COAST GUARD

    Admiral Thomas. Good morning, Chairman Begich, Ranking 
Member Snowe, members of the Committee. I'm pleased to appear 
before you today to discuss the United States Coast Guard's use 
of environmental products, satellite distress information 
provided by the National Oceanic and Atmospheric Administration 
in support of Coast Guard operations.
    The Coast Guard has enjoyed a partnership with NOAA for 
more than 100 years. This partnership includes providing 
situational awareness to both professional mariners and 
recreational boaters on impending weather and dangerous 
conditions, as well as NOAA's active participation on the 
National Search and Rescue Committee, of which I had the honor 
to chair.
    In more than 27 years of conducting Coast Guard operations, 
I have used any number of NOAA products to help make critical 
operational decisions. Water temperature, wind and current 
data, and distress alerting information all assist both the art 
and the science of saving lives at sea.
    Specifically, I'd like to share with you today two 
situations that demonstrate the critical role that NOAA plays 
in supporting Coast Guard daily operations.
    In the Gulf of Alaska, five people were forced to abandon 
their fishing vessel into 38-degree water. Tied together and 
adrift in some of the most dangerous waters in the world, it 
was only the SARSAT distress beacon, activated by the crew and 
received by NOAA's weather satellite, that alerted the Coast 
Guard that they were in distress. That distress notification 
was transmitted via the NOAA Mission Control Center in 
Suitland, Maryland, directly to the Coast Guard Rescue 
Coordination Center in Juneau, Alaska.
    In addition, the NOAA weather satellite provided on-scene 
weather information that crews from three helicopters and one 
C130 rescue aircraft used to prepare for the rescue mission. At 
the Juneau Rescue Coordination Center, search and rescue 
specialists helped develop the comprehensive search plans to 
locate the source of the distress alert. Our search planning 
tool uses critical weather, tide, and ocean current information 
provided by NOAA.
    In seconds, this program analyzed the weather and 
environmental data, along with other critical information, to 
develop the most effective search plan, allowing for the 
quickest rescue possible and ultimately minimized risk to our 
search crews and the mariners in distress. Though only three of 
the five crew members were saved that day, the three survivors 
owe their lives in part to NOAA's operation and management of 
the U.S. SARSAT program and environmental information that 
weather and climate services provide to the Coast Guard and 
other partners.
    As dramatic as it sounds, it is this type of case that the 
men and women of the Coast Guard face daily. Last August, and 
right here along the East Coast, NOAA's environmental data was 
used in our own mission planning, port readiness, citizen 
preparedness and infrastructure protection in response to 
Hurricane Irene. NOAA's forecasting assisted the Coast Guard's 
advance planning and enabled commercial and recreational 
vessels alike to seek safety, whether by making preparations to 
prepare ships in port or get their ships under way to evade the 
storm at sea.
    Coast Guard captains in the port were able to make sound 
decisions to limit the amount of time that ports were closed 
during and after the storm. Minimizing the time a U.S. port is 
closed is critical, especially when taking into account the 
economic and security impacts of port closures. These critical 
decisions on port closures during Hurricane Irene by the Coast 
Guard were based in part on the information received by NOAA's 
environmental data.
    Our own rescue assets, Coast Guard cutters, small boats, 
aircraft, and most importantly our members and families, all 
use NOAA's environmental information to determine the safest 
locations to avoid the storm, and also minimize the time for 
Coast Guard units to respond to any distress caused by the 
storm. The fact that so little damage was sustained in these 
port areas is a reflection on the amount of preparation 
performed by the Coast Guard, FEMA, and our other port 
partners, all leveraging NOAA's environmental data.
    These are but two examples of the many situations in which 
NOAA's environmental data provides invaluable support to the 
Coast Guard. The Coast Guard capital fleet uses these products 
to make decisions at sea, but our ships are old and we 
appreciate Congress' support for its recapitalization. NOAA 
relies heavily on the weather observations of our ships at sea. 
It only makes sense that the technology that supports weather 
prediction and distress beacon transmissions also require 
updates, and we thank Congress for their support for the JPSS 
for NOAA.
    As I mentioned before, every day the Coast Guard relies on 
NOAA's environmental products and distress alerting information 
to ensure the safety of our people, the security of our nation, 
and the protection of our environment. Thank you, and I look 
forward to answering any questions you may have.
    Senator Begich. Thank you again. Thanks to all of you for 
your testimony. I will start with 5 minutes with some questions 
here to Secretary Glackin.
    Let me ask you, in your testimony you talked about, and 
you've already heard from the others, too, that the potential 
gap, especially in 2016-2017, the 100 percent likelihood that 
there will be some gap of some sort at some level. You've also 
talked about how NOAA has significant innovation and ideas 
around advancing technology to improve weather forecasting and 
predictions.
    What are we doing to prepare for the potential gap that we 
have when we know it's coming? What is NOAA doing to prepare 
for that, and what innovative steps are you taking to kind of 
be ready for this potential?
    Ms. Glackin. Thank you, Senator. As Senator Snowe 
highlighted in her introductory remark, the projected gap that 
we're talking about is billed around how long we expect the NPP 
spacecraft, which we just launched, to be able to last, and 
when we're able to launch the JPSS-1 spacecraft and have that 
checked out so it's providing useful data, which is obviously 
not the day it's launched but some number of months after that.
    In regard to addressing what steps to take during that 
period of expected gap, there are two primary approaches that 
we've been taking. One is strengthening and trying to look at 
expanded international partnerships. So, for example, we rely 
today on the Europeans for a mid-morning orbit, and we need to 
ensure that that partnership stays strong in this period of 
time so that we'll have that data available to us so we won't 
be without any data. And for the Committee's background, that 
spacecraft does fly instruments that are used currently today 
in our models and are also what I would say are modern 
instruments, not ones that were developed 25 years ago.
    Senator Begich. Could I pause you there for 1 second? The 
economic troubles that Europe is going through, is there 
indication of problems with their funding of their continued 
programs that may affect us that you're partnering with?
    Ms. Glackin. Well, we can't say that it won't ultimately, 
but their next spacecraft that's due to be launched is fully 
funded and ready to go, and they have commitments, or 
subscriptions they call them, for follow-on efforts in that 
regard.
    Senator Begich. OK.
    Ms. Glackin. So they're well--I think they're well poised, 
and that's been an excellent partnership for us.
    Beyond that partnership, other countries that we look at 
when we look at who is flying instruments that would be 
comparable to this, unfortunately there's not a lot there, and 
one of the prime ones is China in that regard. So we do have a 
dialogue with China, but we have no plans in place in that 
regard. We do use some of their data today, is used in 
opportunistic ways. So that's one----
    Senator Begich. Do they use--if I can interrupt again. I 
apologize. Do they use any of our data going the other way?
    Ms. Glackin. Yes, yes.
    Senator Begich. OK.
    Ms. Glackin. Our data is freely available.
    Senator Begich. OK. So there is--I mean, for our satellite 
system to continue to operate efficiently and effectively, they 
have an interest in making sure that occurs, because their 
system is robust but not like ours.
    Ms. Glackin. That's right.
    Senator Begich. Is that fair to say?
    Ms. Glackin. It's fair to say, and it's also--I could 
further say that our instruments are of superior quality. They 
are, of course, putting a lot of money into their program in 
this regard, and they have a big pipeline coming. So I think 
that they will get better in capability.
    Senator Begich. Right. OK.
    Ms. Glackin. So that's what we're doing on the 
international front, which is probably the most ready thing to 
do.
    The other is to make sure that we're using all of the 
available data that we currently have, and this is in-situ 
data, observations that come from on-ground, as well as other 
satellite systems that are in this regard. We've really been in 
the position of doing this because we do this anyway. So there 
has not been a lot there that we can do in this regard, but we 
have been looking at that.
    And I want to stress to the Committee that using, 
assimilating satellite data into numerical weather prediction 
models is a non-trivial process. It takes months and years to 
get this done, and if you don't do it well, you can actually 
degrade the model forecast. So that's not a trivial process.
    But the staff is looking at that and trying to see, but 
there's really no substitute for a satellite system, obviously, 
because it's the way to get the ocean data over the ocean and 
things like that. So they're the two primary things we've been 
doing.
    Senator Begich. Very good. I'm going to ask one quick 
question to Mr. Zinser here, and then we'll continue to go with 
5 minutes for each remaining senator. Then we may do a second 
quick round depending on how people go and keep to the 5 
minutes.
    But, Mr. Zinser, let me ask you, do you think NOAA--I mean, 
I've read your recommendations, and do you think NOAA is 
prepared, if funding is flat or lack of funding occurs from 
Congress, to fill that gap?
    Mr. Zinser. Thank you, Senator. I think any kind of flat-
lining of resources or a reduction of resources is going to 
make it more difficult, and what we're recommending is that the 
satellite data be made part of a larger formula. NOAA plugs the 
satellite data into a larger model to come up with their 
observations and predictions, and it needs to make sure that 
all parts of the agency are contributing to fixing the data 
gap.
    Senator Begich. Do you think they are doing that now?
    Mr. Zinser. NOAA is not doing everything that we're 
recommending. We think NOAA should have a coordinated effort 
across the lines of business with the studies necessary to 
determine how the lack of satellite data will degrade the 
forecast.
    Senator Begich. Very good. I'll follow up on this on my 
next round.
    Senator Snowe?
    Senator Snowe. Thank you. Just to clarify the issue of the 
short-term and the long-term data gap, does it depend, Mr. 
Zinser, on the question of funding only? I understand that's 
obviously one of the major issues, but is it the only issue 
with respect to the possibility of having this coverage gap?
    Mr. Zinser. For the potential near-term gap between NOAA-19 
and NPP, it's not so much a funding issue as an issue of 
calibration and validation work that needs to be done with 
respect to NPP data collecting. Funding is more of an issue for 
JPSS-1, and if there is a reduction in any kind of funding, 
that will result in some extension of the gap.
    Senator Snowe. How long would that short-term gap be?
    Mr. Zinser. Potentially it may not exist at all. The issue 
is how well NOAA can get the ground system and the science 
behind the data validated and calibrated in order to produce 
the necessary weather forecast data.
    Senator Snowe. Ms. Glackin, you mentioned the fact, when 
you were referring to NOAA's response to the report that was 
issued by the Inspector General, that the Inspector General's 
report should clarify the budgetary assumptions, and that 
specifically they should say what request is going to be 
essential to avoiding or averting this coverage gap. Is that 
correct?
    Ms. Glackin. Senator, I believe that you're referring to a 
comment that we had on the draft report, was the Inspector 
General was projecting a particular gap.
    Senator Snowe. Right.
    Ms. Glackin. And we've been trying to be careful in this 
long period of time, which is going about 18 months now, where 
we've had various numbers on the table at various times to be 
consistent about what assumptions go into a gap. So that was 
the only point that we were making in the Inspector General's 
report, is that it would be helpful to have the underlying 
assumptions documented.
    Senator Snowe. What should be the underlying assumption for 
the budget, then? I guess I'm trying to understand that, 
because the conference report has it 13 percent less than the 
administration's request.
    Ms. Glackin. So let me talk to that directly. First of all, 
thank you again. It's been fabulous support from this committee 
for JPSS, and we are extremely pleased at the conference report 
that came out and look forward to that being signed into law.
    Based on that, my expectation is that when the President 
delivers, my expectation is when the 2013 budget comes out, 
we'll reflect into that the JPSS program, including the 
projected launch dates that will also take into account the 
best we're able to deliver in the time-frame. We have to 
respond to the Senate language about out-year costs, which was 
also, at least in part, picked up in the conference report.
    So I think that given what looks like some certainty in the 
funding for 2012 at a level that's not perfect but certainly 
very good for this program, we'll be in a much better position 
to inform the Committee about what we expect that to be.
    Senator Snowe. Mr. Zinser, what would be your response? Do 
you think the administration's request is the minimum that is 
required in order to keep it on track?
    Mr. Zinser. Thank you, Senator. One issue that NOAA needs 
to finalize right away is its requirements document. This lays 
out cost, schedule, and other requirements; it also provides a 
baseline. They need a baseline. And the current timeline for 
the launch that NOAA has provided for November 2016 is, as far 
as I know, based on the President's Fiscal Year 2012 request.
    Our assumptions going in were that funding was going to be 
somewhat lower than the President's request; and, in fact, it 
will be. As a result, we've added some time in the timeline and 
are projecting a launch more in the first quarter of the 
calendar year (as opposed to the Fiscal Year) in 2017.
    Senator Snowe. I think you make an excellent suggestion 
about a baseline, for NOAA to draft a baseline with all the 
specific requirements. I think that's very essential for costs 
and other requirements to stay on track.
    Ms. Glackin. If I could just add, that's what I was 
referring to that would be part of the 2013 budget.
    What we're saying is consistent.
    Senator Snowe. That's great.
    At a recent hearing, Ms. Glackin, before the House 
Subcommittee on Investigations and Oversight, Kathryn Sullivan 
of NOAA, testified that NOAA in collaboration with NASA has 
fully staffed the JPSS program, that the office was staffed by 
NOAA and NASA and the Air Force and contract officers. And I 
gather that is at a staffing level of 819, although that's far 
short of what NOAA had projected or estimated originally, that 
it would require 1,600 contract employees.
    So what accounts for the discrepancy, and how is that going 
to affect the program?
    Ms. Glackin. OK. With the reduced funding that we've had in 
2011, we had to limit our priorities and work to getting NPP 
launched and fully operational, getting an operational data 
stream, and then maintaining work on some critical satellite 
instruments that would fly on JPSS-1. We have staff to be able 
to support those activities.
    However, there is more that we need to do and would be, 
again, why we're so excited about the conference report. We'll 
now begin to add staff to bring it up to levels that we had 
projected because we're going to be able to expand efforts into 
areas that we need to work on; for example, the spacecraft bus 
for JPSS-1.
    Senator Snowe. So will you be going up to the 1,600?
    Ms. Glackin. I can't give you an exact number today, but 
I'd be happy to take that for the record.
    Senator Snowe. I appreciate that. Thank you.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    Senator Boozman?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you. Thank you, Mr. Chairman.
    Secretary Glackin, in your testimony you talked about the 
importance of high-performance computing, and you also 
mentioned earlier that you are working with the Europeans in 
this area. Are we working with the other departmental agencies 
to see if they can be of value in utilizing their computing 
resources? And along these lines, can you comment on the 
technical developments that they've developed with our other 
agencies?
    Ms. Glackin. So the short answer is yes, that we are doing 
that. We work across the Federal agencies, and in particular 
with the Department of Defense, the Navy, and the Air Force 
there, NOAA, and we also work with NASA and DOE on climate 
issues and things like that. So we work in terms of the 
numerical weather prediction models that we use. Currently, 
NOAA is using all of its own high-performance resources to do 
this. We have back-up, fail-back capabilities there, but we 
don't actually use them operationally.
    Senator Boozman. Mr. Zinser, in your written testimony, 
could you please clear up something for me? I'm a bit confused. 
You talk about the NPP satellite and that it's good for 5 
years, but the instruments are only good for 3 years in some 
specific or certain cases. Could you please elaborate on that 
and tell me a little bit about the problem?
    Mr. Zinser. Yes. The issue is that the instruments being 
used on NPP have been transferred from the NPOESS program, but 
because the NPP was originally designed as a test satellite, 
these instruments were not constructed according to NASA 
standards. They were constructed according to standards set by 
the contractor, and there is some concern that since they 
didn't get much government oversight while they were being 
developed, they may not last as long as they should. Therefore 
our conservative estimate is 3 years for the instruments. The 5 
years is for the end-of-life design of the satellite itself, 
but there's enough fuel on the satellite to go for 7 years.
    Senator Boozman. And how confident are you with regards to 
the 3 year versus the 5 year time frame guarantee?
    Mr. Zinser. It's very hard to say based on the limitations 
that we've identified, but I think 3 years is a conservative 
estimate.
    Senator Boozman. Very good. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much. We'll do one quick, 
final round here before we dismiss the panel. We thank you very 
much.
    I just want to follow up if I can on the question I had 
earlier, Mr. Zinser, in regards to the recommendations and is 
NOAA prepared, are they doing it, are they coordinating.
    Are there things that indicate to you that they are ready 
and willing to do that, or is it just a process that they're 
just not geared up yet to have that cross-coordination of all 
the different agencies to prepare a--I call it kind of a Plan 
B, but also the baseline. Can you respond to that?
    Mr. Zinser. Yes. I think that NOAA and NASA are working 
diligently, as I mentioned. They have to overcome many years of 
setbacks under the NPOESS program. NPP itself is a contingency 
operation, and they have had to make decisions in that program 
that haven't eliminated all the risks. For example, we 
incidated in our report, certain aspects of the ground system 
had to be deferred until after launch, because their efforts 
were focused on getting the NPP satellite launched. A lot of 
the prelaunch work that may have gone on under a normal program 
ahead of the launch with respect to the ground system has been 
deferred until now, after the satellite has been launched.
    Thus they have had competing demands on their resources and 
time, but I think that they are looking at different ways to 
mitigate the gap, and we're going to continue our oversight 
there.
    Senator Begich. And from your end of it on the oversight, 
can I assume that is also probably a role and responsibility we 
should have to make sure that we're checking in with you on a 
regular basis to make sure it is happening?
    Mr. Zinser. Yes, sir. We'd be happy to keep your staff 
informed, and we have a number of audits that we've planned to 
carry out this year on both the JPSS, and GOES program.
    Senator Begich. Excellent. And then I thought I heard you 
say that your analysis of the gap was based on funding but at a 
little lower amount than what was proposed by the President's 
budget. Did I hear that right?
    Mr. Zinser. Yes, sir.
    Senator Begich. OK. And a likelihood I think in your 
report--and if I'm wrong on this percentage, correct me--was 
upwards of 80 percent likelihood there will be a gap, even with 
that funding with a reduced amount, which probably reflects 
what the conference committee report is now about to produce.
    Mr. Zinser. Yes, sir. One of the difficulties in estimating 
the JPSS-1 gap is the period of time needed to check out the 
instruments. Right now, for example, the checkout could be as 
long as 18 months. As a result, when NOAA comes up with its 
baseline, the estimate for JPSS-1 instrument checkout will be 
critical. It could be 6 months, it could be 18 months.
    Senator Begich. Eighteen months. Got you. Thank you very 
much.
    Let me ask two quick questions to the other two that are 
here that probably thought you were going to be off the hook 
with no questions. I know what the feeling is sitting there. 
You're going, ``Please, no questions. I've done my testimony. 
Let me go sit back in the chair.'' Not possible here.
    [Laughter.]
    Senator Begich. Let me, Mr. Trimble, let me ask you, and I 
know GAO did a web-based kind of questionnaire in asking 
agencies and others should there be a Federal service to 
consolidate and deliver climate information to decisionmakers, 
and I think it was 60 percent or somewhere in that area if I 
remember right, a pretty high percentage said yes.
    Can you just elaborate a little more on that, and do you 
think having a centralized system like that, or a central place 
for information, will create some restrictive ability for it to 
be flexible and nimble in this ever-changing information that's 
flowing? Does that question make sense to you?
    Mr. Trimble. Absolutely.
    Senator Begich. OK.
    Mr. Trimble. In our 2009 report, we surveyed knowledgeable 
climate information users in various branches of government, 
and you're right, about 61 percent thought that having a single 
source for climate data would be useful.
    There are advantages to that approach, Information users 
would have a single source, a common methodology, and there is 
potential to save money. A small minority, it was about 6 
percent, didn't think it would be useful. So it's pretty----
    Senator Begich. Pretty overwhelming.
    Mr. Trimble. Pretty overwhelming. The downsides, as you 
point out, come from comments in an NRC paper from 2009. The 
National Research Council raised those concerns about being 
detached from the users who need the information. So I think 
there's always tension about how much centralization. If you 
get too centralized, you get away from the people who need the 
data. So I think what they were pointing out was concerns that 
if you get too centralized, you are getting away from the 
people who need climate information it is difficult to be 
responsive.
    In this area in particular, the users of climate-related 
data are not necessarily traditional NOAA customers, so you 
don't necessarily have the same longstanding relationship. So I 
think that was the gist of it.
    Senator Begich. Is that something that could be mitigated 
you feel?
    Mr. Trimble. You know, we've not done work on that 
question. I expect it could be. We've not reviewed the details 
of any plan for this, but I assume that could be tackled.
    Senator Begich. Very good. Thank you very much.
    Admiral Thomas, let me ask you just a quick question. First 
off, thank you for those couple of examples of how weather 
information is vital.
    In your work that's occurring and continuing to increase 
really as you look at the Arctic and Alaska and the issues of 
oil and gas and transportation, all the things that are 
happening now in the Arctic, when I look at the dates of 2016, 
2017, through 2017, beginning of 2018, there's going to be a 
lot of activity up there, with or without us promoting it, I 
mean the U.S. I mean, there's shipping already going, there are 
visitors, what's going on in Russia, all kinds of activity.
    Give me your thoughts or maybe just quickly. Do you think 
that the Coast Guard is fully engaged enough to make sure that 
NOAA has the necessary information? Because without that 
weather information, you're going to be at a disadvantage. Is 
that a fair statement?
    Admiral Thomas. Thank you, Senator. What I'd like to do is 
just describe a little bit about how we prosecute search and 
rescue, and how we then apply weather data in order to help 
provide the very best operational decisions to be able to 
minimize risk and increase response time.
    So search and rescue is a system. And so for us, it 
requires us to use airplanes, to use ships, to use boats, to 
use commercial mariners, to use other commercial salvage people 
in order to prosecute a search and rescue case. Well, it's the 
same thing as a consumer of weather. So we use NOAA data, we 
use DOD data, we use NGA data, we use international partner 
data, observers in airplanes, observers on the sea, NASA, 
international partners. All help provide data that goes into 
our search and rescue system.
    So then we'll get data on-scene, and then we send out the 
right asset. We make search planning decisions based on all 
that information.
    Two roles that I play. I sit on FEMA's Emergency Support 
Functions Leadership Group, and in that capacity is we're 
preparing for all disasters. We're responding to them. Weather 
is a critical part of that. Secondarily, I am also the chair of 
the National Search and Rescue Committee, and NOAA is an 
important player on that as well, both from the weather 
perspective as well as the distress beacon perspective.
    So minimizing the gap in-between the NPP and the JPSS 
system will allow us to improve response time, will allow us to 
minimize the risk to our crews, will allow us to increase our 
effectiveness on-scene.
    Senator Begich. Very good. Thank you very much, Admiral.
    Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman.
    Admiral Thomas, one of the key components of the JPSS is 
the Search and Rescue Satellite-Aided Tracking sensor, SARSAT. 
During his testimony before the Subcommittee on Investigations 
and Oversight and Environment in the House of Representatives 
back in September, David Powner of the GAO testified that NOAA 
had not yet determined how it would accommodate the sensor on 
the JPSS-1 satellite.
    Given the importance of this sensor for search and rescue 
missions, can you tell the Committee exactly what action the 
Coast Guard is taking to coordinate with NOAA on this sensor?
    Admiral Thomas. Thank you, Senator. As I understand, the 
first launch of the first JPSS will not hold a SARSAT system on 
it, but that said, there are other satellite providers that 
will allow us to get rescue data, beacon data. One is a 
geostationary satellite that will continue to be flying. 
Second, the Coast Guard is partnering with the Air Force to 
provide a medium Earth orbit satellite that will allow us to 
get additional information as well.
    And so weather prediction and distress beacon is sort of 
like intelligence, and you wish it to be perfect; it's never 
perfect. So through a combination of those technologies, I 
believe that the Coast Guard will have sufficient capabilities, 
but minimizing the gap will be important for us.
    Senator Snowe. So, it is yet to be established; is that 
correct?
    Admiral Thomas. That's correct. I understand the second, 
the next version of JPSS will then go into SARSAT after that. 
Yes, ma'am.
    Senator Snowe. Ms. Glackin, do you have any comments on 
that?
    Ms. Glackin. Yes, I would like to comment on that. The 
Admiral is quite correct that it's not going to be on the JPSS-
1 satellite. However, it still is included in that timeframe, 
and NOAA is currently assessing opportunities to launch this, 
whether it would be in a free-fly or another mission of 
opportunity. So that's something that we're working through in 
the coming months.
    Senator Snowe. Admiral Thomas, I noted that there was a 
strong partnership between NOAA and the Coast Guard during the 
Deep Water Horizon oil spill, and there was very close 
cooperation and coordination. Can you tell the Subcommittee how 
well that worked in terms of determining the currents, the 
tides, and winds with regard to the movement of the oil?
    Admiral Thomas. Yes, Senator. Thank you. One of the 
important partnerships that NOAA brought to the table is this 
program called the Scientific Support Coordinator. So NOAA is a 
partner of a national response team, of which the Coast Guard 
and EPA are the co-chairs of that team. And then at the 
regional level there are regional response teams that also help 
provide technical information and strategic priorities for 
regional responses.
    So then when it gets down to the local level, the Federal 
on-scene coordinator needs a suite of folks to help them make 
the very best operational decisions that they can make, and 
NOAA's Scientific Support Coordinator, very important partner 
in that effort, provides principal science advice to the 
Federal on-scene coordinator, provides trajectory forecasts, 
provides GIS information, information management. They brought 
a system called ERMA, which was really crucial to us in making 
good decisions.
    Shoreline clean-up assessments, all part of the Scientific 
Coordinator's support and really an important part of our 
response efforts in Deep Water Horizon.
    Senator Snowe. I appreciate that.
    Mr. Trimble, you mentioned in a report that was published 
in May that there needs to be greater coordination between 
appropriations and our priorities with respect to climate 
research. Given there hasn't been a clear interagency strategy 
and coordination when it comes to Earth Observation issues if a 
climate service was created, how would that help or how would 
that hurt? Are there risks or benefits involved?
    Mr. Trimble. From our most recent report there's a broader 
need across the Federal Government on the issue of climate 
change for a more coherent, articulated national strategy. 
Right now, from our survey of users, there's a different sense 
of what the priorities are. There's no clear articulation of 
that. I think a climate service could help focus some of these 
issues.
    But as I alluded to earlier, there are pros and cons when 
you centralize. You risk over-centralizing. We've not taken a 
position on the creation of a climate service. Our reports have 
really just talked about the pros and cons at this point.
    Senator Snowe. Thank you. Can I just make one point? Mr. 
Zinser, I think you've made an excellent recommendation in your 
report, suggesting that NOAA should develop a plan or strategy 
to report to Congress with understandable data, the impact of 
losing the satellite capacity and what the satellite capacity 
means for the future, with respect to identifying and 
anticipating events much sooner. As we know, the JPSS program, 
is expected to reduce the cone of uncertainty for the landfall 
of the eye of the storm by estimated 875 miles which is a big 
difference in allowing communities to be able to evacuate 
sooner and so on. So it saves lives, and it saves money.
    I think that that would be a very useful report for 
Congress to understand the connection between all of this and 
the material effect, both in terms of life and property and 
what it means to this country. That would be very helpful.
    I gather, Ms. Glackin, that NOAA is in the process of doing 
that?
    Ms. Glackin. Yes. We accepted the Inspector General's 
recommendations and we'll be moving forward on them.
    Senator Snowe. Thank you. Ms. Glackin, I wish you well. On 
your three decades of service to this country, thank you.
    Senator Begich. Can I ask you a quick one on that? When do 
you think you'll have a report that will be ready to present? 
If you can't answer that right now, can you get that for the 
record?
    Ms. Glackin. Yes, let me come back, because I guess what 
I'm thinking about is that we need to work through, given the 
resources we have now, what's the timeframe. I think you would 
like not only all of the impacts but you'd like to know what's 
that expected gap and when are we expected to see it.
    Senator Begich. Yes.
    Ms. Glackin. So I think we're going to be, again, pretty 
much consistent with the President's budget coming out, that 
information.
    Senator Begich. OK. Well, we look forward to that, if you 
can get that data, so we can do some additional follow-through 
on this part of the Committee.
    Senator Boozman, do you have some additional?
    Senator Boozman. Just a quick question, Mr. Chairman.
    Admiral Thomas, you mentioned a number of different tools 
that you use in weather predicting and forecasting. I guess the 
only thing I would ask of you, while we've got you here, is how 
can we make things easier? Are there some specific technical 
things that you lack that might be helpful, some gaps that you 
have that you'd like to see done to make your life a little bit 
easier in being able to carry out your mission?
    Admiral Thomas. Thank you, Senator. As a consumer of 
weather, we are always looking with our various partners to 
help improve the quality of the data. Having done many, many 
assignments around the Coast Guard and watching the weather and 
making decisions about are we going to go to sea or are we 
going to have to close a port, all very difficult challenges 
for us. And as I mentioned, we use all of our different 
partners because truly making these kinds of decisions is an 
art, and there's nothing perfect about it.
    And so you take the very, very best information that you 
have when you're trying to sort out where you're going to 
search for someone who is lost, how long you're going to search 
for them, and between things like in the Gulf of Maine has an 
oceanographic observatory system that provides information to 
our computer systems. We take information from DOD. We take 
information from NOAA. We take information--our weather guys 
are looking at commercial providers as well to be able to 
provide the best things that we can. So we're consumers.
    Senator Boozman. Is there some information out there 
somewhere that you'd like to collect that's not there but 
nevertheless would be helpful in your job?
    Admiral Thomas. Right now we've got everything that we 
need. But, of course, I'd probably defer to NOAA to continue to 
support continued improvements in that.
    Senator Boozman. OK. Thank you very much, Mr. Chairman.
    Senator Begich. Thank you very much, and I want to thank 
this panel. I appreciate your time here, again being patient 
while we asked our second round of questions. Thank you.
    We'll now have the next panel come up. And as they get 
situated, we have three individuals that will present on the 
next panel. Again, we want to thank everyone for taking the 
time out of their busy schedules to attend and help give us 
information to do a better job in forecasting and predicting 
weather and what we need to do to continue to be innovative in 
this arena.
    The next panel, feel free to go ahead and grab your seats. 
Thank you again very much for being here, and we'll go from my 
left to right in the sense of presentation. So again, we thank 
you.
    The first person we have is Mr. Tom Iseman, Program 
Director, Water Policy and Implementation, Climate Adaptation, 
Western Governors' Association.
    Again, we thank you, and we thank you for kind of the 
unique partnership that's being developed. So, please.

  STATEMENT OF TOM ISEMAN, PROGRAM DIRECTOR, WATER POLICY AND 
    IMPLEMENTATION, CLIMATE ADAPTATION, WESTERN GOVERNORS' 
                          ASSOCIATION

    Mr. Iseman. Thank you, Chairman Begich, Ranking Member 
Snowe, and members of the Committee. Good morning. I'm Tom 
Iseman. I'm the Program Director for Water and Climate 
Adaptation at the Western Governors' Association. WGA is a 
bipartisan, consensus-based organization that represents the 
Governors of 19 Western states and three U.S. Flag Pacific 
Islands.
    Western Governors have long recognized the significant 
impacts that severe weather events, climate extremes, and long-
term climate trends can have on life in the West. Whether it is 
drought, heat waves, severe storms, too little snowpack, or too 
much river runoff, they affect natural resources, 
infrastructure, economies, and communities throughout the 
Western states. That is why WGA has such a strong interest in 
the weather and climate data and forecasting services of the 
National Oceanic and Atmospheric Administration, and why we 
appreciate the opportunity to testify here today.
    Drought in particular has been a high priority for the 
Western Governors, and it has been a catalyst for WGA's work 
with NOAA. We have worked on drought issues for several 
decades, with many administrations and across party lines.
    The National Integrated Drought Information System, or 
NIDIS, is one of the success stories of our work on drought. 
The NIDIS Act was passed by Congress in 2006. NIDIS is building 
an emerging network of regional drought early warning systems. 
It established a drought portal where information is integrated 
across agencies, and it's available at one place online, at 
drought.gov.
    And most importantly, WGA and the Western states have 
worked directly with NOAA and the Federal agencies to co-
develop this system, making NIDIS a model for the development 
and delivery of integrated drought and climate information.
    While drought can be a widespread and severe phenomenon, 
the Governors recognize that a variety of climate and weather 
events affect the West. Building on our work on drought, the 
Governors adopted a policy resolution in 2009 addressing 
climate adaptation science in the West. The policy calls for 
improved predictive capabilities at a regional scale; increased 
coordination among Federal agencies and with state agencies; 
and the establishment of a National Climate Service to 
undertake and communicate research and modeling of climate and 
its impacts.
    Recent events in the West have only underscored the need 
for enhanced coordination, improved data networks, and advanced 
predictive models on climate and weather events. For example, 
the states of the Upper Missouri River Basin have just endured 
prolonged and widespread flooding, affecting hundreds of homes 
and communities throughout the basin. Governors from the Upper 
Missouri states agree on the need for improved forecasting to 
reduce flood risk.
    In recent testimony on the Missouri River Annual Operating 
Plan, Governor Jack Dalrymple of North Dakota called for 
significant improvements in predicting snowpack accumulation 
and annual runoff, and he urged consideration of NOAA's 
forecast for a recurrence of the La Nina climate pattern in 
planning reservoir management for 2012.
    The same is true of other recent or current events. The 
American Southwest is in the midst of severe drought. Guam and 
other islands in the West Pacific are located in Typhoon Alley 
and experience an array of extreme weather events, or Alaska, 
which just last week saw its coast buffeted by a severe storm 
that Chairman Begich described.
    These and other weather and climate events are confronting 
states and local communities every day, and NOAA provides 
essential information for states to prepare and respond. This 
is why the Governors and NOAA entered into a Memorandum of 
Understanding this summer at the Annual Meeting of WGA. The MOU 
focuses on sharing weather and climate information, with a 
particular emphasis on disaster risk reduction.
    Under the MOU, WGA and NOAA intend to target the most 
pressing weather and climate issues in specific sub-regions of 
the Western states; for example, water resources in the Pacific 
Northwest, snowpack and river runoff in the Upper Missouri, 
drought in the Southwest, and coastal management on the West 
Coast and Pacific Islands.
    Over the course of our work with NOAA, several key and 
consistent themes have emerged. These are not technological 
innovations but rather innovation in how we develop and apply 
forecasts to reduce the impact of weather and climate events.
    We encourage building state partnerships or partnerships 
directly between NOAA and the states. We recognize the 
importance of engaging the private sector in this effort. We 
urge the design of regionally focused programs. National 
information is useful, but we really need to get down to the 
local level to understand impacts and take action. We recognize 
the need for improving predictive capabilities and models, and 
also recognizing the uncertainty associated with forecasts. And 
we want to emphasize the importance of providing basic data, 
like temperature, precipitation, snowpack, and stream gauging.
    And finally, we do agree with the points about the need to 
coordinate the Federal climate enterprise.
    In conclusion, Western Governors are taking a pragmatic 
approach to weather and climate issues. They recognize the 
impacts of weather and climate trends, climate extremes and 
long-term trends, and they seek information to make sound 
management decisions. NOAA plays an essential role in this 
effort, and we are pleased to work to strengthen the 
development and delivery of this critical information.
    Thank you.
    [The prepared statement of Mr. Iseman follows:]

 Prepared Statement of Tom Iseman, Program Director, Water and Climate 
               Adaptation, Western Governors' Association
    Thank you, Mr. Chairman, Senators, Ladies and Gentlemen.

    Good Morning. I am Tom Iseman, Program Director for Water and 
Climate Adaptation issues at the Western Governors' Association. I am 
pleased to participate this morning on behalf of the Western Governors' 
Association. WGA is a bipartisan, consensus-based organization that 
represents the Governors of 19 Western states and 3 U.S. Flag Pacific 
Islands. The Governors work through the WGA to identify and address key 
policy and governance issues, which include natural resources, the 
environment, human services, and economic development.
    Western Governors have long recognized the significant impacts that 
severe weather events and long-term climate trends can have on life in 
the West. Whether it is drought, heat waves, severe storms, too little 
snowpack or too much river runoff--they all affect the environment, 
infrastructure, economies and communities throughout the Western 
states. That is why WGA has such a strong interest in the weather and 
climate forecasting services of the National Oceanic and Atmospheric 
Administration, and we appreciate the opportunity to testify here 
today.
    Drought, in particular, has been a high priority for the Western 
Governors, and it has been a catalyst for WGA's working relationship 
with NOAA. We have worked on drought issues for several decades, with 
many administrations and across party lines. You can find many of WGA's 
reports and resolutions on this topic on our website, and we have 
provided a brief bibliography in our formal submission.
    When the National Drought Policy Commission was convened in 1998, 
no sitting Western Governors were included. Gov. Brian Schweitzer, 
prior to being elected Governor of Montana, was one of 15 members of 
the commission, listed simply as ``Montana farmer, rancher and soil 
scientist.'' Of course, he later became the Governor of Montana and 
Chair of the WGA, during which he carried with him a strong commitment 
to address drought issues.
    The National Integrated Drought Information System, or NIDIS, is 
one of the success stories of our work on drought. The NIDIS Act was 
passed by Congress in 2006. It established a `drought portal' where 
information is integrated across agencies, providing a single entry 
point for users of drought information online at www.drought.gov. NIDIS 
is also building an emerging network of drought early warning systems, 
working with local managers to address key regional drought planning 
needs. Importantly, NIDIS demonstrates a partnership among the Federal 
agencies and between the Federal agencies and states and other 
stakeholders. WGA has worked directly with NOAA and the Federal 
agencies to `co-develop' this system, making NIDIS a model for the 
delivery of integrated drought and climate information in partnership 
between Federal agencies and states.
    While drought has been a focal interest, the Governors recognize 
that a variety of climate and weather events affect the Western 
economy, public health, and the environment. Building on our work on 
drought, the Governors adopted a policy resolution (09-2) in 2009 
addressing climate adaptation science in the West. This policy calls 
for improved predictive capabilities at a regional scale; increased 
coordination among Federal agencies and with state agencies; and the 
establishment of a ``National Climate Service'' to undertake and 
communicate research and modeling of climate and its impacts.
    The resolution also established a Climate Adaptation Work Group 
comprising Western state resource managers across a range of sectors 
that includes water, wildlife, air quality, and forests. The Work Group 
partnered with a number of entities, including NOAA and other Federal 
agencies, to prepare a Scoping Report on climate adaptation priorities 
for the Western States. This report elaborates on the Western States' 
priorities for climate science, including both observational data and 
predictive models, as well as enhanced communication between scientists 
and decisionmakers.
    Recent events in the West have only underscored the importance of 
coordination, data, and predictive models on climate and weather 
events. For example, the states of the Upper Missouri River Basin have 
just endured prolonged and widespread flooding, affecting hundreds of 
homes and communities throughout the basin. A group of Governors from 
Nebraska, South Dakota, North Dakota, and Montana has called for 
improved forecasting of snowpack and runoff in order to reduce flood 
risk. In recent testimony on the Missouri River Annual Operating Plan, 
Governor Jack Dalrymple of North Dakota called for ``significant 
improvements in predicting snowpack accumulation and annual runoff,'' 
\1\ and he urged consideration of NOAA's forecast for another La Nina 
climate pattern in planning reservoir management for 2012. As North 
Dakota's State Water Engineer put it: ``this (2011) was an 
unprecedented year; we need to know if we're likely to see these kinds 
of events again--and potentially more often--in the future.''
---------------------------------------------------------------------------
    \1\ Governor Jack Dalrymple, North Dakota, Testimony for the U.S. 
Army Corps of Engineers Public Scoping Meeting on the Missourit River 
Annual Operating Plan, Bismark, ND, November 1, 2011.
---------------------------------------------------------------------------
    Similarly, the American Southwest is in the midst of a severe 
drought; agricultural losses alone in Texas have been estimated to 
exceed $5 billion.\2\ Information on current and projected conditions, 
as is being provided by NIDIS, is essential to states and local 
communities that are affected by drought events. The same is true of 
fire management and response, species conservation, coastal protection, 
infrastructure investment, and a variety of other decisions that states 
and local communities are making every day: they are affected by short-
term weather events and long-term climate trends, and NOAA provides 
essential information for states to prepare and respond.
---------------------------------------------------------------------------
    \2\ Travis Miller, et al, Texas A&M AgriLife Extension Service, 
August 2011.
---------------------------------------------------------------------------
    This is why the Governors and NOAA entered into a Memorandum of 
Understanding this summer at the Annual Meeting of WGA. The MOU focuses 
on sharing weather and climate information,\3\ with a particular focus 
on disaster risk reduction in the Western states. As Governor Gregoire, 
WGA's Chair, said on signing the agreement, ``a good working 
relationship with NOAA in providing science and information services 
states need will help us all build healthy and resilient communities 
and economies.'' Under the MOU, WGA and NOAA intend to target the most 
pressing weather and climate issues in specific sub-regions of the 
Western states, for example water management in the Pacific Northwest, 
snowpack and river runoff in the Upper Missouri, coastal erosion on the 
West Coast and Pacific Islands and drought in the Southwest.
---------------------------------------------------------------------------
    \3\ See WGA Inventory of Existing NOAA Climate Services and how 
they are Currently Used, prepared by WGA for Governor Otter, March 
2011.
---------------------------------------------------------------------------
    Over the course of our work with NOAA, several key and consistent 
themes have emerged:

  <bullet> State Partnerships: NOAA must work directly with states. It 
        is not enough to post forecasts. By working directly with 
        states (and other partners), NOAA can ensure that its climate 
        and weather services are available to decisionmakers and 
        resource managers, and they can tailor future products to 
        respond to user needs

  <bullet> Private Sector Engagement: Governors recognize the important 
        role of the private sector, both as providers and users of 
        climate information. When the MOU was signed, Governor Gregoire 
        and Administrator Lubchenco co-hosted a `business roundtable' 
        with select industries with a clear nexus to climate and 
        weather. We are pleased to see a private sector panelist today 
        and look forward to continued work with the private sector in 
        this effort.

  <bullet> Regional Programs: Weather and climate events, and our 
        vulnerabilities to them, vary by region. NOAA must respond to 
        regional variability and priorities by tailoring information 
        services to the appropriate climatic and management scale. In 
        NIDIS, we have called these `Regional Early Warning Systems.' A 
        national map may tell a good story, but users need more 
        tailored information in order to make investment and management 
        decisions.

  <bullet> Predictive Capability: WGA (and an array of other resource 
        managers) consistently call for better forecasts, from seasonal 
        to multi-decadal time scales. That said, we recognize the 
        challenges and inherent uncertainties regarding projections of 
        future climate. Resource managers can make decisions under 
        climate uncertainty, and have done so for decades in the 
        American West; but they need clear acknowledgment and 
        quantification of uncertainty associated with weather and 
        climate forecasts.

  <bullet> Basic Data: Western States continually emphasize the 
        importance of basic data to sound resource management. In 
        addition to temperature and precipitation and other data 
        provided by NOAA, this includes USGS streamgaging and NRCS 
        snowpack monitoring. These basic data may be overlooked in the 
        discussion of global climate models and orbiting satellites, 
        but they are a fundamental tool of day-to-day resource 
        management in the West.

  <bullet> Coordination of Federal Agencies: While NOAA is the 
        undisputed expert in atmospheric sciences, many Federal 
        agencies contribute weather and climate information or, like 
        the states, have management responsibilities that are affected 
        by weather and climate. We urge greater coordination across the 
        Federal enterprise and clearer points of contact for the 
        states, which are often confused and overburdened by the array 
        of Federal initiatives around climate.

    In conclusion, Western Governors are taking a pragmatic approach to 
weather and climate. They recognize the impacts of weather events and 
climate trends, and they seek information to make sound management 
decisions. NOAA plays an essential role in this effort, and the 
Governors are pleased to work to strengthen delivery of this critical 
information and make it more responsive to state needs. We thank you 
for the opportunity to be here today.
    Thank you, Mr. Chairman, Senators, Ladies and Gentlemen.
                                 ______
                                 
                    Western Governors' Association 
                         Policy Resolution 09-2
Supporting the Integration of Climate Change Adaptation Science in the 
        West
A. Background
  1.  Global warming poses a serious threat to the Western economy, 
            public health and environment. The impacts of climate 
            change are being observed in Western states and are 
            predicted to worsen in the future. The potential adverse 
            consequences include variability of precipitation leading 
            to serious water supply problems, the degradation of air 
            quality, damage to infrastructure, and the loss of plant 
            and animal species. Global warming will directly affect 
            Western industries including tourism, skiing, fishing, 
            agriculture and forestry and will disproportionally affect 
            communities with limited resources to adapt and cope.

  2.  Western Governors recognize that while action to reduce 
            greenhouse gas emissions are occurring at the local, state, 
            regional and Federal levels of government, simultaneous 
            efforts should be taken to mitigate current and potential 
            future impacts from climate change.

  3.  Appropriate actions to decrease greenhouse gas emissions must be 
            taken to avoid, reduce and delay the adverse impacts of 
            global warming to Western states. In addition, adaption is 
            necessary to address impacts to Western states from warming 
            which is unavoidable due to past and current emissions.

  4.  Predictive modeling is being used by decisionmakers to mitigate 
            potential economic, social and environmental impacts of 
            climate change and this type of planning data should be 
            encouraged. However, these models are still being developed 
            and their effectiveness for application to natural resource 
            planning should be assessed and implemented appropriately.

  5.  The Western States Water Council (WSWC) and the Western 
            Governors' Wildlife Council (WGWC) are actively pursuing 
            strategies to identify and adapt to impacts from climate 
            variability on water and wildlife resources, as identified 
            in WGA reports.
B. Governors' Policy Statement
  1.  Western Governors believe that planning for climate change 
            adaptation should be undertaken in a coordinated fashion at 
            all levels of government with state expertise being fully 
            utilized. Such planning must be in cooperation and 
            consultation with the private sector and non-governmental 
            organizations.

  2.  Western Governors urge Congress and the Administration to fund 
            research to improve predictive capabilities for climate 
            change and related impacts at regional and global levels.

  3.  Western Governors encourage Congress and the Administration to 
            prioritize investment in Federal programs that study 
            climate adaptation, addressing scientific questions, 
            natural resource management, and protection of 
            infrastructure at the regional, state and local levels.

  4.  Western Governors support the establishment of new revenue 
            streams to support climate adaptation in relevant climate 
            change legislation.

  5.  Western Governors support streamlined coordination of Federal 
            agencies that respond to climate adaptation and greater 
            cooperation with state agencies.

  6.  Western Governors encourage Congress and the Administration to 
            support the development of a National Climate Service to 
            undertake, coordinate and communicate necessary research 
            and modeling with respect to climate change and adaptation. 
            A National Climate Service should provide relevant decision 
            tools for local and state governments in addressing climate 
            change and adaptation issues, should connect social, health 
            and economic trends to climate change (and vice versa), and 
            should include in its mission public education and 
            outreach.

  7.  Western Governors agree that results from ongoing scientific 
            research should be assessed and incorporated into policies 
            related to climate change adaptation and greenhouse gas 
            emission reduction strategies. (E.g. as predicted impacts 
            worsen; mitigation efforts should be stepped up).
C. Governors' Management Directive
  1.  The Western Governors direct WGA staff to establish a Climate 
            Adaptation Work Group (CAWG) for the purpose of determining 
            appropriate uses of climate adaptation modeling in 
            informing natural resource and economic infrastructure 
            planning and policies, and for identifying and filling 
            existing gaps in climate adaptation efforts within WGA. 
            This work group could also review current and future 
            climate legislation to assess the impact to states and 
            their efforts to adapt to a changing climate and report 
            their findings to the WGA Staff Council.

  2.  Chairs or their designees from existing WGA initiatives will 
            comprise the initial membership of the CAWG. These existing 
            groups include WGA's working groups on water, forest 
            health, wildlife habitat, wildlife corridors and air 
            quality. This initial membership of CAWG will compare 
            efforts, share information and identify gaps in their work 
            as it relates to the broad issues of climate change 
            adaptation at the state and regional levels. The CAWG will 
            report these findings to the WGA Staff Council along with 
            recommendations for the need for, mission and composition 
            of an expanded CAWG.

  3.  The Western Governors direct WGA staff to conduct a workshop to 
            study current climate change modeling and the application 
            of different models to policy decisionmaking, using the 
            North American Regional Climate Change Assessment program 
            as the starting point for consideration.

  4.  The Western Governors direct WGA staff to work with the CAWG to 
            prepare a report outlining how to more effectively use 
            climate change modeling in policy decisionmaking.

  5.  WGA shall post this resolution to its website to be referred to 
            and transmitted as necessary.
                                 ______
                                 
Prepared by the Western Governors' Association, March 2011

------------------------------------------------------------------------

------------------------------------------------------------------------
Inventory of Existing NOAA Climate Services and how they are Currently
 Used: This table identifies existing NOAA climate services \1\ and who
 uses them to make decisions. The table focuses on state applications of
 climate services and provides several specific examples as
 illustrations. Many of the services span categories and are used in
 multiple sectors. They also span climate timescales from extreme events
 like floods and hurricanes, to seasonal events such as droughts, and
 decadal-centennial changes like increases in aridity.
------------------------------------------------------------------------
Climate Products and     Key Users                Examples
 Providers
------------------------------------------------------------------------
Services to Support the Agriculture and Water Resource Management
 Sectors
------------------------------------------------------------------------
Temperature Forecasts    <bullet> Farmers         NOAA provides seasonal
(National Weather        <bullet> Municipal        surface water runoff
 Service--NWS)            Water Managers           projections to
Precipitation Forecasts  <bullet> Energy           resource managers in
 (NWS)                    Companies                Idaho. This
River Flow Forecasts     <bullet> Levee/Flood      information has been
(NWS-River Forecast       Control Management       used for maximizing
 Centers i)              <bullet> State            hydro-power output,
Drought Monitoring and    Departments of           irrigation supplies,
 Forecasts                Agriculture              and conservation
(National Integrated     <bullet> State Water      flows for endangered
 Drought                  Resource Boards          fish populations. It
Information System-      <bullet> USDA/NRCS        has also been used to
 NIDIS ii)               <bullet> Bureau of        explore sites in the
Climate Normals           Reclamation              state of Idaho for
(National Climatic Data                            potential new
 Center--NCDC iii)                                 hydropower generating
U.S. Drought Monitor                               stations.
(NOAA--USDA--National
 Drought
Mitigation Center
 Partnership)
Crop yield risks (RISAs
 iv)
Estimate crop water
 usage
(Regional Climate
 Centers v)
Regional Drought
 Outlooks (NIDIS)
------------------------------------------------------------------------
Services to Support the Energy Sector
------------------------------------------------------------------------
Climatology on wind and  <bullet> Energy          Energy producers use
 energy                   Companies                NOAA projections of
(NCDC)                   <bullet> State Public     precipitation, wind,
Greenhouse Gas            Utility Commissions      and weather to plan
 Monitoring              <bullet> DOE, NASA, EPA   and manage solar,
(NOAA Global Monitoring                            wind-power, and
 Division)                                         hydropower
                                                   facilities.
------------------------------------------------------------------------
Services to Support the Transportation Sector
------------------------------------------------------------------------
Navigation charts        <bullet> Airline         Engineers are tasked
(NCDC Buoy Data)          Industry                 with provid-ing safe
Real-time Tides and      <bullet> Shipping         roadways under
 Currents                 Industry                 virtually all weather
(NOAA Tides and          <bullet> Port Managers    conditions. Caltrans
 Currents)               <bullet> State DOTs       is working with NOAA
Surface Airport          <bullet> DOT, FAA         and other
 Climatology                                       climatologists and
(NWS)                                              hydrologists to
Extreme Weather                                    develop new methods
 Forecasts                                         for estimating peak
(NWS-Storm Predication                             precipitation and
 Center vi)                                        runoff events for the
                                                   purpose of road
                                                   design and safety.
------------------------------------------------------------------------
Services to Support the Public Health and Safety Sectors
------------------------------------------------------------------------
Hurricane Forecasting    <bullet> State and       The Oregon state
(NOAA Nat'l Hurricane     Local Emergency          epidemiologist is a
 Center vii)              Managers                 member of Oregon's
Tornado Forecasting      <bullet> Public Health    Climate Change
(NOAA Storm Prediction    Agencies                 Integration Group.
 Center)                 <bullet> Hospitals        One of the 10 key
Temperature Extremes     <bullet> FEMA             recommendations of
(NCDC)                                             the group is to
                                                   incorporate the
                                                   implications of
                                                   climate change on
                                                   public health into
                                                   the policy, planning
                                                   and preparation for
                                                   climate change.
------------------------------------------------------------------------
Services to Support the Oceans and Coastal Management Sectors
------------------------------------------------------------------------
Sea-level Data           <bullet> Ocean-front     The state of Alaska is
(NOAA Nat'l Ocean         Communities              responding to thawing
 Service viii)           <bullet> State Coastal    sea ice and increased
Tides and Currents        Commissions              coastal erosion that
(NOAA Tides and          <bullet> State            threaten communities.
 Currents)                Emergency Managers       As Governor Parnell
                         <bullet> FEMA             stated in testimony
                                                   to Congress, ``. . .
                                                   the state of Alaska
                                                   strongly supports
                                                   NOAA and its
                                                   initiatives to
                                                   improve its
                                                   observations and
                                                   research across the
                                                   Arctic and to develop
                                                   innovative
                                                   forecasting models
                                                   for next week's
                                                   weather and the next
                                                   century's climate.''
------------------------------------------------------------------------
\1\ This table focuses on NOAA climate services. Other agencies also
  provide climate-related information, including the USGS streamgaging
  network and the NRCS snowpack network. Coordinating with these other
  agencies would be part of the mission of the proposed NOAA Climate
  Service.
i National Weather Service River Forecast Centers (NWS-RFCs) performs
  continuous river basin modeling and provides hydrologic forecast and
  guidance products for hundreds of locations along rivers and streams
  across the U.S.
ii National Integrated Drought Information System (NIDIS) is an
  interagency and interstate effort to establish a drought early warning
  network for the U.S. NIDIS provides a better understanding of how and
  why droughts affect society, the economy, and the environment, and is
  improving accessibility, dissemination, and use of early warning
  information for drought risk management.
iii National Climatic Data Center (NCDC) provides access and stewardship
  to the Nation's resource of global climate and weather related data
  and information, and assess and monitor climate variation and change.
iv Regional Integrated Sciences and Assessments (RISAs) focus on sector
  specific users and the environment in which they make decisions and
  where climate data could be used to improve the quality of those
  decisions.
v Regional Climate Centers (RCCs) provide and develop sector-specific
  climate data products and services and provide integration of climate
  data from multiple sources.
vi NWS-Storm Prediction Center issues timely watch and forecast products
  dealing with tornadoes, wildfires and other hazardous weather
  phenomena.
vii NWS-National Hurricane Center issues watches, warnings, forecasts
  and analyses of hazardous tropical weather.
viii National Ocean Service translates science, tools, and services into
  action, to address threats to coastal areas such as climate change,
  population growth, port congestion, and contaminants in the
  environment, all working toward healthy coasts and healthy economies.

                         WGA-WSWC Bibliography
    The Western Governors' Association and Western States Water Council 
have written a series of reports on water, drought and climate 
adaptation. The reports are available at our website: www.westgov.org 
under the `Reports' tab. These reports include:

        Drought Response Action Plan, Western Governors' Association, 
        November 1996.

        Creating a Drought Early Warning System for the 21st Century: 
        The National Integrated Drought Information System, Western 
        Governors' Association, June 2004.

        Water Needs and Strategies for a Sustainable Future, Western 
        Governors' Association and Western States Water Council, June 
        2006.

        Water Needs and Strategies for a Sustainable Future: Next 
        Steps, Western Governors' Association and Western States Water 
        Council, June 2008.

        Climate Adaptation Priorities for the Western States: Scoping 
        Report, Western Governors' Association, June 2010.

        Improving Drought Preparedness in the West: Findings and 
        Recommendations from the Western Governors' Association and 
        Western States Water Council Workshops, January 2011.

    In addition, the National Drought Policy Commission authored a 
report on drought policy:

        Report of the National Drought Policy Commission: Preparing for 
        Drought in the 21st Century, National Drought Policy 
        Commission, May 2000. http://www
        .drought.unl.edu/pubs/pfd21main.html

    Senator Begich. Thank you very much.
    Next we have Dr. Peter Neilley, Vice President, Global 
Forecasting Services, the Weather Channel Companies.
    I hope when I appeared on Weather Channel, we did not ruin 
your ratings.
    [Laughter.]
    Dr. Neilley. I think you helped very much.
    Senator Begich. I know you have good morning ratings. Put 
us on there, things will go the other way. So thank you very 
much for being here.

   STATEMENT OF DR. PETER P. NEILLEY, VICE PRESIDENT, GLOBAL 
      FORECASTING SERVICES, THE WEATHER CHANNEL COMPANIES

    Dr. Neilley. Thank you, Chairman Begich and Ranking Member 
Snowe, and members of the Committee. Good morning, and thank 
you for the opportunity for us to address you today.
    Again, my name is Dr. Peter Neilley, and I am the Vice 
President for Global Forecasting Services for the Weather 
Channel Companies. I am also the Chair of the American 
Meteorological Society's Committee on Weather and Forecasting, 
and a member of NOAA's Environmental Information Services 
Working Group.
    The Weather Channel Companies are a major developer and 
provider of weather services for consumers and businesses 
across our Nation. Our television, Web and mobile products 
reach nearly 100 million users each month. We also serve nearly 
half of the television stations across the U.S., dozens of 
global airlines, and numerous traditional and renewable energy 
companies worldwide. We have been serving the Nation's weather 
interests for 30 years, and we're proud and respectful of the 
trust the Nation has instilled in us to inform and protect it 
from the weather.
    We are one of many private weather companies that provide 
weather and forecasting services to serve our Nation.
    Weather is woven into the fabric of our society. A recent 
estimate suggested that nearly 40 percent of our economy is 
sensitive to the weather. So far this year we have seen 14 $1 
billion weather disasters, more than any year on record, and 
that does not include the accounting of last week's storm in 
Alaska.
    Despite these losses, our Nation enjoys substantial 
protection from the weather. One recent study estimated that 
the roughly $5 billion we spend annually producing weather 
information directly avoids over $30 billion in annual weather-
related losses. Hence, our investments in a weather-ready 
nation are paying substantial dividends to the economy, and 
continuing such investments will return far more value to our 
society than their cost.
    Our nation is the global leader in the creation of state-
of-the-science weather information to serve our society. This 
is the result of the Weather Enterprise, an effective three-way 
partnership between NOAA and other weather-related government 
agencies, private weather services, and academic and research 
institutions. The effectiveness of the Weather Enterprise to 
serve society is derived from the cutting-edge science and 
technology developed by the research community, NOAA's 
implementation of these technologies to create foundational 
datasets, weather and climate datasets, and the private sector 
building upon these foundational datasets to create forecasts 
and other value-added products.
    The private sector is where much of the weather-related job 
creation has occurred recently, such as the weather-services 
sector enjoys one of the lowest unemployment rates in the 
Nation, as recently reported by the Wall Street Journal.
    It is critical that our Nation designs and funds next-
generation weather and climate services with an Enterprise-
optimized perspective is used so that we continue to derive 
optimal value from these investments.
    The foundational weather datasets from NOAA are essential 
to the private sector's ability to create and deliver weather 
information for the Nation. From our perspective, continued 
provision and evolution of these data is the single most 
important function of NOAA. Doing so will enable the broader 
Weather Enterprise to create new weather services to meet the 
evolving needs of the Nation and grow our economy.
    History has shown that the private sector is the most 
responsive and effective at developing new applications of 
NOAA's foundational weather information. Therefore, the private 
sector should strategically be relied upon to deliver next-
generation weather services that leverage evolving foundational 
datasets from NOAA.
    The specific needs of the Weather Channel Companies for 
information services from NOAA are, in priority order: one, the 
sustainment and evolution of all existing weather-observing 
platforms; two, improved numerical weather prediction 
capabilities; three, access to all known weather data, 
including those currently not readily available; four, improved 
detection of hazardous weather phenomena, particularly those 
that are not well-observed by the existing weather radars; 
five, liaison with NOAA's international counterparts to seek 
open access to all international weather information that 
enables fair competition in a global economy; six, support of 
scientific research that improves forecasts of impactful 
weather by the Enterprise; and finally, seven, climate 
information and forecasts to inform our Nation about the 
impacts of a potentially changing climate.
    The Weather Channel Companies plays an important role in 
serving the weather needs of the Nation. We perform this 
function only through a collaborative partnership with the 
Weather Enterprise. NOAA's crucial role in the Weather 
Enterprise is the creation of the foundational datasets and 
sustaining and involving those datasets as critical to the 
Weather Channel Companies' ability to help make our Nation 
weather ready.
    Thank you for the opportunity to address the Committee, and 
I'll look forward to your questions.
    [The prepared statement of Dr. Neilley follows:]

  Prepared Statement of Dr. Peter P. Neilley, Vice President, Global 
          Forecasting Services, The Weather Channel Companies

Introduction
    Chairman Begich, Ranking Member Snowe, and Members of the 
Subcommittee--Good morning and thank you for the opportunity to address 
you today. My name is Dr. Peter P. Neilley and I am the Vice President 
of Global Forecasting Services for The Weather Channel Companies. I am 
also the Chair of the American Meteorological Society's Committee on 
Weather and Forecasting, as well as a member of the Environmental 
Information Services Working Group of NOAA's Science Advisory Board. In 
my remarks today, I am speaking as a representative of The Weather 
Channel Companies.
    The Weather Channel Companies, which includes The Weather Channel 
and WSI Corporation, is a major developer and provider of weather 
services for both consumers and businesses across our Nation and around 
the world. The Weather Channel Companies' content is ubiquitous on 
nearly all forms of popular communication--The Weather Channel's 
television network is available in more than 100 million households, 
and our online and mobile products reach nearly 100 million users each 
month. In addition to our branded television, radio, print, web and 
mobile products for consumers, our content also serves the needs of 
businesses around the world with weather solutions for the media, 
aviation and energy industries. Through our business-solutions 
corporation WSI, our weather content is used by nearly half of the 
local television stations across the country, dozens of airlines around 
the world and numerous traditional and renewable energy companies 
worldwide. We are just one of many private companies that provide a 
wide range of valuable weather and forecasting services to meet the 
diverse weather needs of our Nation.
    We have been serving the weather interests of the Nation for thirty 
years and are proud and respectful of the trust the Nation has 
instilled in us to inform, advise and protect it from the weather.

Weather Has a Substantial Impact on Our Nation
    Weather plays a role in the daily lives of nearly every American 
and its impacts are woven into the fabric of our economy. One 2002 
published estimate suggested that nearly 40 percent of our economy or 
nearly $4 trillion annually is sensitive to the weather. In 2011, so 
far we have seen fourteen $1 billion weather disasters occur or over 50 
percent more than any other year on record. This includes the numerous 
tornado outbreaks that ravished the Southeast this spring, Hurricane 
Irene that swept the U.S. eastern seaboard in August, the ongoing 
devastating Southern Plains drought, and the recent early season 
snowstorm that hit New England. Despite these losses, our Nation enjoys 
substantial protection from the weather. One 2009 study estimated that 
we avoid over $30 billion in losses annually as a direct result of the 
roughly $5 billion annual investment our Nation makes in producing 
risk-avoiding weather information. This and other similar studies 
clearly show that although our Nation has significant weather risk, our 
investments in becoming a weather-ready nation are paying substantial 
net dividends to the economy and our society in general. It is 
imperative that we continue these investments in order to sustain and 
improve our resilience to the weather. Without such investments we 
potentially will lose far more value to our society than the cost of 
these investments.

The Weather Enterprise is Critical in Meeting the Needs of a Weather-
        Ready Nation
    The United States enjoys the broadest and most effective 
meteorological services in the world. Our nation is the global leader 
in the creation of state-of-the-science weather information and the 
provisioning of that information to serve both public and private 
interests in safety and economic prosperity. This leadership is the 
result of a strong and vibrant three-way partnership between (a) NOAA 
and other weather-related government agencies, (b) private weather 
services such as The Weather Channel network, and (c) academic and 
research institutions. Collectively, the players in this partnership 
are generally referred to as the Weather Enterprise. Each sector of the 
Enterprise has a unique but critical role to play in serving the 
Nation. In general terms, research by the academic community leads to 
cutting-edge science and technology that drives the evolution of the 
field, NOAA implements and operates these technologies to create 
foundational weather and climate datasets, and the private sector 
builds upon these datasets to create forecasts and other products that 
inform the public and provide value-added services to industry. The 
private-sector is also where much of the meteorologically related job 
creation has occurred over the past decade and is a principal reason 
why the weather-services sector of our economy enjoys one of the lowest 
unemployment rates in the Nation.
    The stated mission of NOAA's National Weather Service is to protect 
life and property and to enhance the national economy. It has been able 
to meet this mission only through the mutual collaboration of all 
members of the Weather Enterprise. The Weather Channel Companies and 
the other private sector weather services play a crucial role in 
communicating timely weather information to the Nation. We are 
dependent on NOAA, and in particular its National Weather Service for 
creating and serving some basic components of our overall service. The 
Weather Channel Companies' ability to continue to inform and serve the 
Nation effectively is strongly dependent on continued reliable and 
accurate foundational information services from NOAA. Further, it is 
critical that as our Nation designs and funds next-generation weather 
and climate services, that it considers a holistic, Enterprise-
optimized perspective to these services, rather than focusing solely on 
optimizing or broadening the roles of the Enterprise's individual 
components.

NOAA's Focus on Creating and Serving State-of-the Science Foundational 
        Weather Datasets
    Key to the ability of The Weather Channel Companies to deliver 
critical and actionable weather information to serve the Nation are the 
foundational datasets from NOAA that provide relevant observations of 
the state of the atmosphere, timely watches, warnings and advisories of 
threatening weather, and numerical weather prediction datasets that are 
reliable and accurate. The creation of these data is a function that 
only the government-sector of the Weather Enterprise can adequately 
perform. From our perspective, this is the single most important 
function of NOAA and it must remain the central focus of the Agency 
moving forward. We believe that NOAA's priorities should be the 
maintenance and modernization of its weather observing platforms, 
sustaining and evolving its world-class numerical weather and climate 
prediction capabilities, and ensuring robust and effective 
accessibility to its complete set of weather information by the Weather 
Enterprise outside of NOAA. Maintaining this as NOAA's core competency 
will then enable the broader Weather Enterprise to create new, value-
added weather services to meet the future needs of the Nation. History 
has shown that the private-sector is much better equipped, more 
responsive and more effective at providing new types of applications of 
NOAA's foundational weather information. Therefore, the private-sector 
should strategically be relied upon to develop and deliver next-
generation weather services such as forecasts of weather's impacts, and 
new communication services for a rapidly evolving digital society that 
leverage next-generation foundational datasets from NOAA.
Critical Information Needs of The Weather Channel Companies
    In order to continue to meet the needs of a weather-ready nation, 
The Weather Channel Companies will require new and evolved information 
services, many of which we believe are best met by capabilities 
developed and provided by NOAA. In priority order, our overall needs 
for services from NOAA are:

  1.  Sustaining state-of-the-science weather observation platforms and 
        capabilities including weather radars, satellite observing 
        systems and traditional weather observing systems.

  2.  Improved numerical weather prediction capabilities that employ 
        state-of-the-science initialization techniques and other 
        improvements that optimize the accuracy and usable duration of 
        their output.

  3.  Implementing new approaches that enable timely access and use of 
        the complete set of weather and forecast data that NOAA 
        currently creates but for which practical considerations limit 
        the ability to share outside of NOAA. This includes full-
        resolution, ensemble numerical weather prediction datasets that 
        are generally too large to practically and timely communicate, 
        and therefore are not fully leveraged to serve society today.

  4.  The deployment of new sensors and technologies to better detect 
        hazardous weather near the surface of the earth such as 
        tornadoes and other forms of severe weather. This includes a 
        denser weather radar network that can detect the many low-level 
        tornadoes that are not well observed by the existing NOAA 
        radars.

  5.  Aggressive liaison with its international counterparts to provide 
        open and fair access to international weather and forecast 
        information so that we may effectively and fairly compete on 
        the world marketplace in the provisioning of weather 
        information for a global economy.

  6.  Continued funding and other support of scientific research that 
        will improve the Enterprise's ability to detect threatening 
        weather, forecast its occurrence, and inform society of its 
        impacts in effective ways.

Climate Services needs for The Weather Channel Companies
    Our Nation faces uncertain but potentially substantial impacts from 
a changing climate. In order for our Nation to make informed and 
effective choices on responses and adaptation, it is important that our 
society be informed with factual, accurate and relevant climate 
information. Although The Weather Channel Companies' traditional focus 
has been in the provision of real-time and short-term weather 
information, we recognize and accept a responsibility to help inform 
the Nation regarding climate changes and its potential impacts. We 
believe that The Weather Channel Companies should play a leading role 
in educating our Nation about climate matters in a balanced and 
scientifically sound manner. In order to serve that role, The Weather 
Channel Companies will rely on NOAA to develop rich climate data 
services, including but not limited to accurate long-term weather 
archives, analyses of these data to elicit regional climate variations 
and trends, as well as state-of-the-science climate forecasts. We 
believe these are critical needs of the Nation and are services best 
provided by NOAA as part of its weather and climate foundational 
datasets mission.

Summary
    The Weather Channel Companies, as a major member of the broader 
Weather Enterprise, plays an important role in serving the weather 
needs of our Nation. We have been able to perform this function only 
through a collaborative partnership with NOAA and its various weather-
related divisions. NOAA's crucial role in the Weather Enterprise is the 
creation and provisioning of foundational datasets and we believe this 
must remain the core focus of the Agency. Continued modernization and 
evolution of these datasets is critical to The Weather Channel 
Companies success in its role in making our Nation weather ready.
    Thank you for the opportunity to address the Committee. I look 
forward to any questions you may have.

    Senator Begich. Thank you very much.
    Our next panelist is Robert Marshall, President and CEO of 
Earth Networks.

    STATEMENT OF ROBERT S. MARSHALL, FOUNDER AND CEO, EARTH 
                         NETWORKS, INC.

    Mr. Marshall. Thank you, Chairman Begich, Ranking Member 
Snowe, and members of the Committee, for your continued 
interest in innovation in weather forecasting and prediction, 
and allowing me to testify.
    My name is Bob Marshall, and I am the Founder and CEO of 
Earth Networks. I don't need to spend any time talking about 
the great impact that severe weather is having on our society. 
We all know it, and we see it every day.
    I will focus my remarks on the innovations that can help 
cost-effectively improve the accuracy and timeliness of our 
forecasts and warnings and to help save more lives.
    There is one thing that all scientists and meteorologists 
can agree to, and that is that high-quality observations of the 
atmosphere are required to produce accurate forecasts and 
warnings. You simply must measure what is happening to predict 
what will happen in the future.
    Of course, NOAA has developed a strong backbone 
infrastructure of observations over the past couple of decades, 
ranging from surface-based, in-situ and remote sensing 
platforms to satellite observing platforms. However, in 2008, 
the National Academy of Science report entitled ``From the 
Ground Up: A Nationwide Network of Networks'' documented 
critical gaps in NOAA's observing infrastructure.
    Among other recommendations, this report called for NOAA to 
first take advantage of all existing surface-based weather 
station networks, otherwise known as mesonets. If properly 
integrated, these observational data will clearly improve both 
forecasts and warnings. For example, had the National Mesonet 
been fully integrated into NWS operations, it is quite possible 
that better warnings could have prevented six deaths in the 
Indianapolis State Fair tragedy.
    It is important to note that these existing networks were 
not federally funded but are owned and operated by private 
sector companies, states and universities. NOAA must simply 
acquire the data and operationalize it, which makes this very 
cost effective relative to deployment of new observation 
networks.
    I am pleased to report that the National Mesonet program 
has received some limited funding for pilot programs to date, 
but it is not yet in the NOAA base budget, nor has it been 
fully funded or operationalized. The National Mesonets should 
be fully funded and completed.
    Now I want to talk about some exciting advances and 
innovations in Mesonet technology. Earth Networks is 
spearheading one very exciting innovation to provide improved 
severe weather warnings, and that is the integration of total 
lightning sensors into our National Mesonet. Researchers have 
long known that severe storms have very high total lightning 
rates. Simply said, if you can measure total lightning, it is a 
precursor to severe weather, and lead times for severe weather 
warnings can be improved.
    We have deployed these sensors at no up-front cost to the 
taxpayer, and our dangerous thunderstorm alerts are now fully 
operational in the Continental U.S. Let me briefly mention two 
examples. In the terrible super-tornado outbreak across the 
South this past spring, where hundreds of our citizens 
perished, we evaluated seven of the most devastating of those 
tornados. In those events, total lightning-based alerts 
provided an extra 13 minutes of warning, on average, over and 
above the National Weather Service severe thunderstorm and 
tornado warnings. The deadly Springfield, Massachusetts tornado 
of June 1 of this year is highlighted on the easel to my left. 
Total lightning alerts provided an additional 38 minutes of 
increased warning in that situation.
    Now let me say that NOAA and the National Weather Service 
generally do a fantastic job of warning our citizens to severe 
weather dangers, and that is especially true in the super-
tornado outbreak from this spring. But minutes do matter when 
it comes to severe weather and saving lives. With improved lead 
times, more people will find shelter and more lives will be 
saved. I'm pleased to say that total lightning is currently 
being trialed in National Weather Service field offices, but 
this must be quickly funded and moved to operations.
    Again, to provide perspective, NOAA and the National 
Weather Service have spent about $4.5 billion over the past 
couple of decades, and this investment has yielded an 
impressive improvement in lead time, from 4 to 14 minutes. 
However, this new and innovative ground-based sensor technology 
on the National Mesonet can provide a step-function increase in 
warning time for a tiny fraction of the previous investment. 
Let me repeat, this technology is here and ready today, and 
more lives can be saved.
    Lastly, I want to touch on NOAA's overall observational 
model. Given the current fiscal and budget reality, it is not 
an understatement to say that NOAA's traditional model, to 
purchase and own all of the observations it needs, is severely 
challenged, if not outright broken. NOAA must embrace public-
private partnership models whereby the cost of the networks are 
shared by many users, such as energy and transportation 
companies. In our case, NOAA pays a small percentage of what it 
would have cost them to deploy a comparable network.
    To summarize, even with the budget challenges that NOAA 
faces ahead, there are public-private partnerships and 
innovative new technologies that will enable us to collectively 
and cost-effectively create a weather-ready nation and to 
better protect the lives and property of our citizens. Earth 
Networks stands ready to do our part.
    I thank you for the opportunity to testify, and I'm happy 
to take any questions.
    [The prepared statement of Mr. Marshall follows:]

      Prepared Statement of Robert S. Marshall, Founder and CEO, 
                          Earth Networks, Inc.

Introduction
    Thank you, Mr. Chairman and Members of the Committee for this 
opportunity to testify on the importance of continuing innovation to 
improve weather forecasting and warnings. My name is Bob Marshall, 
founder and CEO of Earth Networks and I am very appreciative of this 
opportunity to discuss topics relating to the weather observing and 
forecasting programs of the National Oceanic and Atmospheric 
Administration. We thank the Committee for its continuing interest in 
addressing the complex requirements of observation, prediction, 
planning and response, and the critical role these efforts play in 
protecting lives and property.
    Earth Networks' particular expertise is in owning and operating 
large, dense environmental and atmospheric sensor networks. We utilize 
the data from these observational networks to deliver daily 
environmental information and alerting to millions of consumers; 
Federal, state and local governments; and the myriad of industries 
impacted by weather. While we certainly rely on many NOAA services, and 
incorporate NOAA data and forecasts into our products and services, we 
have found that the needs of the marketplace (and of government) often 
require higher resolution solutions and data sets that are more locally 
targeted and in much greater frequency than NOAA is currently able to 
provide through its own observing networks. In this manner, existing 
local networks of this type are able to supplement NOAA's in a unique 
and powerful public/private partnership.
    Weather is having a greater impact on our society than ever before. 
This includes impacts to the lives and property of our citizens and to 
our economy. To provide the most accurate forecasts and warnings for 
weather, dense high quality observations are required, so I will focus 
my comments on that component of the overall system. Without 
observations of the atmosphere, quality forecasts and warnings are not 
possible. And meteorological observations on the mesoscale (i.e., 
local/county scale) are of the greatest importance as evidenced by the 
fact that the vast majority of severe weather life and property losses 
are associated with mesoscale events such as tornados, thunderstorms, 
fronts, squall lines, etc.
    The need for improvements in observations of this kind are well 
documented and compelling as recently indicated within the National 
Research Council report From the Ground Up: A Nationwide Network of 
Networks. Among other recommendations, the Council advocated that a 
first priority be the development of a surface based National Mesonet, 
with comprehensive data collection, quality control and dissemination 
capabilities, which will provide the critical information needed to 
improve short and medium term weather forecasting (down to local 
scales), plume dispersion modeling, and air quality analyses. In this 
manner, not only will the overall capabilities of the atmospheric 
community be substantially improved, but decisionmaking will be 
significantly enhanced across a broad spectrum of market sectors and 
end user constituencies including energy, agriculture, homeland 
security, disaster management and emergency response, insurance and 
economic forecasting, transportation, education, recreation and 
scientific research.
    From an observing perspective, there are a number of specific areas 
that NOAA weather and climate programs should focus on in order to 
establish a truly Weather Ready Nation. Three key areas are: (1) a 
comprehensive and robust observing system; (2) early warning 
capabilities that leverage key mesoscale observing systems; and (3) 
strong public-private partnerships. While each of these components 
could be examined more closely to identify key requirements, assess the 
current condition of readiness and prescribe appropriate efforts and 
investments necessary for a more capable domestic program, my testimony 
today will only touch upon these aspects at a high level. Please note 
that my recommendations here today are rooted in recent reports from 
the National Academy of Sciences, national efforts by leading industry 
associations regarding weather and climate services, as well as my own 
experiences in leading an organization that interacts with all aspects 
of the American Weather Enterprise, i.e., public, private and academic 
interests involved in sourcing and distributing weather information. 
Finally, I'll also touch briefly upon climate considerations in this 
regard.

(1) Comprehensive and Robust Observing Systems
    The objective of weather and climate observing systems is to 
provide critical information on the current state of the atmosphere and 
terrestrial biosphere in a timely manner such that informed decisions 
can be made at varying time scales. In this context, decisions on the 
long term may involve potential global temperature changes and sea 
level rise that require development of climate mitigation and 
adaptation strategies. Intermediate term decisions may include flood, 
drought and winter weather or tropical storms expected to affect large 
areas and many sectors of the economy over prolonged periods of time. 
Alternatively, short fuse decisions more often entail those relating to 
convective (i.e., thunderstorm) weather events that while often 
widespread, occur quickly and dramatically impact people, property and 
critical assets.
    Supporting these varying decisions and timescales requires various 
types of observation platforms, including surface based in-situ and 
remote sensing monitoring networks as well as space based satellite 
systems. When seamlessly integrated, these complementary resources 
provide the raw data foundation upon which an entire nationwide 
decision support system is built. These data are critical inputs to and 
required for the establishment of situational awareness, the generation 
of forecasts, as well as the subsequent dissemination of warnings and 
alerts for the protection of life, infrastructure and optimization of 
weather sensitive market sectors. With regard to the latter, it should 
be noted that the impact of weather on our Nation's economy was 
recently estimated to be as much as $485 billion or 3.4 percent of the 
2008 U.S. gross domestic product. (Lazo, Lawson, Larsen and Waldman, 
Bulletin of the American Meteorological Society, June 2011, (http://
www.sip.ucar.edu/publications/PDF/Lazo_sensitivity_June_2011.pdf).
    Recent advances in electronics technology have enabled surface 
based sensors to become smaller, faster, more accurate, more reliable 
and less expensive. Networking of the sensors via the Internet and 
wireless networks has enabled dense surface based observation networks 
to proliferate rapidly. Environmental parameters that were once not 
practical to observe at the surface are now proven and operational. In 
some cases, these breakthroughs in surface based network technology 
potentially obviate the need to observe these parameters from space, 
where the costs and risks to do so are far higher. Generally, anything 
that can be observed from the surface should be observed at the surface 
due to the extremely high costs and risk factors inherent in any 
satellite launch. Satellites should only be considered where ground 
based sensors are inadequate.
    These advances are similar to the advances seen in astronomy. Ten 
or twenty years ago, the technology available from ground-based 
telescopes was not adequate to capture data at sufficient resolution 
for all research purposes; space based telescopes like Hubble were 
necessary. Now, technological advances have significantly improved the 
capability of ground-based observations. As a result, we collect from 
space only that data which we cannot collect from the ground--the two 
domains complement each other. Like in astronomy, improvements in the 
technology of ground-based in situ sensors, communications, power 
management, data handling and storage have all enabled the deployment 
of cost-efficient sensor networks with a density sufficient to allow 
applications thought impossible just a few short years ago.
    But sometimes a satellite is the appropriate answer. For example, 
the JPSS satellite is critical to NOAA's ability to forecast weather 
accurately, especially in the 3-5 day period and longer. This was never 
more apparent than the terrible southern tornado outbreak from this 
spring. The NWS was able to predict a very high potential for severe 
weather in the region many days in advance which helped communities to 
prepare. Studies have shown that the polar orbiting satellite data was 
critical to this success. Winter storms forecasts and warnings are also 
another area where the polar orbiting satellites are critical. In last 
year's ``snow-mageddon'', NWS forecasts allowed for up to a week's 
advanced warning of this storm, which again allowed time for 
communities to prepare in advance of the severe weather. There is no 
surface based technology that can provide an alternative for the 
observations that will be delivered by JPSS. It is critical for JPSS to 
be funded to prevent a significant decline in forecast and warning 
accuracy for these type events.

(2) Early Warning Capabilities
    As mentioned previously, most severe weather occurs at the 
mesoscale, i.e., local and regional scale and NOAA/NWS generally does a 
very good job of generated severe weather warnings to cover this 
domain. However, while warning lead times correspondingly improved 
during the NWS modernization that began in the 1980s, during recent 
years the warning lead times have not improved appreciably. This is a 
direct reflection of operational observing systems also not 
significantly improving. With the frequency and severity of weather 
events increasing and our population growing, further improvements in 
warning lead times are necessary to better protect life and property. 
High resolution mesoscale observations enable more accurate and timely 
forecasts and warnings in the 0-6 hour's timeframe. Fortunately, this 
committee and the National Weather Service have taken steps toward 
making this capability operational by appropriating monies for and 
implementing demonstration programs and pilot projects. For example, 
the National Mesonet Program championed by Senator Barbara Mikulski 
after the 2004 Baltimore Water Taxi Incident, involves a broad cross 
section of weather and climate network operators throughout the country 
who are supplying comprehensive surface observations and associated 
metadata from stationary and mobile platforms. But more should be done; 
we need to move beyond pilot projects to operational implementation.
    To this end, I maintain that following the recommendations of the 
2008 NRC report From the Ground Up: A Nationwide Network of Networks, 
and leveraging to the maximum extent existing and proliferating surface 
observations, be fully implemented as soon as possible. Doing so will 
significantly enhance NOAA's ability to forecast near-term severe 
weather and do so in a highly cost-effective manner. This is 
particularly germane in a year where the Nation experienced an historic 
number of severe weather outbreaks, including destructive Tornado 
outbreaks in Tuscaloosa, AL and Joplin, MO as well as severe droughts, 
crippling snow storms and devastating hurricanes in other parts of the 
country. And the situation is only being exacerbated as our population 
grows and migrates toward urban and coastal areas. In fact, the 
previous annual record of 9 individual $1 billion weather-related 
catastrophes has been surpassed already in 2011 with a record setting 
14 as of today.
    Beginning in the 1980s, NOAA invested heavily in infrastructure for 
observing, analysis, visualization and dissemination capabilities which 
resulted in significant tornado warning lead time improvements from 4-
14 minutes. This important and necessary advancement was the outcome of 
an approximately $4.5 billion investment. Since then, however, there 
have only been marginal improvements. What I want to stress is that new 
and innovative technologies can immediately deliver step-function 
improvements in early warning times at a fraction of the previous cost. 
These advancements in sensor technologies are the result of motivated 
and fully engaged private, academic and state government organizations 
that have enabled the deployment of dense, surface based observation 
networks throughout the country.
    A specific recent innovation in mesonet technology is the 
integration of total lightning sensors. For many years, researchers 
have demonstrated that monitoring cloud flash lightning data at high 
detection efficiencies would provide insight into early stage 
convective development and that such total lightning observations could 
potentially provide significant improvements in storm warnings. But the 
technology was never available to cover large, continental areas at a 
reasonable cost. Using innovative new technology, Earth Networks has 
rapidly and efficiently deployed a continental scale total lightning 
network on its nationwide mesonet. This network is operational today 
and is automatically producing severe storm alerts with lead times as 
much as 30 minutes in advance of NWS Severe Thunderstorm and Tornado 
Warnings. During the April 25 to 28, 2011 Super Outbreak that killed 
more than 346 people and included the tornado that tore through 
Tuscaloosa, AL, Earth Networks total lightning system achieved an 
average lead time increase of 13 minutes for a broad subset of these 
events. Similar lead time performance achievements have been repeatedly 
observed for many other events throughout the country over the past 
several years and as such, the NWS is currently piloting the technology 
in 27 field and regional forecast offices.
    As mentioned, this type of technology has only been made available 
on a broad scale and for such purposes during the past couple of years. 
It should also be emphasized that its cost is only a small fraction of 
that required to achieve the same from space and was accomplished 
without consuming a single dollar of taxpayer money. With the Earth 
Networks total lightning network being fully operational, the need to 
observe lightning in the future from satellites should be evaluated. 
The forthcoming GOES-R satellite includes a lightning sensor at a cost 
of more than $100M. The Earth Networks ground based total lightning 
network already delivers many of the benefits of the GOES-R satellite 
lightning sensor including higher resolution and accuracy. This is the 
kind of issue that should be looked at carefully, so that the 
government can be assured that a proper cost-benefit analysis has been 
completed. Even if the GOES-R lightning sensor initiative, scheduled 
for operations in 2017, is too far along to be shelved the Earth 
Networks total lightning capability should leveraged immediately to 
improve severe weather forecasting and alerting as well as to provide 
ground truth for satellite calibration, forecast validation and after 
action reports.
    I have attached a Power Point presentation to this statement that 
demonstrates the power and effectiveness of this currently available 
and cost effective technology.

(3) Public Private Partnerships
    Achieving a condition where the Nation is adequately equipped to 
foresee weather related threats and alert the community with sufficient 
warning lead-times requires vision, coordination and continued 
investment. It is particularly clear, however, that the Federal 
Government cannot achieve this goal alone, particularly in the face of 
an increasingly difficult budget environment. Therefore, it is 
imperative that vigorous public-private partnerships be nourished to 
drive innovation and allow for the appropriate mixture of baseline 
government provided services and market based offerings. By utilizing 
the capabilities of private networks, NOAA can acquire the data and 
services it needs at a fraction of the cost of owning the network 
assets. The return required for the network deployment costs are 
amortized over a variety of market segments; the costs and risks are 
shared. Only this type of partnership will ensure that available 
government funding is being deployed most effectively and efficiently.
    Consistent with the 2003 NRC report entitled Fair Weather: 
Effective Partnerships in Weather and Climate Services, the NWS has 
initiated and expanded upon a dialogue with the private sector. These 
conversations have improved coordination among the sectors by providing 
greater insight into each other's respective needs, plans and 
capabilities. These efforts should be continued and identified 
synergies should be acted upon with greater urgency in order to rapidly 
fill the gaps in capabilities and services.
    While the Federal Government is well suited to act globally and 
nationally, it is limited in its capacity to act locally beyond the 
provision of oversight and funding support. As such, it is envisioned 
that a public/private partnership structure, with guidance from the 
National Oceanic and Atmospheric Administration, facilitate and 
integrate these disparate networks and delivery of customized services. 
An organizational model of this type is particularly applicable given 
that many networks have been deployed by local organizations with local 
considerations in mind. These stakeholders can react quickly and 
efficiently, and are uniquely positioned to recommend future network 
evolution within their domains. These networks are in-place and 
available today. As such they offer the ability to deliver immediate 
returns.

(4) Climate Considerations
    Before turning to my conclusions, let me comment briefly on another 
related monitoring initiative that Earth Networks is pursuing.
    NOAA is charged with conducting research on the complex carbon 
cycle and its impact on climate variability. Currently, there are very 
limited carbon observations available to scientists for this research. 
NOAA operates about 10 such surfaced based carbon observationsites and 
there are a few dozen operated by others around the world. The current 
carbon observation network is limited to global and continental scale 
measurements and analysis. Many more observations are required to 
develop a better understanding of the carbon cycle at local and 
regional scales and to provide measurement, reporting and verification 
to support international treaties, as well as any regulatory or market-
based reductions schema.
    Similar to the advances described above, advances in electronics 
technology have also significantly improved the ability to accurately 
and reliably measure carbon from the surface. Earth Networks is 
deploying the largest surface-based greenhouse gas observing network in 
the world, with 50 sensors planned for the continental United States, 
25 in Europe, and 25 distributed around the rest of the globe. Again, 
with this innovative new technology there is the potential for 
significant cost savings by increasing investments in ground based 
carbon measurements relative to satellite-based measurements. 
Unfortunately, the original Orbiting Carbon Observatory (OCO) satellite 
launch failed on launch. The cost of that mission was approximately 
$280 million. A second carbon satellite, OCO<INF>2</INF>, is being 
developed at a cost of another $200 million. While all scientists, 
including those at Earth Networks desire data from both surface and 
space based platforms, the question is whether this is practical given 
the current budget constraints. Before funds are fully committed to a 
new or replacement satellite program, an exhaustive analysis should be 
accomplished to determine the tradeoffs associated with these funding 
decisions. As the previously referenced National Academies report title 
intimated, we should always start ``from the ground up.''

Conclusion
    While NOAA has built up significant observational assets and 
capabilities over many decades, there remain significant gaps that 
limit our ability to further improve forecasts and warnings. Further, 
with budget challenges that will no doubt confront us for the 
foreseeable future, NOAA's model for acquiring and maintaining critical 
observations is infeasible. Overall budgets will likely be flat or 
lower. Satellite program costs are consuming an ever larger proportion 
of the NOAA budget and the current trajectory is simply not 
sustainable.
    Immediate improvements, however, in forecasting and prediction can 
be realized by utilizing Public-Private partnerships to enhance 
existing space and ground based observing platforms. Therefore, 
specific strategies adopted in this regard should:

  <bullet> Guarantee annual funding of the National Mesonet in NOAA's 
        budget to fully integrate locally collected mesoscale surface 
        weather data into the forecasting and warning functions at 
        every National Weather Service field office;

  <bullet> Guarantee that NOAA incorporate continental scale total 
        lightning data into the National Mesonet and into its storm 
        warning capability to achieve a step-function improvement in 
        warning times;

  <bullet> Fund cost efficient surface based carbon networks to improve 
        local and regional scale climate science;

  <bullet> Establish a standing NOAA advisory panel whose sole mission 
        is to look at the balance of NOAA's forecasting needs for both 
        weather and climate, and then recommends in a public way how 
        those requirements should be met between the three 
        observational domains of surface, airborne and space based 
        measurements;

  <bullet> Hold annual Congressional hearings on the state of 
        innovation in forecasting and warning to measure the progress 
        on the important objectives that the public demands and which 
        must be done in a fiscally prudent manner given the challenging 
        economic times.

    Through the types of strategies and initiatives that I have 
highlighted today, the broader weather and climate industry will be 
able to expedite and support NOAA in establishing a truly Weather Ready 
Nation.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions you may have.

    Senator Begich. Thank you very much.
    Let me first start, if I can. Again, this will be a 5-
minute round.
    Mr. Iseman, let me again thank the WGA for their 
partnership with NOAA, and I guess the first question I have 
is, from your perspective, what, if any, hurdles are there in 
the development or the expansion of the partnership that you 
see that maybe are being caused by our end of the equation?
    Mr. Iseman. I think the big challenge for us right now in 
moving forward with this Memorandum of Understanding is taking 
it from the conceptual phase of a memorandum and into 
implementation, and we're working through that right now. We've 
had great support from NOAA in taking these steps. I think the 
real test of this partnership will come when we move to apply 
the memorandum in specific places and to work on the ground to 
develop the improvements that we've envisioned. So we're 
hopeful and optimistic for now.
    Senator Begich. Do you think they have--and this is not a 
criticism of NOAA. It's just kind of my view of the Federal 
Government in general as a former mayor. Do you think they have 
the capacity to be regional as you had described? You know, the 
Federal Government has a bad habit of let's make everything 
national and all will work out for the best, and usually it 
doesn't because they don't recognize the regional differences 
and the uniqueness of certain areas. I mean, our state has 
multiple weather systems, compared to just one state that might 
have one weather system.
    So can you--tell me your kind of confidence level. I know 
you have a good partnership with them, but this is, I think 
your comment was--I noted that your concern is can you bring it 
down to the regional level.
    Mr. Iseman. Right.
    Senator Begich. What's your confidence level in that 
capacity?
    Mr. Iseman. I think there are some positive signs. One is 
the MOU itself. Two, I've seen some of the ways that they have 
organized and are delivering services at a regional scale, and 
one of those is through the NIDIS program, where they're 
working on regional early warning systems for drought and 
actually working with the people in the local community to 
develop those systems and deliver the services. And another is 
the Regional Integrated Sciences and Assessments where they are 
marshalling capacities at the universities to help states and 
local communities address on-the-ground problems.
    So I think there are positive signs, and we'll be happy to 
report back on our progress under the MOU.
    Senator Begich. I think that would be great, because I 
think the more NOAA partners, and that's kind of what this 
panel is really about, is how do you partner with other 
organizations and groups and private sector to expand the 
capacity of NOAA to provide the necessary information for 
forecasting and prediction that benefits everybody. So I'd be 
very interested in knowing how you progress on that and what 
are those challenges that might start to appear in the 
implementation of it, because that's always the--it's great and 
easy to do an MOU. I used to do those a lot when I was mayor. 
But then as mayor, you had to implement them, and so you had to 
make sure they were real. And so I would look forward to that 
commentary as you move forward.
    Mr. Iseman. Thank you, Senator.
    Senator Begich. Mr. Marshall, I appreciated your 
presentation. Your comment, which again caught me, and I want 
to follow up on it, do you think there is enough or are there 
areas that NOAA could really expand in maximizing the private 
sector capacity of what's now developed? I mean, if this was 20 
years ago, it's a whole different ballgame with weather 
services in the private sector, but it's a different business 
now, proven by the Weather Channel and many of the industries 
that are related now to it.
    Can you tell me, do you think there is more opportunity 
that's not being taken advantage of? And I'll pause for a 
second by saying this is a challenge we have also at the Coast 
Guard, and that is they want to own everything, and to partner 
means less authority or less jurisdiction, and I think there's 
a way probably to meld the two. But in NOAA, is that something 
that you would hope they would start looking at because of 
financial conditions, but also because of technology 
development?
    Mr. Marshall. Yes. Thank you, Senator. I think there are 
really two sides to the public-private partnership from my 
perspective. I mean, on one side you have companies like the 
Weather Channel, myself, and many others that take the very 
important information from NOAA, develop value-added products, 
and help distribute that information to businesses and 
consumers.
    I think one of the new areas that has evolved over the last 
decade or so, for sure, is that with advances in technology and 
with the ubiquitous nature of the Internet as a communications 
platform, virtually every sensor in the world is being 
connected to the Internet, and the data is flowing in real time 
every second. You know, the sensors are smaller, faster, more 
accurate, more reliable, and less expensive. So you have 
companies like ourselves that are deploying sensor networks all 
over the place, and this is a new area where the private sector 
can form a public-private partnership in NOAA to provide that 
data to NOAA to integrate into their operations, and it can be 
done very quickly and very cost-effectively.
    So NOAA does not have to necessarily invest in all of the 
observational technology. It can just acquire the data. And I 
think that's a relatively new circumstance, and NOAA is 
embracing that model to some degree. But technology is evolving 
so rapidly that it can certainly be adopted faster, and this 
information can be put into the hands of the forecasters to 
make sure that warnings and forecasts get better immediately.
    Senator Begich. Very good. I'll probably follow up again in 
just a minute on that.
    Mr. Neilley, let me ask you again. Thank you for your 
efforts here. You had seven points, I think, and one of them 
that stood out I think was access to weather data not available 
now. Can you elaborate on that?
    Dr. Neilley. Thank you, Senator. NOAA creates a tremendous 
amount of weather information routinely throughout the day. The 
volume of it is so vast that it is impractical to communicate a 
lot of that information outside of NOAA, and decisions must be 
made about how to filter that data to provide general services 
to partners of NOAA.
    However, the data that is unfiltered still has a tremendous 
amount of value to providing forecasting information, and we 
need to seek ways in which we can have access and use that 
information to create more value from that information.
    As I mentioned earlier, I sit on the Environmental 
Information Services Working Group of NOAA, and we're exploring 
that question and expect to have recommendations to the NOAA 
Science Advisory Panel perhaps later this month.
    Senator Begich. And do you think NOAA is responsive to this 
idea of sharing some of the--it's basically the raw data?
    Dr. Neilley. I think--I believe they are. In preliminary 
discussions with NOAA, they certainly embrace this. Dr. Jack 
Hayes made a public endorsement of some of the concepts that 
were put forth and how we might be sharing some more of these 
data, and recent discussions with Kathy Sullivan have indicated 
strong endorsement of trying to figure out ways in which 
overall the society can benefit from all the data that NOAA 
has, yes.
    Senator Begich. Very good.
    Senator Snowe?
    Senator Snowe. Thank you. Just a follow-up on that 
question. Has there been information that you haven't received 
in the accumulation of that data, that raw data, that could 
have had an effect on the public, do you think?
    Dr. Neilley. Oh, absolutely. We wouldn't be seeking this 
information if we didn't think it had a great deal of value to 
the public. It probably would be difficult to cite a specific 
example offhand, but there are--it would probably be conveyed 
in everyday weather, the frequency with which we update the 
information, the precision of which we can provide the 
information to the public so they can make daily decisions in 
going about their lives and businesses.
    Senator Snowe. So do they filter the data that gets to you, 
or what is the answer? Are they just accumulating it so fast 
that they can't transmit that data?
    Dr. Neilley. It's both of those. The data gets accumulated 
so fast. Super-computers run and create the information at a 
great deal of precision and resolution, and fundamentally we 
don't have communication systems to make it practicable to send 
that data outside of those super-computing facilities.
    Senator Snowe. You mentioned in your testimony that the 
private sector should be strategically relied upon to deliver 
next-generation weather services, and I know that you, and Mr. 
Marshall as well, probably use a lot of mobile phone 
technology, desktop applications and so forth. Would that 
suggest reaching a broader audience through those mechanisms 
and through the advanced technologies that people use every 
day?
    Dr. Neilley. Absolutely. History has shown that the private 
sector has been much more adaptable and responsive and faster 
in developing services that the public uses and can consume in 
their everyday lives, and I believe it's one of those--relying 
on the private sector to be the voice of the weather to the 
Nation is one of those ways that the private sector can most 
effectively do and should be the strength of what we should 
rely on from the strengths of the private sector.
    Senator Snowe. Thank you, Dr. Neilley.
    Mr. Marshall, you were mentioning this national Mesonet 
program. How has NOAA reacted to that?
    Mr. Marshall. Well, I think they've embraced the National 
Academy's report that came out in 2008. I think there has been 
some activity and there has been some limited funding put in 
place. I mean, we are somewhat disappointed that the Mesonet 
activities have not made it into the President's budget yet, 
despite the fact that the national Mesonet is briefed routinely 
by Dr. Hayes and his team as something that's very important 
for the National Weather Service strategically. So we certainly 
would like to see that become a reality, because this is very 
cost effective. It's leveraging existing sensor networks that 
are out there, that all you have to do is integrate them into 
the operations of the forecast offices and immediate 
improvements can happen for forecasts and earlier warnings.
    So relative to the cost of deploying a new satellite, which 
is measured in the billions of dollars, this is very, very 
inexpensive and something that can happen very, very quickly.
    Senator Snowe. So are you suggesting there could be more 
sensors in different locations?
    Mr. Marshall. Well, I mean, there are tens of thousands of 
sensors out there today that are in different networks. We have 
our own, universities, other companies, and that data just 
needs to be integrated into one database and leveraged by the 
National Weather Service. Again, there has been some work done, 
but I think it's really a clear opportunity to make substantial 
progress in the short run, particularly when you have a 
difficult budget environment where you can't fund everything 
that you want to do. This is low-hanging fruit.
    Senator Snowe. Right. So you're suggesting instead of 
having to deal with major satellites, that you could do some 
limited investments to gather all the information that's out 
there that's being accumulated on a daily basis.
    Mr. Marshall. Yes, and I want to make sure I'm clear. I 
mean, in certain situations, yes. You can take advantage of 
existing networks, and they can fulfill the needs of many 
things, even stuff that satellites can do; not for all things, 
though.
    Senator Snowe. Right.
    Mr. Marshall. So when you come to, like, the JPSS 
satellite, there is no surface-based alternative sensors out 
there today that would fit the need for that. So that's an 
important and critical initiative for NOAA that needs to move 
forward, or else there will be a big gap in their ability to 
forecast weather, particularly in the 3 to 5 day time-frame for 
winter storms and tropicals. So there isn't surface-based 
alternatives for that, but there are for other things that can 
really make a material improvement for forecasts and warnings.
    Senator Snowe. Does NOAA integrate all your data?
    Mr. Marshall. Not all of it. I mean, no. I mean, it's 
partial. At the end of the day, we've done some limited pilot 
projects, but clearly it would not take a significant amount of 
money to make sure that the data from our network, from other 
company private-sector networks, from academic networks gets 
integrated, assimilated, and used operationally within the 
forecast offices and in the numerical forecast models, and 
that's really what we would like to see happen.
    Senator Snowe. I see.
    Mr. Iseman, you were discussing the importance of tailoring 
information to the appropriate scale for regions and resource 
managers. Could NOAA make better use of their weather service 
stations, for example, as a way of doing that?
    Mr. Iseman. I'm not prepared to comment on that question 
right now. I'd like to get back to you.
    Senator Snowe. Are there ways in which NOAA could better 
engage local communities right now?
    Mr. Iseman. Well, absolutely, and I'm sorry, I'm not 
familiar with all of the efforts that NOAA has under way to 
work directly with local communities, but we see a lot of ways 
that they could engage with the states, ways that we're trying 
to implement through this Memorandum of Understanding that we 
think can improve this relationship.
    Senator Snowe. Yes, I am aware of the MOU that was just 
reached, and that certainly would be an important step forward 
to have that common understanding and that partnership. But the 
outreach by NOAA to states and local communities could be 
extremely important in all of this, as well.
    Mr. Iseman. Agreed. Thank you, Senator. And one of the 
things that NOAA has been doing is more Webinars and updates on 
a regular basis with the communities that are affected by these 
events, and I know right now they've got a series going on in 
the Southwest for drought, and they're going to be starting one 
in the Upper Missouri to look at the forecasts for snowpack and 
river runoff, and I think they're getting ahead of the game in 
trying to do a better job of communicating that.
    Senator Snowe. I appreciate that. Thank you.
    Mr. Iseman. Thank you.
    Senator Snowe. Thank you all.
    Senator Begich. Thank you all very much. I just have two 
quick questions, and one, just to make sure, Mr. Marshall, only 
because, being parochial here for a moment, Mesonet, is it 
connected to Alaska or not? Is it continental? Did I hear 
continental; right?
    Mr. Marshall. Yes. They are absolutely. Thank you, Senator. 
No. The Mesonet is really, they're a global Mesonet. So we have 
sensors in Alaska. There are others that have sensors in 
Alaska. And all of that information should absolutely be 
integrated into one national Mesonet to make sure that the 
Weather Service takes advantage of that existing data in your 
state, in all the other states.
    Senator Begich. Very good. Thank you.
    Mr. Iseman, let me end my--I just have one final question, 
and that is you heard the last panel that was here. I talked 
about the Centralized Climate Service Program and that there 
was a group, a small percentage, a very small percentage, that 
are concerned that when you centralize it, you may not create 
enough information flowing out. I'm assuming the same comment 
you had earlier on my other question about making sure it's 
regional, local, the work that NOAA does and the MOU you have, 
same situation probably here, that you want to make sure if 
they centralize, that there's still a local understanding of 
what's going on. Is that a fair statement?
    Mr. Iseman. Yes, it is, Senator. And----
    Senator Begich. I just didn't want to assume that based on 
your earlier statement.
    Mr. Iseman. We have supported a national climate service. 
We think there's value in coordinating and centralizing this 
information and disseminating it. But one of our important 
comments on that topic has been that it be regionalized.
    Senator Begich. OK. Very good.
    Senator Snowe. May I ask a question?
    Senator Begich. Yes, Senator Snowe.
    Senator Snowe. I wanted to ask you, Dr. Neilley, so it's 
not our imagination that we're experiencing extreme weather 
events? Is it unprecedented in this last year?
    Dr. Neilley. Certainly from an economic----
    Senator Begich. Microphone? There we go.
    Dr. Neilley. Thank you, Senator. Certainly from an economic 
perspective, so far and with still sort of 2 months of 
accounting to go, we've seen 14 $1 billion weather disasters 
this year. I believe the previous highest number was 9. So 
we're almost 50 percent higher this year than we've seen in any 
year.
    Senator Begich. I know just from Alaska's perspective that 
the storm we just had--I mean, it was a big storm, earlier than 
usual in the sense of the magnitude it had, and more damaging 
because you have no ice buildup. You have no capacity to 
protect against erosion. And that's still being analyzed in 
Alaska. When we have erosion, it's not a few feet of ground 
that disappears. It could be upwards of 50 to 70 feet inward, 
inland that disappears, gone.
    So it's an interesting pattern of weather we have now. As I 
tried to explain to my son yesterday when our neighbor was 
watering her plants, her flowers outside, as we turned on the 
TV or Internet to check in with my wife where it just snowed 
lots of inches of snow in Anchorage, and then Juneau just had a 
record snowfall at this time of year, which doesn't make sense 
for Juneau. They're trying to figure that one out. But it's 
very different than it was in the past, that's for sure.
    Thank you all very much. And again, this gave us a lot of 
good information, a lot of opportunity to look at ideas, and 
this last panel I really appreciate some of the innovation that 
you all are doing in the private sector in organizations, 
because that, I think, as we deal with the budget issues, we're 
trying to find innovative ways to continue to make sure we have 
robust weather prediction, and I think you all have offered 
some good suggestions and some ideas and food for thought here. 
So I think on behalf of both of us, we thank you very much.
    The record will be open for 14 days for any additional 
questions we may have that we might submit to you. But again, 
thank you all very much, and at this time the meeting is 
adjourned. Thank you very much.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]

                            A P P E N D I X

             Prepared Statement of John D. Rockefeller IV, 
                      U.S. Senator, West Virginia

    Today we will be examining the many important weather programs of 
the National Oceanic and Atmospheric Administration (NOAA). From the 
streams of data provided by environmental satellites, to the severe 
weather alerts of the National Weather Service, the products, services, 
and warnings that NOAA provides benefit all Americans. Every day, 
decisions are made based on NOAA weather information, whether it helps 
one decide to carry an umbrella, or to seek life-saving shelter during 
a storm.
    This year has unfortunately shattered almost every weather record 
imaginable in the United States. Record-breaking snowfall, cold 
temperatures, extended drought, high heat, severe flooding, violent 
tornadoes, massive hurricanes--all of these events have amounted to the 
greatest number of multi-billion dollar weather disasters in our 
nation's history. For each of these record-setting events, human lives 
were lost, and entire communities and livelihoods were torn asunder. 
Thinking of the many Americans harmed, I believe the public's need for 
timely and accurate weather forecasts and emergency warnings could not 
be more critical.
    Though the hardships of many are devastating, the death and 
destruction could have been far worse had it not been for the guidance 
and expertise of NOAA scientists, meteorologists, and climatologists. 
NOAA forecasts and warnings provided crucial lead times that protected 
property and saved lives. In my own state of West Virginia, innovations 
in forecasting have provided greater notice of flash flood events, 
allowing people to better protect their property and evacuate safely 
when needed. In times of emergency, minutes can save lives.
    It's clear that NOAA atmospheric services are invaluable to all 
Americans, yet this year in a terrible demonstration of irony the 
agency's important functions have again been taken for granted. House 
Republicans have repeatedly sought to slash NOAA's budget and prohibit 
the agency from conducting basic research and weather observational 
science. As a result of continued underfunding and programmatic delay 
in NOAA's Joint Polar Satellite System, or JPSS, the nation faces the 
likely loss of essential weather forecasting capability in the coming 
years, because our current weather satellite capabilities will degrade 
before JPSS is launched and becomes operational. Such a gap would take 
our forecasting capabilities back decades, detrimentally hindering the 
ability to warn the public about severe weather events. This penny 
wise, pound foolish approach threatens to leave millions of Americans, 
communities, and first responders without the life-saving forecasting 
information we all expect and depend on to make timely decisions that 
ultimately save lives. This is a risk we cannot afford. I believe we 
must work now to mitigate the impacts of such a later gap in the most 
responsible and cost-effective way possible.
    I have also supported NOAA's good governance proposal to better 
align the agency's atmospheric science and services. This would 
continue NOAA's mission of providing reliable and accurate scientific 
information and support services to a public looking for answers. This 
is why we're here today. We must assess if current NOAA weather 
services are meeting our growing needs. Where they are not, we need to 
find ways to fill those gaps and push for innovation. And we need to 
have a better grasp of the necessities of the future. This is not an 
easy task, but I'm confident that our two panels of witnesses can help 
us make a big step forward. I'm grateful to each witness for sharing 
your testimony and expertise with the Committee.
                                 ______
                                 
          Prepared Statement of Daniel A. Sobien, President, 
            National Weather Service Employees Organization

    Thank you, Chairman Begich and Ranking Member Snowe, for inviting 
the National Weather Service Employees Organization to submit written 
testimony for the Subcommittee's hearing on the need for continued 
innovation in weather forecasting and prediction. I am the Lead 
Emergency Response Meteorologist at the Tampa Bay Area Forecast Office 
and National President of NWSEO.
    The 3,800 employees of the National Weather Service represented by 
our union are pleased that the Subcommittee considers this issue one 
worthy of attention. Our organization and its members have been 
encouraging the National Weather Service to develop innovative 
forecasting techniques, products and services for several years. I am 
pleased to report that through collaborative labor-management efforts, 
NWS and NWSEO have identified and are now in the early stages of 
implementing nine pilot projects to deliver innovative weather services 
to the Nation. We are also in the early stages of designing an 
additional seven pilot projects to implement in 2012. In order to pay 
for these projects and the additional forecasters that will be assigned 
to them, the union and the NWS's Chief Financial Officer jointly 
identified and agreed to efficiencies in current NWS operations and 
expenses, that will free up $50 million over 5 years. These cooperative 
efforts constitute a milestone in Federal sector labor-management 
relations, and demonstrate how public employee unions can be part of 
the solution to providing better services to the taxpayer despite tight 
fiscal constraints.
    Nearly two decades ago, the National Weather Service underwent a $5 
billion modernization and restructuring. By all accounts this 
modernization was a huge success; a recent National Academy of Sciences 
report found the NWS modernization; ``allowed more uniform radar 
coverage and surface observations across the United States. 
Improvements were particularly evident in the forecasting and detection 
of severe weather such as tornadoes and flash floods. The probability 
of detecting these events improved over the course of, and after, the 
MAR, and the lead times of the warnings increased.'' But since that 
time, the agency has made only modest and incremental changes and 
improvements in service delivery. Last year, however, the NWS tested a 
pilot project to improve aviation forecasting services which it 
referred to as the ``Golden Triangle.'' The NWS assigned three 
additional forecasters--one per shift--at the New York, Chicago and 
Atlanta Forecast Offices. These nine additional forecasters were 
charged with providing air traffic controllers with real-time site 
specific aviation forecasts. Within 3 months, the assignment of these 
additional forecasters dedicated to aviation needs was responsible for 
reducing weather related air traffic delays by 50 percent when compared 
to periods of comparable weather in prior years. (See chart attached 
hereto).
    NWSEO and NWS used the success of this initial pilot as a basis for 
developing other test beds as part of the NWS's ``Weather Ready 
Nation'' initiative. Management and the union jointly solicited 
suggestions and proposals for local offices across the nation; local 
management and labor teams drafting proposals that were sent to the 
national level where they were reviewed and refined by senior 
management and union officials. The parties then agreed to move forward 
with the following pilot projects, which will involve approximately 27 
new positions at the nine offices involved:

  <bullet> A National Operations Center at NWS headquarters in Silver 
        Spring that will serve as a national incident command center 
        for multi-region or national large scale weather events; 
        respond to sudden and unexpected demands for services that 
        exceed NWS's local or regional resources; and liaise with other 
        Federal agency command centers and assist with public 
        information during large scale events.

  <bullet> A Regional Operations Command Center at the NWS Southern 
        Region headquarters in Fort Worth, Texas that will serve as an 
        incident command center for regional large scale weather events 
        and, among other products, prepare a twice daily Threat 
        Briefing Package.

  <bullet> An ``Impact-Based Decision Support Services'' program at the 
        Sterling, Virginia (Washington, DC) Forecast Office staffed by 
        three ``Emergency Response Meteorologists'' who will assist 
        local and state emergency management agencies to with response 
        to natural and man-made emergencies that have a weather related 
        component (i.e, terrorism, toxic chemical discharge, or severe 
        weather). One of these ``ER Mets'' will be embedded with the 
        Maryland Emergency Management Agency, one at the FEMA National 
        Capitol Regional Coordination office and the third will staff a 
        Decision Support Desk at the Sterling Forecast Office and will 
        support the needs of the Virginia Department of Emergency 
        Management. They will be dispatched to field locations during 
        emergencies to assist local authorities in decisionmaking in 
        which weather plays a factor.

  <bullet> A similar pilot program will be established at the New 
        Orleans Forecast Office consisting of three Emergency Response 
        Meteorologists who will test the provision of decision support 
        services to local and state authorities for events impacting 
        the coastal environment. This pilot will build on the 
        experience which the NWS gained in assisting Federal, state and 
        local authorities during the Deepwater Horizon spill. These ER 
        Mets will be prepared for dispatch to the site of disasters or 
        to local emergency management operation centers.

  <bullet> An ``Ecosystem Forecasting'' pilot at the Tampa Bay Forecast 
        Office will provide enhanced coastal forecasts for maritime 
        interests (i.e., oil platforms) and new ecosystem forecasts for 
        water temperature, salinity, currents and red tide. 
        Hydrological runoff forecasts will be issued to mitigate the 
        development and transport of harmful algal blooms. The 
        forecasters will also serve as emergency response 
        meteorologists for the Tampa area, which regularly hosts 
        national security events such as the Super Bowl, the World 
        Series and the 2012 Republican National Convention.

  <bullet> A ``Mesocale Science to Operations'' pilot will be 
        established at the Charleston, West Virginia Forecast Office 
        that will attempt to improve localized short-fused warning 
        lead-times of convective weather and flash flooding by applying 
        new research on mesoscale (intermediate scale weather) 
        forecasting techniques and models in an operational 
        environment. The goal will be to provide more specificity in 
        time and space in the forecasting of warning-level weather 
        events.

  <bullet> A pilot at the Boulder, Colorado Forecast Office will test 
        the integration of the work of the NWS's Space Weather 
        Prediction Center in Boulder to daily aviation forecasting.

  <bullet> The MidAtlantic River Forecast Center in State College, 
        Pennsylvania will test production of high resolution QPF 
        (Quantity of Precipitation Forecasts) in a digital format for 
        any point along rivers.

  <bullet> The ``Golden Triangle'' pilot project will be expanded into 
        San Francisco (Monterrey) Forecast Office in an effort to 
        reduce weather-related air traffic delays in the San Francisco 
        area.

    Six of these pilot projects are in the early stages of staffing. 
Staffing for the Boulder, State College and Monterrey projects may be 
delayed until next year.
    The NWS and NWSEO are in preliminary discussions about seven 
additional pilot projects for 2012. Five of these pilots will be 
located in ``tornado alley''--Kentucky, Missouri, Alabama, Oklahoma and 
possibly North Carolina. The NWSEO and NWS jointly recognize that while 
much progress has been made over the past few decades in warning the 
public of tornado dangers, the capability of forecasters to give 
adequate lead time, accuracy and intensity forecasts of the strongest 
tornados is not adequate to allow the public to reach safety in many 
circumstances. In addition urbanization of areas prone to these extreme 
tornados has led to catastrophic situations such as the 2011 tornado 
season with over 500 fatalities reported. These pilots will incorporate 
the latest neighborhood scale modeling techniques in an attempt to 
improve lead times and accuracies to a point where residents can be 
evacuated from areas under a threat of extreme tornados. They will also 
test the concept of Emergency Response Meteorologists utilizing the 
latest communication technology to maximize warning effectiveness. Two 
other pilots under discussion will involve tsunami mitigation outreach 
efforts in Puerto Rico and the Pacific Northwest.
    In addition to these national-level initiatives, regional NWS and 
NWSEO officials have agreed to a number of new initiatives to improve 
weather services in Alaska:

  <bullet> The Alaska Aviation Weather Unit has implemented a new 
        product called the Hazardous Weather Graphic that gives users 
        information not covered in regular aviation forecasts such as 
        solar activity that would cause jamming of communications; 
        debris expected from wind or fires in long term situations; 
        strong surface winds 3 days in advance and significant 
        turbulence or low level winds shear expected in heavily 
        trafficked areas. The AAWU will also be developing gridded 
        forecasts of wind shear, turbulence and icing and other 
        meteorological parameters up to 60,000 feet creating a ``3-D'' 
        forecast.
  <bullet> The Alaska Region has added a Decision Support Meteorologist 
        in the Regional Office who has developed a social networking 
        site on Facebook to assist the public in getting weather 
        information during storms. The three forecast offices in Alaska 
        contribute to this site as well. The Decision Support 
        Meteorologist has enhanced communication between the NWS and 
        the Alaska Department of Homeland Security and Emergency 
        Management. An example is a daily conference call which he 
        organized between the forecast offices, the state emergency 
        management agency and the villages affected by the early 
        November storm.
  <bullet> A new forecast desk (and four additional forecasters to 
        staff it around the clock on a rotational basis) at the 
        Anchorage Forecast Office that will improve decision support 
        services as well as watches/warnings and aviation forecasts for 
        the forecast office's service area.
  <bullet> Marine satellite phones are being deployed at several 
        Weather Service Offices that allow the staff to receive calls 
        from ships in remote Alaskan waters. The staff will receive 
        marine observations from previously data-sparse waters in the 
        Gulf of Alaska, Bering Sea and Chukchi Sea, which will improved 
        forecast accuracy for those areas.
  <bullet> The operations of the Sea Ice forecasting desk at Anchorage 
        will be expanded to 7 days a week.
  <bullet> The creation of a experimental Arctic Ocean Offshore 
        Forecast from 60 to 200 nautical miles of the Arctic Coast of 
        Alaska. Until 5 years ago, this area was iced over nearly year 
        round. However, due to climate change, the Arctic Ice Pack has 
        melted and there is now much open water in this area during the 
        summer. This forecast in being developed in anticipation of 
        further melting which will result in the movement of commercial 
        ventures (oil exploration, shipping) into the area.

    Our members appreciate the support of the National Weather Service 
that Congress has shown by full funding of the agency for Fiscal Year 
2012. We hope we can count on your support for our efforts at 
innovation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Mary M. Glackin

Projected Gap in Polar-orbiting Satellite Data
    Question 1. In November, my staff met with Mary Kicza, Assistant 
Administrator for NOAA satellites. She was unable to indicate concrete 
steps that NOAA was taking to deal with the likely gap in satellite 
data, beyond the drafting of a Request for Proposal (RFP), to be issued 
by NOAA only after the loss of satellite capacity occurs. NOAA has 
repeatedly stated that full funding is necessary to minimize any gap, 
but recent reports even if the program received full funding going 
forward, a gap is still likely to occur. Shouldn't NOAA be pursuing a 
dual track of securing funding for JPSS while simultaneously 
proactively exploring opportunities to mitigate the forecasted loss of 
data?
    Answer. There are no viable operational alternatives in the event 
that Suomi NPP (S-NPP) fails before JPSS-1 becomes operational. Neither 
the Department of Defense nor the Europeans, our well-established 
operational partners, fly weather satellites in the afternoon orbit. 
However, NOAA is taking several steps to plan for gap mitigation. 
First, the Assistant Administrator of NESDIS has tasked her team to 
look at ways of maximizing the life of S-NPP starting now. This 
includes conditioning the batteries, minimizing heat stress, minimizing 
fuel use, etc. The Suomi NPP satellite is flying the same instruments 
that will fly on JPSS-1. Second, NOAA will take a second look to 
determine if there is any way to move up the launch date of JPSS-1. At 
this point, moving up the launch date of JPSS-1 may not be possible 
simply due to the fact that it takes a certain amount of time to 
actually build the satellite and put it through the various testing 
required before launch.
    Third, NOAA is also assessing other international missions, such as 
the China Meteorological Administration (CMA) Feng Yun 3B (FY-3B) 
satellite that is currently flying in the afternoon orbit with 
instruments similar to NASA EOS legacy satellites, however, the data 
will need to be analyzed to ensure it is of a quality comparable with 
current data streams. Currently, there are no other countries that are 
flying microwave sounders in the afternoon polar-orbit. NOAA will 
continue to assess whether other U.S. and international government or 
private sector satellites are launched that could provide the type of 
data that are needed for NOAA's numerical weather prediction models.
    Fourth, NOAA will take a look at whether there are different, non-
traditional ways of using data that we have not done before. To that 
end, the NOAA Administrator has directed NOAA's Assistant Secretary for 
Environmental Observations and Prediction to develop a written, 
descriptive, integrated, end-to-end plan that considers the entire flow 
from candidate alternative sensors through data assimilation and on to 
forecast model performance. She is assembling a team that includes 
independent technical consultants to make an enterprise-wide 
examination of contingency options that could be exercised in the event 
of a gap in polar satellite observations. This will include the use of 
alternative observations (from, e.g., other satellites or in situ 
instrumentation), changes in data assimilation and/or modeling methods 
and so forth. The work being initiated by the NESDIS Assistant 
Administrator, mentioned above, will be included in this larger 
enterprise-wide assessment.
    In addition, NOAA's National Weather Service is looking into ways 
to mitigate the impact to weather forecasts should a gap in polar 
afternoon orbital coverage occur. Unfortunately, many of those 
forecasts use Numerical Prediction Models as a primary input, these 
models rely heavily on polar data and there is no getting around the 
fact that any gap in polar coverage would impact the accuracy of model 
outputs.

    Question 2. Given that a significant gap in satellite coverage in 
2016 and 2017 is almost a certainty, what other types of data and 
infrastructure can NOAA utilize to ensure continuity in weather and 
climate forecasting capabilities?
    Answer. NOAA assimilates many types of observational data (e.g., 
satellite-derived observations, radar, aircraft observations, weather 
balloon profiles of the atmosphere, surface observations across the 
country, marine observations from buoys, ships, etc.) into numerical 
weather prediction (NWP) models. These models generate weather 
guidance, or weather forecast simulations via operational 
supercomputers, which are used by forecasters to provide accurate and 
reliable forecasts from hours to several days in advance. Despite 
NOAA's numerous sources of observational data, data from polar-orbiting 
satellites are unique because they provide global coverage that cannot 
be replaced by in situ data. Loss of polar-orbiting satellite data 
would result in degradation in forecast skill beyond day one for 
regional prediction and day three and beyond for global prediction.
    NWS has assessed the impact to operations and all possible 
mitigations for the expected gap between Suomi NPP and JPSS. While we 
will continue to leverage our current data streams, there are no viable 
operational alternatives that will cover the projected data gap in the 
afternoon orbit that will occur due to the delayed launch of the first 
JPSS-1 satellite in the afternoon orbit. Neither Department of Defense 
nor the Europeans, our well established international partners, fly 
weather satellites that would provide global data in the afternoon.

    Question 3. While recognizing the budget-constrained environment, 
what steps is NOAA taking to identify and secure alternate types of 
technology and infrastructure that aren't satellite-based?
    Answer. Weather and climate forecasts and warnings use integrated 
observations from different systems such as satellites, radars, weather 
balloons, automated surface observing systems, and coastal weather 
buoys. NOAA operates a suite of computer weather models from global 
models to regional scale models to high resolution local scale models. 
For regional prediction and forecasting, loss of satellite data can be 
partially mitigated through surface-based remote sensing, aircraft, and 
in-situ data.
    Satellite data cannot, however, be replicated through ground 
observations. Any loss in satellite observations will decrease NOAA's 
ability to protect lives and livelihoods from extreme weather events. 
Polar-orbiting environmental satellites provide global coverage and 
other systems provide local in situ observations. Ninety four percent 
of data assimilated into numerical weather prediction (NWP) models is 
from satellites and 84 percent is from polar-orbiting satellites. 
Polar-orbiting satellites provide data required for Global NWP models 
needed for weather forecasting
    Through the World Meteorological Organization (WMO), NOAA will 
continue to utilize access to worldwide data from the WMO's 189 member 
states and territories including ground stations and radiosondes. WMO 
facilitates the exchange, processing and standardization of 
observational data between its members. NOAA will continue to leverage 
this resource.
Prioritization of NOAA's Climate and Weather Data Collection Activities
    Question 4. How does NOAA incorporate the needs of natural resource 
managers, policymakers, and the private sector when determining what 
types of weather and climate data it will collect?
    Answer. NOAA's observation requirements are derived from the data 
needs of NOAA's operational and research programs which support 
Nation's operational need for weather forecasting and environmental 
monitoring. NOAA actively works with external partners such as the 
Department of Homeland Security, Department of the Interior, Department 
of Transportation to ensure that their mission needs are reflected in 
NOAA's mission requirements. NOAA's data policy of full, free, and open 
exchange of data facilitate the wide use of NOAA data by domestic and 
international users. NOAA continues to encourage the use of these data 
by these users. The NWS' mission is to provide weather, water, and 
climate data, forecasts and warnings for the United States, its 
territories, adjacent waters, and ocean areas for the protection of 
life and property and enhancement of the national economy. NWS 
regularly collaborates with users of these end products. To the extent 
possible, NWS incorporates other user needs as data are collected and 
processed; NWS makes the data available for open and unrestricted use, 
unless specific non-disclosure agreements are in place when private 
data sources are used.
    An example of NOAA's incorporation of external partner needs is the 
Weather-Ready Nation initiative--a collaboration of government 
agencies, researchers, and the private sector to:

  <bullet> Improve precision of weather and water forecasts and 
        effective communication of risk to local authorities;

  <bullet> Improve weather decision support services with new 
        initiatives such as the development of mobile-ready emergency 
        response specialist teams;

  <bullet> Provide innovative science and technological solutions such 
        as the nationwide implementation of Dual Pol radar technology, 
        Integrated Water Resources Science and Services, and the Joint 
        Polar Satellite System;

  <bullet> Strengthen joint partnerships to enhance community 
        preparedness;

  <bullet> Work with weather enterprise partners and the emergency 
        management community to enhance safety and economic output and 
        effectively manage environmental resources.

    Question 5. What types of weather and climate data are given 
highest priority, and why?
    Answer. No one type of weather or climate data is given highest 
priority. Weather and climate forecasts and warnings use integrated 
observations from different systems as varied as satellites, radars, 
weather balloons, automated surface observing systems, and coastal 
weather buoys. The mix of observations also depends on the weather 
event being monitored. For example, the instruments used to monitor a 
hurricane versus a tornado are quite different. Also, different 
observations are required depending on how far out the forecast is in 
time. Short term weather forecasts would be more likely to utilize a 
combination of radar data, geostationary satellite data, and other 
surface observing data whereas weather forecasts further than three 
days out would rely more heavily on polar satellite data, and climate 
forecasts depend on observations from the Tropical Ocean Array data 
buoys as well as a suite of other technologies. While 94 percent of 
data assimilated into numerical weather prediction models are from 
satellites and 84 percent is from polar-orbiting satellites, the 
quantity of observations does not necessarily reflect a priority of 
importance.

    Question 6. Are there any types of data that public or private 
sectors routinely request from NOAA that are currently not being 
collected by the agency?
    Answer. In general, no. However, while NOAA can supply 
meteorological data for a given weather station on a given date or over 
time, that data may not be representative of a nearby location of 
interest to a third party. It is common knowledge that weather can be 
quite variable over short distances, and additional information and 
analysis may be needed to adequately describe the weather at the 
secondary location. NOAA views this as a private sector role. (see more 
at http://www.nws.noaa.gov/im/ and http://www.noaa.gov/
partnershippolicy/)
    NWS primary responsibility is to collect and process data needed to 
meet NWS mission requirements. The NWS' mission is to provide weather, 
water, and climate data, forecasts and warnings for the United States, 
its territories, adjacent waters, and ocean areas for the protection of 
life and property and enhancement of the national economy. To the 
extent possible, NOAA works to accommodate the needs of our other 
external partners, but our primary responsibility remains to provide 
forecasts to the American public to protect lives and property. NWS 
makes the data available for open and unrestricted use, unless specific 
non-disclosure agreements are in place when private data sources are 
used.
    NOAA continues to explore opportunities to partner with private and 
public and international environmental observational networks.
Proposed Climate Service
    Question 7. In the FY 2012 President's budget request for NOAA, the 
agency proposed a reorganization of its existing climate related 
programs, which are currently housed in multiple NOAA line offices, 
into a single line office. NOAA says that this will result in a line 
office dedicated to climate research in the same way that the Weather 
Service line office is dedicated to weather research. Since the Climate 
Service is purported to be ``budget neutral'' and will not add any new 
programs, in what ways would reorganization improve NOAA's climate 
science services?
    Answer. Building on efforts initiated in the previous 
Administration, NOAA proposed reorganizing climate resources into a new 
line office, the NOAA Climate Service Line Office, in the President's 
Fiscal Year (FY) 2012 budget. This proposal was not included in the 
final FY 2012 Appropriations Act that President Obama signed in 
November 2012.

    Question 8. Would new activities be undertaken within this proposed 
Climate Service in the future? If so, what types of activities would be 
anticipated?
    Answer. The proposal to reorganize NOAA's climate resources into a 
new line office was included in the President's FY 2012 budget request; 
however, it was not included in the FY 2012 Appropriations Act that 
President Obama signed in November 2012.

    Question 9. Some have raised concerns that a NOAA climate service 
would be rigid, jurisdictionally narrow, and inherently non-
collaborative, given it being housed in one agency. How is NOAA 
addressing these concerns to ensure its proposed climate service could 
effectively address the diverse needs of multiple agencies, 
jurisdictions, and stakeholders?
    Answer. The proposal to reorganize NOAA's climate resources into a 
new line office was included in the President's FY 2012 budget request; 
however, it was not included in the FY 2012 Appropriations Act that 
President Obama signed in November 2012. As a sound steward of American 
taxpayer dollars, NOAA will continue to work as efficiently and 
effectively as possible under our current organizational structure and 
within the resources we are provided to meet the growing public demand 
for information--including access to NOAA's information assets, and 
enabling improved information sharing and more productive partnerships 
with a broader enterprise that includes: Federal agencies, local 
governments, private industry, other users, and stakeholders.
Leveraging Private Sector Capabilities
    Question 10. Several witnesses today spoke about the benefits that 
NOAA and the private sector share when leveraging each other's weather 
data. For example, Bob Marshall highlighted the value of a national 
comprehensive weather observing system--an integrated network or 
meteorological sensors that complements and enhances NOAA's own array 
of sensors--so as to provide more accurate and faster warning 
capabilities throughout the country. Similarly, the National Research 
Council professed the same benefits of a National Mesonet in their 
report ``From the Ground Up: A Nationwide Network of Networks.''
    However, NOAA has never requested funding for a National Mesonet. 
For the past few years, the Senate has understood the potential of such 
a partnership by including funding the National Mesonet in NOAA's 
annual appropriation bills. Out of a roughly $1 billion budget for the 
National Weather Service, the National Mesonet has only accounted for 
$8 million to $19 million. It appears that at the most, that's 2 
percent of NOAA's budget for what has amounted to a relatively 
significant increase in weather data capacity for NOAA. Why has NOAA 
not requested funding for the National Mesonet?
    Answer. The President's Budget reflects the Administration's 
highest priorities for maintaining NOAA's weather observing systems and 
assets. NOAA recognizes the value of leveraging data from local 
observing networks or ``mesonets'' which provide denser, local scale 
detail of the weather and environment. This information can be 
effectively used to improve short and local forecasts in areas with 
this local data. NWS will use FY 2012 funding to convene a peer-
reviewed study to develop a plan for NOAA's role in a National Mesonet, 
with recommendations for implementation as appropriate.

    Question 11. Please explain whether NOAA has--or has not--achieved 
value in this public private partnership.
    Answer. NOAA recognizes the value of leveraging data from local 
observing networks or ``mesonets'' which provide denser, local scale 
detail of the weather and environment. This information can be 
effectively used to improve short and local forecasts in areas with 
this local data. Mesonet system data are used in NWS operations as 
supplemental data sources. Mesonets are broadly consistent with the 
spirit and recommendations of From the Ground Up, in that they provide 
the types of observations that augment NWS's ability to detect, 
forecast, and warn for localized, high-impact weather events. NOAA will 
continue its current approach to developing a National Mesonet by 
leveraging existing networks (operated by state and local governments, 
the private sector, and other Federal agencies), when and where 
available.
    A key to successfully leveraging existing data is to gather and 
provide detailed and enhanced metadata (``data about the data'').
    Question 12. The Commerce Committee remains strongly committed to 
the success and swiftest possible implementation of the Joint Polar 
Satellite System. However, it is clear to me that we must 
simultaneously continue to invest in additional, cost-effective 
innovations to ensure a weather-ready nation. As we face the gap in 
polar-orbiting weather satellite coverage, how will NOAA better 
integrate data and information from public private weather 
partnerships, such as the National Mesonet, to augment--or even 
improve--forecasts and warnings? Specifically, will NOAA incorporate 
data from the lightening mapper that Mr. Marshall spoke about in his 
testimony into NOAA's models? If not, why not?
    Answer. NOAA applauds the Committee's recognition of the importance 
of investing in cost-effective innovations to ensure a Weather-Ready-
Nation. While there are no viable operational alternatives that will 
cover the projected data gap that will occur due to the delayed launch 
of the first JPSS-1 satellite in the afternoon orbit, NOAA will 
continue to work with the private sector to obtain mesoscale 
observations whenever possible and cost-effective. For example, NOAA is 
working with the renewable energy sector to investigate the use of 
local scale data in NWS numerical weather prediction models to provide 
more accurate and timely weather forecasts that can be used by both NWS 
forecasters and private sector forecasters.
    Mr. Marshall references the GOES-R Lightning Mapper (GLM), which 
will provide total lightning data (cloud-to-ground and in-cloud 
flashes) for the entire Western Hemisphere, complementing and expanding 
beyond existing ground-based systems. NWS currently obtains mainly 
cloud-to-ground lightning data from terrestrial networks. NOAA is 
assessing other research-based terrestrial systems which provide total 
lightning data. Total lightning data offers more information about 
storm severity and structure than cloud to ground lightning data and 
continuous monitoring of total lightning flash rate from the GLM is 
expected to improve tornado and severe storm warning lead time and 
improve hurricane track and intensity forecasts. Total lightning data 
from this research is used to simulate the data that will come from the 
GLM. Researchers are in turn using this simulated data in different 
local scale numerical weather prediction models to assess potential 
forecast improvement particularly in data-sparse regions where radar 
and other observations are not available.
    In order to continue to improve weather forecast skill, NOAA is and 
will continue to invest in the science of better understanding 
environmental processes, improved modeling and data assimilation, and 
the supporting computing infrastructure.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Mary M. Glackin

Spectrum
    Question 1. The National Telecommunications and Information 
Administration (NTIA) evaluated four spectral bands currently in 
government use for possible `Fast Track' reallocation for wireless 
broadband service within the next five years. One spectral band they 
considered was the 1675-1710 MHz band used for downlinks from 
geostationary and polar-orbiting weather satellites that are 
administered by NOAA. This weather data is directly accessed by any 
number of Federal, state, and tribal government first-responder 
agencies in support of their missions. Additionally, foreign polar 
satellites also transmit signals to the United States in this band 
under international agreements.
    NTIA recommends that ``15 megahertz (MHz) of the 1675-1710 MHz 
(specifically 1695-1710 MHz) spectrum could be made available for 
wireless broadband use within five years, contingent upon timely 
allocation of funds to redesign the Geostationary Operational 
Environmental Satellite-R satellite and other costs the National 
Oceanic and Atmospheric Administration (NOAA) and other Federal 
agencies will incur in connection with sharing this spectrum.''
    Please provide the list of actions NOAA needs to take over the next 
five years in order for the agency to share the 1695-1710 MHz band with 
the wireless broadband service? How much will these actions cost? How 
will they be paid for? How far along is NOAA in its planning 
activities? In particular, what is the potential impact on design, 
development, and deployment of JPSS?
    Answer. NOAA currently operates a number of polar-orbiting and 
geostationary operational environmental satellites in the 1675-1710 MHz 
range. NOAA and its European mission partner, the European Organization 
for the Exploitation of Meteorological Satellites (EUMETSAT), operate 
polar satellites using identical direct broadcast imagery systems in 
the 1695-1710 MHz band. Assets that are currently in orbit cannot be 
retrofitted to change the transmission frequency. NOAA expects 
replacement satellites to be launched by 2017 for the Joint Polar 
satellite System and 2015 for the Geostationary Operational 
Environmental Satellite-R Series.
    In November 2010, the Department of Commerce, through its National 
Telecommunications and Information Administration (NTIA) and working 
with other impacted Federal agencies, including NOAA, concluded a 
months-long analysis in response to the President's June 2010 Broadband 
Initiative. In the report, Assessment of the Near-Term Viability of 
Accommodating Wireless Broadband Systems in the 1675-1710 MHz, 1755-
1780 MHz, 3500-3650 MHz, and 4200-4220 MHz, 4380-4400 MHz Bands (Fast-
Track Report), the Department recommended--and has formally proposed to 
the Federal Communications Commission--that a 15-megahertz portion of 
the band, 1695-1710 MHz, be made available for commercial use within 
five years, in a manner that protects critical government sites via 
exclusion zones. The exclusion zones would protect key earth station 
sites, including NOAA's operational facilities, to minimize the 
likelihood of interference. Devices or reception sites that operate 
outside of these exclusions could face interference.
    NOAA is also participating in an NTIA-led engagement process with 
industry to develop options for repurposing this spectrum that 
maximizes its commercial use, while protecting essential NOAA 
capabilities. This may include more detailed interference modeling, 
which could allow for smaller exclusion zones, moving downlinks to less 
populated areas or other options.
    NOAA expects additional costs from redesigning observational 
systems and technical studies related to potential interference issues. 
NOAA is still evaluating the potential cost impacts and costs would be 
incorporated into its transition plan as required by the Middle Class 
Tax Relief and Job Creation Act of 2012. Examples of modifications that 
would entail additional costs include:

        GOES-R: NOAA's next generation geostationary satellite program 
        (GOES-R), which is currently under development for launch mid-
        decade, redesigned its direct broadcast communications 
        subsystem to move below 1695 MHz to comply with the spectrum 
        sharing regime identified in the Fast-Track Report. Changes to 
        current contracts were executed and costs paid using GOES-R 
        Program contingency funds.

        Radiosondes: As a result of the GOES-R redesign, NOAA's 
        radiosondes (balloon-borne instruments for atmospheric 
        measurements) require redesign to reduce spectrum usage in time 
        to support the GOES-R redesign. Redesign of NOAA systems 
        attributable to making the frequency available for auction is 
        expected to be paid for by auction proceeds.

    Additionally, NOAA is eligible for funding for certain pre-auction 
planning costs, consistent with the terms articulated in the Middle 
Class Tax Relief and Job Creation Act. Funding from the Spectrum 
Relocation Fund, where proceeds from auctions of spectrum previously 
used by Federal agencies is held, is contingent upon approval by a 
technical panel, comprised of representatives of NTIA, OMB and the 
Federal Communications Commission, of a NOAA transition plan. NTIA is 
creating the procedures for the panel now and NOAA is working with NTIA 
to develop its transition plan.

    Question 2. My understanding is that NOAA intends to establish 
wireless radio `exclusion zones' surrounding satellite downlink sites 
to help minimize the impact to meteorological services from harmful 
interference. How many exclusion zones are being proposed? What are the 
sizes of the exclusion zones? How practical is this approach? Do you 
believe use of exclusion zones will diminish the relative value of the 
spectrum?
    Answer. In the report, Assessment of the Near-Term Viability of 
Accommodating Wireless Broadband Systems in the 1675-1710 MHz, 1755-
1780 MHz, 3500-3650 MHz, and 4200-4220 MHz, 4380-4400 MHz Bands (Fast-
Track Report), the Department recommended--and has formally proposed to 
the Federal Communications Commission--that a 15-megahertz portion of 
the band, 1695-1710 MHz, be made available for commercial use within 
five years, in a manner that protects critical government sites via 
exclusion zones. The exclusion zones would protect key earth station 
sites, including NOAA's operational facilities, to minimize the 
likelihood of interference.
    The report proposed exclusion zones around 18 Federal ground 
stations, of which five are critical to NOAA meteorological satellite 
operations. The other 13 sites are non-NOAA U.S. Government user 
locations. The exclusion zones proposed for protection of these five 
ground stations range in size from 90 km to 121 km. Proposed zone size 
varies from site to site due to differences in receiver 
characteristics, topography and other factors.
    NOAA is not well-positioned to assess the relative value of the 
spectrum. However, NOAA is participating in an NTIA-led engagement 
process where Federal agencies and industry are working together to 
develop options for repurposing this spectrum that maximizes its 
commercial use, while protecting essential NOAA capabilities. This may 
include more detailed interference modeling, which could allow for 
smaller exclusion zones, moving downlinks to less populated areas or 
other options. Also, the model used to determine the exclusion zone 
sizes proposed in the Commerce report did not fully consider anomalous 
propagation because it was not clear whether this effect is applicable 
when considering the aggregate interference from a deployment of 
geographically dispersed commercial handset as analyzed in the Fast 
Track Report. Through the NTIA process, NOAA will have a better 
understanding of the technical and deployment parameters of the 
commercial systems and the potential risks to in-band and adjacent band 
earth station receivers. Based on the additional information for the 
commercial systems further modeling may be necessary before an auction 
or license conditions to clarify NOAA's protections.

    Question 3. Are you concerned that there may be out of band 
emissions from wireless devices operating in the 1695-1710 MHz band 
that may impact the operations of radiosondes (weather balloons) and 
sensors (many of which are unlicensed) in the 1675-1695 MHz band? If 
so, what steps can NOAA take to help minimize the impact of harmful 
interference?
    Answer. Yes, out-of-band emissions are always a concern for 
operational impacts. NOAA radiosondes operate on National 
Telecommunications and Information Administration (NTIA) authorized 
(licensed) frequencies. Out-of-band interference analyses will be 
performed as part of the radiosonde system redesign process. Any out-
of-band interference concerns will be brought to the attention of the 
NTIA Interdepartment Radio Advisory Committee (IRAC) so that the 
concerns can be addressed during the NTIA/FCC process for reallocation 
of the 1695 to 1710 MHz band. NOAA will also improve the receiver out-
of-band rejection performance as part of the radiosonde system redesign 
effort, when funding for repurposing the existing Federal allocation 
becomes available.
JPSS
    Question 4. How long can NOAA wait to launch JPSS-1 before our 
weather modeling systems begin to suffer?
    Answer. NOAA currently estimates that JPSS-1 will launch no later 
than the second quarter of FY 2017. As such, NOAA cannot afford to have 
any further slips to the JPSS-1 launch date without further increasing 
the already high risk of a loss of data for numerical weather 
prediction (NWP) models and impact to the accuracy of National Weather 
Service forecasts and warnings.
    The Suomi NPP satellite is currently expected to provide suitable 
data for weather forecasting through mid-2016. Assuming Suomi NPP 
provides data as planned, there is a high probability of a gap in data 
from the afternoon orbit from the end of the Suomi NPP mission until 
JPSS-1 has completed its in-orbit calibration and validation phase. 
NOAA is utilizing its resources to ensure that the launch date for 
JPSS-1 does not slip any further. In the absence of data from the 
afternoon orbit from an operational polar-orbiting satellite such as 
either NOAA's POES or Suomi NPP satellites, there will be an immediate 
degradation to the National Weather Service's numerical weather 
prediction (NWP) models.

    Question 5. Will the geostationary satellite system (GOES-R) 
maintain weather prediction at or near current levels during the gap in 
JPSS coverage? If not, how will coverage now be different during the 
gap including GOES-R in your analysis?
    Answer. The instruments on the current Geostationary Operational 
Environmental Satellite (GOES) cannot be used as a substitute for 
future Joint Polar Satellite System (JPSS) mission data needs and 
requirements. NOAA GOES and Polar-orbiting Operational Environmental 
Satellite (POES)--JPSS is a POES satellite--constellations were 
developed to provide complementary space-based data to meet NOAA's 
weather, ocean, space weather and climate mission.
    GOES does not provide the global coverage that POES provides. GOES 
satellites cover the Western Hemisphere that includes eastern Pacific 
to the western Atlantic and from southern Alaska to South America. The 
imagers and sounders on GOES satellites are optimized to provide the 
coverage that is required for a geosynchronous orbit (i.e., providing 
environmental data over fixed geographic regions). Data from GOES 
satellites, in conjunction with Doppler radar, are used for 
``nowcasting'' severe weather events as they unfold; POES data cannot 
provide the same constant observations that GOES provides.
    Polar-orbiting satellites (current POES and the future JPSS) circle 
the Earth longitudinally from the North Pole to the South Pole and 
provide environmental data at periodic intervals over the entire globe. 
These global measurements are vital for the accuracy and reliability of 
the National Weather Service's computer weather models that forecast 
the weather at 3 days and beyond. Additionally, polar-orbiting 
satellites provide satellite imagery over data -sparse areas like parts 
of Alaska above 60 degrees latitude. Access to these data has proven 
critical to protecting the people of Alaska and the U.S. Pacific 
Insular Areas because GOES satellites are unable to image accurately in 
those areas.
    In conclusion, NOAA's polar orbiting and geostationary satellite 
systems provide mission critical, complementary data that is minimally 
redundant. NWS needs both the global coverage and higher resolution of 
polar orbiting satellites, and the ``constant look'' of the 
geostationary satellites to provide the full spectrum of short-term 
weather warnings to long-term forecasts.

    Question 6. In preparation for the gap in weather satellite 
coverage, is NOAA working with military, other governments and/or 
corporations, which have weather satellite capability to meet the 
United States weather prediction needs?
    Answer. There are no viable operational alternatives which will 
cover the projected data gap in the afternoon orbit that will occur due 
to the delayed launch of the first JPSS-1 satellite and the end of life 
of Suomi National Polar-orbiting Partnership (Suomi NPP) in the 
afternoon orbit. Neither Department of Defense nor the Europeans, our 
well-established operational partners, fly weather satellites in the 
afternoon orbit.
    NOAA is also assessing other international missions, such as the 
China Meteorological Administration (CMA) Feng Yun 3B (FY-3B) satellite 
that is currently flying in the afternoon orbit with instruments 
similar to NASA EOS satellites.
    NOAA will continue to assess whether other U.S. and international 
government or private sector satellites are launched that could provide 
the type of data that are needed for NOAA's numerical weather 
prediction models.
    In addition, NOAA's National Weather Service is looking into ways 
to mitigate the impact to weather forecasts should a gap in polar 
afternoon orbital coverage occur. Unfortunately, many of those 
forecasts use Numerical Prediction Models as a primary input, these 
models rely heavily on polar data and there is no getting around the 
fact that any gap in polar coverage would impact the accuracy of model 
outputs.

    Question 7. We learned from NOAA that there has been internal 
reallocation of funding to meet the immediate funding needs of the JPSS 
program. How much funding was reallocated to JPSS?
    Answer. The FY 2011 Consolidated Appropriation bill amount 
continued the FY 2010 funding level of $382.2 million for the JPSS 
Program. The Administration determined, and the Congress approved, an 
additional $89.7 million for the JPSS Program in the FY 2011 Spend Plan 
for a total of $471.9 million. The total of $471.9 million represents 
the amount NOAA established for the program in FY 2011.
    In FY 2012, the Congress appropriated $924 million of the 
President's Budget Request of $1.070 billion for the JPSS Program. In 
FY 2013, NOAA requests $916.4 million for the JPSS Program.

    Question 8. Which program or line offices had funding redirected to 
meet the needs of the satellite program? How much funding did each of 
these program or line offices loose?
    Answer. The Administration's FY 2011 spend plan for JPSS is $471.9 
million from funds appropriated to the Department of Commerce by PL 
112-10. Given the importance of JPSS in maintaining the Nation's 
weather prediction capabilities, NOAA received Congressional approval 
to allocate that amount to JPSS for FY 2011 to support critical work on 
the spacecraft, instruments, and mission operations and sustainment 
activities. A portion, $39.8 million, of the $89.7 million increase in 
FY 2011 for the JPSS program was provided though a transfer from other 
bureaus within the Department of Commerce.

    Question 9. Did any of these programs impact critical data required 
for fisheries management: observer coverage, stock assessment data, or 
ship time?
    Answer. The FY 2011 Spend Plan represents a comprehensive strategy 
that aims to address multiple and interrelated missions of the agency. 
We believe that all of these missions have considerable value to the 
Nation. Given the importance of JPSS in maintaining the Nation's 
weather prediction capabilities and with Congressional approval, NOAA 
chose to allocate $471.9 million to the JPSS program for FY 2011 to 
support critical work on the spacecraft, instruments, and mission 
operations and sustainment activities.
    Core fisheries research and management activities funded by NMFS 
are supported by the Fisheries Research and Management sub-activity. 
Between FY 2010 and FY 2011 funding for this sub-activity increased by 
$5.6M ($432.9M and $438.5M respectively). This funding supports NMFS 
Regional Science Centers which provide the scientific knowledge base 
for the management and rulemaking process supported by NMFS Regional 
Offices and Regional Fishery Management Council and Interstate Marine 
Fisheries Commissions, which are also supported with this funding. 
Funding is also included specifically for stock assessments and survey 
and monitoring projects which provide data on abundance, distribution, 
and biological characteristics of fish stocks, the scientific basis for 
setting annual catch limits and other fishery management measures.
    The NOAA fleet provides the base data collection platforms to 
support fisheries research and management. The FY 2011 spend plan 
funded the NOAA fleet to allow for maximum utilization in FY 2011 
without the need for Program Funded Days at Sea. FY 2011 actual base 
funded Days at Sea were 2,609. This is an increase from FY 2010 base 
funded Days at Sea of 2,395.
Dual Polarization Doppler Radar Installation and Early Lessons
    Question 10. Over the last two years, NOAA was appropriated $9 
million to acquire and install a coastal Doppler radar in Washington 
state.
    Please quantitatively describe how the new dual polarization 
Doppler radar has improved weather prediction and forecasting in 
Washington state.
    Answer. The NEXRAD program is a tri-agency effort between NOAA/
Department of Commerce (DOC), The Department of Defence (DOD), and the 
Federal Aviation Administration in the Department of Transportation. 
The new Dopplar radar installed in Western Washington State is an 
example of excellent synergy between NOAA and DOD. Key NEXRAD assets 
for this project were transferred to NOAA/NWS from the DOD Keesler, MS, 
Air Force Base maintenance and training facility, which no longer had 
the requirement for the equipment.
    This is the first winter in which dual-polarization radar (dual-
pol) data are available. NWS will continue to analyze the data and 
quantify the radar's contribution to improved weather prediction. 
However, qualitative benefits are already known. For example, the 
coastal radar has been used to issue and refine high wind warnings 
along the coastal zone. In one case, the radar indicated stronger winds 
than expected from the forecast models and provided the knowledge 
necessary for the forecaster to put up the warning before the winds 
hit. The dual-pol capability has allowed the NWS to detect the 
transition from rain to snow near the surface and accurately detect the 
elevated warm layer needed to form freezing rain or sleet. During the 
19 January ice storm, NWS forecasters were able to better detect the 
developing event (leading to Emergency Alert System activation) and 
were able to monitor the freezing rain intensity and location with 
frequent updates to the emergency management community.
    The coastal radar has improved our forecast and warning capability 
for areas that previously did not have radar coverage. The new radar 
also provides NWS forecasters with estimated location/intensity/amounts 
of precipitation in areas of Southwest and Coastal Washington that 
previously were terrain blocked to other radars. We believe the 
improved understanding of rainfall amounts and snow level has already 
provided information for more accurate flood forecasting than would 
have been provided if the new radar was not in place.

    Question 11. Some local weather programs, such as Seattle's Storm 
Watch, are not yet incorporating the new dual polarization Doppler 
radar data. Is NOAA working with small local weather forecasters to 
ensure effective and timely use of dual polarization data?
    Answer. NOAA provides the operational dual-pol and legacy radar 
data in real-time through multiple data access points and providers. 
Our partners are encouraged to use these data in application 
development and in providing commercial services. Specifically 
regarding the new radar data in Washington State, the data are going 
directly to the University of Washington and they are processing and 
posting them to a live web page for others to use. They are also 
currently assessing the value of adding these new data to their Rain 
and Snow Watch programs. NOAA stands ready to assist them in this 
process. To help private sector/media meteorologists and non-
meteorologists understand how to use dual-pol, NOAA developed an on-
line dual-pol training module series. The local WFO is also working 
with local media to provide ``lessons-learned'' training following this 
first winter season.

    Question 12. How is the new Doppler radar funding pushing national 
weather prediction and modeling forward? In other words, how are 
algorithms developed for the Washington state dual-pol Doppler radar 
being utilized nationally?
    Answer. Precipitation algorithms developed for the Washington dual-
pol radars will be employed by all the radars in the west and 
mountainous region. The precipitation algorithms are specific to 
western radars and mountainous terrain, and useful for orographic 
(mountain) precipitation situations. Algorithms for rain/snow 
delineations are useful nationwide. Other algorithms are more useful in 
the plains states and used for tornado detection.

    Question 13. In addition to acquiring the new Doppler, Washington 
state is now the first state to have complete dual polarization Doppler 
radar coverage. How is NOAA handling this new influx of data? Has NOAA 
acquired the super computers required to adequately employ this new, 
high quality data into weather prediction models?
    Answer. The additional data from the dual polarization capability 
is incorporated into the national radar network and used by local NWS 
forecast offices and NWS National Centers for Environmental Prediction. 
The existing NWS Advanced Weather Interactive Processing System (AWIPS) 
has the capacity to handle this additional data, and the data is used 
by the forecasters and incorporated into their forecasts and warnings. 
No additional supercomputing resources are necessary for this data. 
Since radar commissioning, NOAA has been collecting, distributing, and 
archiving data from the new Washington radar similar to other network 
radars and making the data available to the public and all users. NOAA 
continues to develop the capability and capacity to include data from 
the Doppler radar network into its computer models. The data are most 
useful in NOAA's short-range models and are being incorporated at this 
time.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. Mary M. Glackin

Improvements to Timely and Relevant Forecasting and Prediction
    Question 1. One of the biggest impacts NOAA has on my state is 
making sure that communities have up to the date and accurate weather 
information. Floods are an annual issue for communities across 
Minnesota, and last year we led the Nation with 145 confirmed 
tornadoes. That's more than Kansas and Nebraska combined. We are not 
supposed to be number one in this category. Will the work that NOAA is 
doing help us to not only better predict and prepare for severe 
weather, but also help understand and develop new weather trends that 
may be developing?
    Answer. Yes. NOAA invests in the prediction and understanding of 
the environment. NOAA's National Weather Service strives to 
continuously improve operational weather, water and seasonal climate 
watches, warnings and forecasts by investing in advanced technologies 
including models, supercomputers, observations and leveraging other 
NOAA investments and partner's investments. NOAA's Office of Oceanic 
and Atmospheric Research invests in research and development of the 
next generation science and technology for weather and climate 
prediction including understanding new developing weather trends. NOAA 
also leverages and relies on a national and international investment in 
weather and climate science including academia, government agencies, 
and non-governmental organizations. These investments enable the Nation 
to better prepare for and respond to severe environmental events.

    Question 2. Is the science for flood forecasting continuing to 
improve, or have we reached a plateau for the accuracy of our flood 
forecasts?
    Answer. Advancements in hydrological science and service delivery 
enable continuing improvement in flood forecasting lead times and 
accuracy. NOAA's Advanced Hydrologic Prediction Service (AHPS) provides 
the Nation with improved forecast and decision support tools including 
scenario based uncertainty information at more than 3000 specific 
locations along the Nation's rivers and water ways. NOAA's Community 
Hydrologic Prediction System (CHPS), a new and advanced open software 
architecture hydrological modeling system will become operational in FY 
2012. These technologies are among the suite of tools that will enable 
NOAA to continue to improve flood and flash flood forecast skill. In 
addition, ongoing nationwide deployment of dual polarization of the 
NEXRAD (Next-Generation Radar) network in FY 2012 and 2013 will enable 
improved estimates of precipitation type and amount, leading to better 
flash-flood forecasts and warnings.
    In order to explore further opportunities for improving water and 
flood forecasting, NOAA is working to leverage interagency investments. 
In 2009, NOAA, the U.S. Geological Survey (USGS) and the U.S. Army 
Corps of Engineers (USACE) launched a new partnership called the 
Integrated Water Resources Science and Services (IWRSS). In May 2011, 
this partnership was formalized through a Memorandum of Understanding 
signed by the three agencies. Specifically, NOAA seeks to accelerate 
flood forecasting skill and create flood maps over a larger geographic 
region by leveraging USACE's Core Water Information Management System 
(CWMS) flooding and inundation modeling capability and USGS' WaterSMART 
National Water Information System.
    On September 22, 2011, NOAA announced the award of a contract to 
build a new National Water Center (NWC) in Tuscaloosa, Alabama, which 
will be ready for initial occupancy in mid-2013. The NWC will create a 
first-of-its-kind national center for water forecast operations, 
research and interagency coordination. The NWC will be staffed by 
multiple Federal partner water agencies to ensure strong coordination 
and collaboration. The NWC will be the nerve center for coordinated 
water resources forecasts and decision support from floods to droughts 
and minutes to years.
Interagency Coordination
    Question 3. In Minnesota, whether it's flooding or tornadoes, we 
also work closely with the Federal Emergency Management Agency (FEMA). 
How does NOAA affect disaster response efforts by Federal agencies such 
as FEMA?
    Answer. NOAA/NWS works with the Department of Homeland Security 
(DHS), including FEMA, to prepare for, and respond to disasters. NWS 
provides weather information to emergency response decision makers at 
multiple organizational levels as critical decisions are made in 
anticipation of and in response to weather or water events. NWS has a 
liaison position embedded at FEMA Headquarters as well as at the DHS 
National Operations Center to coordinate weather from a national 
perspective and provide decision support services. NWS also provides 
on-site support to FEMA Regional Headquarters Offices when damaging 
weather is expected. NWS provides specific webinars to impacted state 
and local emergency management offices, if resources cannot be provided 
for on-site support in the field. NWS support for FEMA and state and 
local emergency management continues after the event to ensure response 
efforts have the weather information available when they make their 
decisions.

    Question 4. Are there ways we can improve coordination, so that we 
can identify possible extreme weather events quicker, and respond to 
them in a timelier manner?
    Answer. NWS will continue to improve its forecast and warnings, 
including possible extreme events. For FY 2012, NWS is beginning six 
pilot projects as part of NOAA's Weather-Ready Nation Initiative 
designed to improve coordination for the emergency management community 
and to improve effective response by the public and business community 
as necessary. These pilot projects will help set the direction for NWS 
services of the future to better meet its protect life and property 
mission.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Hon. Mary M. Glackin

    Question 1. In a particularly troubling section of the Inspector 
General's report, the report describes the efforts of both the National 
Weather Service's National Centers for Environmental Prediction (NCEP) 
as well as the National Environmental Satellite, Data and Information 
Service (NESDIS) (pronounced NEZ-diss) to seek solutions to the 
anticipated data gap in the afternoon polar satellite orbit.
    While it is positive that efforts are being made to mitigate the 
risk of a data gap, the report also noted that there was ``little 
evidence that these efforts are being tracked or coordinated across 
NOAA's line offices.'' NOAA has agreed with the recommendation to 
increase coordination across line offices and take a ``NOAA-wide'' 
view. To what do you attribute this communication breakdown between 
line offices? What specific steps are being taken to remedy it?
    Answer. We do not believe there has been a ``communication 
breakdown between line offices,'' nor did the report state that there 
was a breakdown. Instead, NCEP, NWS, and NESDIS had been focusing on 
their own priorities, reflecting the high visibility of internal 
efforts to clarify and quantify the impact of the potential data gap 
within each NOAA Line Office. The Office of NOAA's Deputy Under 
Secretary for Operations continually works across NOAA Line Offices to 
discuss and establish plans to address possible gaps in polar coverage 
to minimize the degradation of weather and climate forecasting.
    The decision to end the NPOESS Program in 2010 and initiate the 
JPSS Program has resulted in the need to modify the means by which 
coordination occurred.
    With the JPSS Program NOAA is engaging in a wide-ranging dialogue 
about the importance of data from NOAA's satellites to meet NOAA's 
missions and goals. This dialogue has received high visibility since 
many of the measurements are used by NOAA programs in conjunction with 
external partners. There has been, and continues to be, constant 
programmatic and scientific coordination among the NOAA Line and 
Program Offices. Examples of these coordination activities include:

  <bullet> NOAA Program Management Council (PMC): The PMC provides the 
        forum for regular review and assessment of selected NOAA 
        programs and projects. All NOAA Line-Offices are represented.

  <bullet> Environmental Satellite Users Group (ESUG): The ESUG is a 
        recently reorganized user collaborative forum comprised of 
        operational and research users of environmental satellite data. 
        Participants are from the NOAA Line and Program Offices, the 
        National Aeronautics and Space Administration (NASA), the U.S. 
        Air Force, the U.S. Navy, and the European Organisation for the 
        Exploitation of Meteorological Satellites (EUMETSAT).

  <bullet> NOAA Observing System Council (NOSC)/Low earth-Orbiting 
        Requirements Working Group (LORWG): The NOSC is a forum for 
        coordinating earth observing and environmental data management 
        activities across NOAA. The LORWG manages the key requirements 
        documents for the NOSC, which includes the JPSS Program's Level 
        1 Requirements Document.

  <bullet> Joint Center for Satellite Data Assimilation (JCSDA): JCSDA 
        is a forum dedicated to developing and improving the ability to 
        exploit satellite data more effectively in the United States. 
        Representatives include senior leaders from NOAA, NASA, the 
        U.S. Air Force, and the U.S. Navy.

  <bullet> NOAA/NESDIS Satellite Products and Services Review Board 
        (SPSRB): SPSRB is responsible for the oversight and guidance 
        necessary to effectively manage the satellite product life 
        cycle process. This process ensures satellite products are 
        provided to all NOAA Line Offices, a wide range of Federal 
        government agencies, international users, state and local 
        governments, and the general public.

    To ensure Line Office coordination continues to provide a NOAA-
wide/enterprise mitigation effort on the potential data gap, NOAA 
Administrator Jane Lubchenco, NOAA's Deputy Administrator Kathryn 
Sullivan, and myself as the Deputy Under Secretary for Operations, have 
initiated dialogue between NOAA Line and Program Offices through 
multiple meetings including the PMC, the NOSC, and one-on-one meetings 
with senior managers.
    Recently, the Assistant Administrator for Satellites and 
Information Services initiated directed requests for input from fellow 
Assistant Administrators and Program Office Directors seeking input on 
their space-based data requirements from all the systems in NOAA's 
satellite portfolio.

    Question 2. One of the potential risks that could cause a gap in 
polar satellite data continuity would come from the NPOESS (EN-pose) 
Preparatory Project (NPP) satellite, which was just launched on October 
28, or its sensors, failed prior to the launch of the JPSS-1 satellite, 
now estimated to occur five years from now in early 2017. A June report 
by the NASA Inspector General reported that the NPP sensors may only 
last three years because of problems in the development and testing of 
these sensors that compromised their integrity. These sensors were 
supposed to last seven years because the satellite was expected to 
operate for five years. Does NOAA agree with the Inspector General's 
assessment that there were workmanship issues with the NPP satellite's 
sensors?
    Answer. NPP was initially designed as a research and risk reduction 
spacecraft and was tested to NASA standards consistent with a five year 
mission life. NPP was pressed into operational service due to slips to 
the NPOESS program.
    The three year life expectancy identified in the NASA Inspector 
General report is consistent with the full mission success criteria in 
the NPP Level-1 Requirements. NASA chose three years as the NPP mission 
success criteria for NPP due to concerns about residual risk remaining 
in the Visible Infrared Imaging Radiometer Suite (VIIRS), Cross-track 
Infrared Sounder (CrIS), and Ozone Mapper Profiler Suite (OMPS) 
instruments and that the development and testing of the NPOESS 
Integrated Program Office (IPO)-developed NPP sensors were not 
subjected to NASA's standards or oversight. The evaluation for mission 
success also includes engineering judgment based on factors such as 
first-of-its-kind sensors and first space use of 1394 communications 
bus, which added to NASA's concerns about the life expectancy of those 
sensors.. Recall that these sensors (VIIRS, CrIS, and OMPS) were 
developed under the oversight and management of the now-closed NPOESS 
IPO using Department of Defense acquisition methodologies and delivered 
to NASA's spacecraft contract for integration onto the NPP satellite.
    While there were well documented development, testing and 
workmanship issues with some of the sensors, each issue was eventually 
addressed either through design changes, or rework and testing methods 
that were agreed to by the contractors and the government, and were 
based on proven practices and processes.
    NOAA plans to use the NPP satellite operationally and requires the 
satellite to provide usable data for at least five years. Currently 
these sensors are being calibrated and initial data sets are being 
validated.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                          Hon. Mary M. Glackin

    Question 1. The Joint Polar Satellite System (JPSS), and the 
predecessor the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS), has faced concerns regarding cost overruns 
and timeline slippage. The Government Accountability Office (GAO) has 
reported that NOAA has not finalized their plans or fully implemented 
the recommendations from previous GAO reports. What is NOAA currently 
doing to reduce costs for the JPSS project to meet the $9.4 billion 
budget established by Congress?
    Answer. The appropriations bill adopts by reference all House and 
Senate report language regarding JPSS with the exception of the Senate 
report language regarding the lifecycle cost cap of $9.4 billion. 
Instead, the conferees direct NOAA to provide outyear funding estimates 
for this program prior to the submission of the Fiscal Year 2013 budget 
request. We have made great strides within the limits of the budget 
shortfalls to successfully launch NPP, to have its ground system become 
operational, and to continue to move forward on the development of the 
instruments and bus for JPSS-1. Moving forward, we recognize the 
importance of efficiently allocating scarce resources and are working 
with NASA to determine the best available options for maintaining a 
Life-Cycle Cost through FY 2028 of $12.9 billion or less for the JPSS 
program.
    NOAA has recently submitted a response to GAO recommending closure 
of its previous recommendations regarding the transition of the NPOESS 
program.

    Question 2. How will the potential gap in weather data from 
satellites impact the ability of NOAA to provide accurate hurricane 
warnings which coastal communities rely on to keep their residents 
safe?
    Answer. Hurricane warnings are typically issued when a storm is 
forecast to make landfall within 36 hours. By this time, operational 
forecasters rely on model forecasts that incorporate data from 
hurricane reconnaissance aircraft, both the Air Force Reserve 
``hurricane hunters'' and the NOAA P3 fleet and Gulf Stream IV 
aircraft. These data are critical to NOAA's immediate hurricane warning 
mission. The polar orbiting satellites provide data most essential to 
longer range forecasts of the hurricane track and intensity, 
particularly when storms are over the central or eastern Atlantic 
Ocean. Loss or degradation of these satellite observations will make 
NOAA forecasts less certain at the 3-5 day and beyond range, and hamper 
evacuation planning efforts that require significant lead time on the 
order of days, such as is needed for Key West, Florida, or the U.S. 
Navy facility in Norfolk, VA.

    Question 3. Are NOAA weather data used to study storms 
retroactively (storms in the past)?
    Answer. Yes. NOAA scientists conduct post analysis on storms to 
understand how the atmosphere and waterways responded to the storms and 
incorporate these lessons learned into operations to provide improved 
forecasts and warnings of future events. Universities and the private 
weather enterprise also use NOAA data to conduct their own research 
into storms.

    Question 3a. What can NOAA gain from looking at storms in hind-
cast?
    Answer. NOAA scientists learn how the atmosphere and oceans behaved 
under those particular circumstances and incorporate these lessons 
learned into operations to improve forecasts and warnings via model 
improvements. Should such atmospheric conditions arise in the future, 
operational forecasters can use their knowledge of what happened during 
these past storms and incorporate their newly found knowledge into 
forecast models that aid them in issuing more reliable warnings. Much 
of the historical improvement in storm track, storm intensity, and lead 
time, including hurricane forecasts, has come from careful analysis of 
historical storms, including efforts to improve models by forecasting 
previous storms better.

    Question 4. Can you summarize our Nation's current public and 
private efforts in place today to collect and study weather related 
data?
    Answer. The Nation's efforts to collect and study weather data take 
many forms. NOAA is the source of foundational data for a diverse set 
of services provided by the media and by others in America's weather 
industry. These services contribute to public safety and to economic 
efficiency. NOAA also receives a wide variety of data from others, 
e.g., satellite data from EUMETSAT and weather model data from other 
modeling centers including the United Kingdom, Canada, and the European 
Centre for Medium-Range Weather Forecasts.
    NOAA and Federal efforts focus mainly on larger scales, while state 
and local governments, universities, and the private sector have built 
infrastructure to monitor smaller scales. NOAA has access to much of 
the data from these non-federal sources, and is working on data rights 
issues with the private sector to ensure market viability for these 
companies is not compromised by NOAA's use of their data. Some 
companies charge NOAA for the data, others provide it for free, with 
limited redistribution rights. NOAA also works with the aviation 
community to obtain weather data from aircraft, which is used by NOAA 
computer weather models to analyze and predict the weather.

    Question 5. How does NOAA leverage private investments in weather 
observations and forecasting to ensure that Federal dollars are being 
optimally utilized?
    Answer. Observations are critical to NOAA's mission. NOAA makes use 
of all available data, either international, federal, state, local 
government funded, university funded, or private sector data, whenever 
data rights issues can be addressed. NOAA is not duplicating others' 
efforts for observing systems, but is accessing and using these data. 
For example, NOAA works with the aviation community to incorporate 
weather data from aircraft into NOAA analysis and forecast models. Non-
federal data are quality controlled by NOAA to ensure data quality and 
integrity (e.g., mesonet data ingested through NOAA's Meteorological 
Assimilation Data Ingest System (MADIS)).

    Question 6. Going forward, what priority does NOAA and the National 
Weather Service place on facilitating continued open access to 
taxpayer-funded weather data and research?
    Answer. NOAA has always maintained open access to its data for the 
public. NOAA provides these data and associated products without 
seeking reimbursement because these products are considered a public 
resource and part of NOAA's core mission. The NOAA Partnership for the 
Provision of Environmental Information [http://www.noaa.gov/
partnershippolicy/] has at its core existing Federal policies for 
providing taxpayer-funded data and information. NOAA data and 
information are essential for the protection of life and property and 
enhancement of the national economy. NOAA will always place a very high 
priority on providing open access to this taxpayer-funded information.

    Question 7. How do you see the National Weather Service's role 
evolving over time with respect to the incorporation of the private 
sector?
    Answer. The National Research Council of the National Academies of 
Science published a report in 2003 entitled ``Fair Weather: Effective 
Partnerships in Weather and Climate Services.'' This report laid the 
foundation for improved partnerships between the private, public and 
academic sectors, broadly describing the roles of each sector, 
recognizing that collaboration and discussion best facilitates future 
services and changing boundaries. Open discussion of NOAA plans for 
future services allow the academic community to focus research and 
training efforts while the private sector can build its business model 
knowing the direction NOAA is headed. NOAA's mission relates to 
protection of life and property and providing NOAA observations and 
forecasts, which have broad general value for many users. Many users of 
weather information require specific, tailored information which NOAA 
does not have the resources to provide, nor should it. For example 
shipping companies require detailed forecasts, and the private weather 
support companies use NOAA information to determine where ships need to 
be re-routed. Construction companies may require detailed continuous 
forecasts for their work and large retailers may use tailored forecasts 
for shipping certain products for sale in stores, (e.g., generators in 
the path of ice storms or hurricanes). Providing these tailored 
forecasts for specific user needs to obtain a market advantage is the 
role for the private sector. NOAA cannot provide all weather products 
and services to all those who need specific services, and NOAA relies 
on the private sector to communicate lifesaving information to the 
public. NOAA is working with the private sector to provide the 
information in industry standard formats to make it easy for the 
private sector to use. There is a symbiotic relationship between the 
sectors, and the current climate of open discussion seems to be working 
well.

    Question 8. How could the further expansion of public-private 
partnerships to collect weather related data ease the burden on the NWS 
and allow it to focus on the continued collection of core weather data 
necessary for public safety?
    Answer. NOAA will continue to use all available data to ensure the 
best possible forecasts and warnings for the protection of the public. 
NOAA will expand the public-private partnerships whenever possible, 
however recognizing that the private sector is a business, and its 
primary goal is to turn a profit. The Federal government has the core 
mission to protect its citizens and ensure public safety. NOAA will 
explore and leverage all opportunities, including those with the 
private sector that improve the economy and efficiency of the 
organization and provision of weather services.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Todd J. Zinser

Solutions to Projected Gap in Polar-orbiting Satellites
    Question 1. Just a few months ago, the OIG released a report after 
a comprehensive audit to assess the adequacy of the JPSS program. Among 
the key findings, the report confirmed that a coverage gap will occur 
and weather forecasts will be degraded with a disruption in climate 
data. Given that a gap in polar-orbiting satellite coverage is now 
inevitable, what do you think are NOAA's best options for keeping up 
its weather and data capabilities during this time?
    Answer. As noted in our audit report, we recommended that NOAA 
should coordinate efforts across its line offices to minimize the 
degradation of weather and climate forecasting during coverage gaps. A 
NOAA-wide view will help senior management ensure the adequacy of 
efforts and facilitate improvements.
    In response to our report's recommendation, NOAA stated it is 
developing an integrated strategy to obtain and sustain foreign partner 
opportunities. It is also establishing a commercial assessments 
initiative to determine what polar data it can acquire commercially. 
Key considerations NOAA requires the commercial sector to demonstrate 
include:

    <ctr-circle> an ability to provide sustained and uninterrupted 
            observations, based on operational requirements;

    <ctr-circle> compliance with NOAA's data policy for full and open 
            exchange of data;

    <ctr-circle> technical feasibility to acquire and deliver the 
            observations in a reliable and timely manner; and

    <ctr-circle> affordability of operations and cost-effectiveness to 
            the government.

    Question 2. Based on your findings, do you think NOAA is doing 
everything it can to minimize gaps in important climate and weather 
data?
    Answer. No, as noted in our report, NOAA is not doing everything it 
can to minimize gaps in important climate and weather data. In response 
to our report, NOAA stated it is developing an integrated strategy to 
minimize gaps in climate and weather data from the afternoon polar 
orbit. However, NOAA's strategy must ensure that senior management at 
NOAA and the Joint Polar Satellite System (JPSS) program, through close 
management of the program, take steps to prevent additional slippage in 
the schedule. We believe NOAA needs to focus their planning in the 
following areas:

    <ctr-circle> Finalizing a program baseline that includes costs, 
            schedule, and requirements--and keeping the Department and 
            Congress informed of the program's performance against that 
            baseline. In doing so, the JPSS program should prioritize 
            all requirements and contingencies in order to maintain the 
            current planned launch date.

    <ctr-circle> Coordinating across the agency to develop 
            contingencies for a coverage gap. For example, scientists 
            who work for the National Weather Service (NWS) need to 
            work with the scientists from the National Environmental 
            Satellite, Data, and Information Service to develop options 
            for using data from all available sources to compensate for 
            the loss of afternoon polar satellite data. We are 
            concerned that there has not been a coordinated approach to 
            the problem across NOAA's lines of businesses--and that 
            there should be.

    Question 3. Additionally, Committee staff recently received a 
briefing from NOAA's Assistant Administrator for Satellite and 
Information Services, Mary Kicza, about options to fill the coverage 
gap. She mentioned that the JPSS program is the only way the Nation can 
maintain weather data continuity and any investment in alternative 
solutions would be taking critical funds away from JPSS. Have you 
spoken with NOAA officials about non-satellite options? What was their 
response?
    Answer. Yes, we spoke with NOAA officials about non-satellite 
options. During our recent audit fieldwork, NOAA did not identify any 
non-satellite options to fill the coverage gap.
    However, NOAA told us that it has agreements (in place or being 
considered) with other agencies and foreign partners to obtain 
satellite data. In addition, we interviewed NOAA's National Centers for 
Environmental Prediction (NCEP) leadership. Anticipating a gap in data 
from the afternoon orbit, NCEP told us they have been working with the 
Department of Defense to improve the data from satellites in the early-
morning orbit. Additionally, NCEP is working to use data from NOAA's 
next-generation geostationary satellite, which is currently scheduled 
to launch in October 2015. According to NOAA, however, NWS does not 
believe this data would mitigate the loss of polar satellite data from 
the afternoon orbit.

    Question 4. Are you aware of any non-satellite options for 
minimizing the continuity gap?
    Answer. At this point in time, we are not aware of any non-
satellite options for minimizing the data continuity gap in the 
afternoon polar orbit.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                            David C. Trimble

    Question. Agriculture is a major driver of Minnesota's economy, 
producing $18 billion dollars worth of products. Farmers make planting 
and harvest decisions based on weather forecasts. How can improved 
weather forecasting provide better tools for farmers and ranchers, and 
help fuel this important sector of our economy?
    Answer. As we reported in October 2009 (GAO-10-113), climate change 
is a complex, crosscutting issue that poses risks to many existing 
environmental and economic systems, including agriculture, 
infrastructure, ecosystems, and human health.\1\ According to the 
National Academies and others, greenhouse gases already in the 
atmosphere will continue altering the climate system into the future, 
regardless of emissions control efforts. Therefore, adaptation--defined 
as adjustments to natural or human systems in response to actual or 
expected climate change--is an important part of the response to 
climate change. We reported that insufficient site-specific data, such 
as local projections of expected changes, makes it hard to predict the 
impacts of climate change and thus hard to justify the current costs of 
adaptation efforts for potentially less certain future benefits.
---------------------------------------------------------------------------
    \1\ Climate Change Adaptation: Strategic Federal Planning Could 
Help Government Officials Make More Informed Decisions, GAO-10-113, 
(Washington, D.C.: Oct. 7, 2009).
---------------------------------------------------------------------------
    Federal actions to provide and interpret site-specific information 
would help address this challenge. For example, based on the responses 
by a diverse array of Federal, state, and local officials knowledgeable 
about adaptation to a web-based questionnaire designed for our October 
2009 report, about 80 percent (148 of 185) of respondents rated the 
``development of processes and tools to help access, interpret, and 
apply available climate information'' as very or extremely useful. 
Decision makers will need tools to interpret what regional and local 
climate data mean for activities like farming and ranching. In 
addition, about 61 percent (107 of 176) of respondents rated the 
``creation of a Federal service to consolidate and deliver climate 
information to decisionmakers to inform adaptation efforts'' as very or 
extremely useful.
    In our October 2009 report, we recommended that the appropriate 
entities within the Executive Office of the President, such as the 
Council on Environmental Quality and the Office of Science and 
Technology Policy, in consultation with relevant Federal agencies, 
state and local governments, and key congressional committees of 
jurisdiction, develop a national strategic plan that will guide the 
Nation's efforts to adapt to a changing climate. We are monitoring the 
government wide implementation of this recommendation by the 
Interagency Climate Change Adaptation Task Force, co-chaired by the 
Council on Environmental Quality (CEQ), the Office of Science and 
Technology Policy (OSTP), and the National Oceanic and Atmospheric 
Administration (NOAA), and including representatives from more than 20 
Federal agencies.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                           David. C. Trimble

    Question. While NPOESS was disbanded because the interagency 
management approach among Department of Defense, NOAA and NASA made it 
difficult to prioritize the requirements of three agencies, recent 
testimony by the GAO before two House Subcommittees raises concerns 
that the lack of interagency strategy for environmental observations 
may actually result in an inefficient approach that does not address 
the priorities of additional Federal research priorities, and could 
ultimately limit our ability to understand long-term climate change. 
Given the budget uncertainties that we face, if interagency 
applications are now being limited, do you believe the division of 
NPOESS into two separate programs is still the best approach to meet 
both civilian and military data requirements as cost-effectively as 
possible?
    Answer. At the time of the White House's decision to disband the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) program, the program was at risk of not meeting the near-term 
satellite data needs for military or civilian users. The program's 
expected cost had more than doubled and there was a clear expectation 
that costs would continue to grow. Further, an independent review team 
reported that there was a very small probability of success if the 
management of the program were to continue as it was. Now, almost 2 
years after the decision to disband NPOESS, a gap-filling environmental 
satellite is in orbit and is expected to provide satellite data needs 
through 2016. However, it is not yet clear what will be delivered, by 
when, and at what cost on either of the NOAA or DOD follow-on programs. 
NOAA expects to establish cost and schedule baselines on its Joint 
Polar Satellite System (JPSS) by July 2012, and it is not clear how DOD 
will proceed with its Defense Weather Satellite System (DWSS). Given 
our current budget uncertainties, it is not clear that the current 
approach will meet requirements cost effectively. We have ongoing work 
assessing these programs.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                      Rear Admiral Cari B. Thomas

    Question. How will U.S. Coast Guard rescue and response efforts be 
impacted if NOAA experiences a decrease in satellite function?
    Answer. The loss of the National Oceanic and Atmospheric 
Administration's (NOAA's) geostationary or polar-orbiting satellite 
data would have a cascade effect throughout the oceanographic and 
meteorological modeling community and their ability to provide high-
resolution, accurate models of present and future on scene conditions 
required by the Coast Guard for Search and Rescue (SAR) response and 
Marine Environmental Response. The Coast Guard SAR response relies upon 
accurate and timely forecasts of the oceanographic and meteorological 
conditions.
    By tapping into the Environmental Data Servers through its SAR 
Optimal Planning Scenario, Coast Guard SAR planners are able to access 
the meteorological numerical models for:

        (a) Sea Surface Currents,

        (b) Sea Surface Winds,

        (c) Waves (height, direction and period),

        (d) Visibility,

        (e) Sea Surface Temperature,

        (f) Sea Surface Air Temperature,

        (g) Sea Surface Air Pressure, and

        (h) Ice Coverage.

    NOAA's geostationary and polar-orbiting satellite constellations 
provide oceanographic and meteorological models that the Coast Guard 
uses for forecasting on-scene conditions necessary to plan searches. 
These models provide SAR planners with meteorological and ocean 
conditions, surface currents and wind data to accurately estimate the 
drift of survivors and survivor craft. Additionally, timely accurate 
weather forecasts are critical to identifying potential risks during 
operational planning to ensure the safety of the Coast Guard personnel 
that are responsible for conducting our missions.
    In its role as the Federal On-Scene Coordinator (FOSC), the Coast 
Guard is responsible for ensuring the cleanup of spills of oil and 
hazardous substances in the coastal zone. The FOSC depends heavily on 
NOAA and its cadre of Scientific Support Coordinators (SSC) for 
providing timely and accurate information related to the trajectory and 
environmental fate of a spill. The SSCs typically obtain and process 
this critical information from the wealth of data provided by NOAA's 
satellite constellation. The resulting forecast models or real-time 
pictures are critical for decisionmaking by the FOSC and Unified 
Command during a spill.
    Lastly, if a decrease in satellite function impacts NOAA satellites 
carrying SAR repeaters (which receive and retransmit the 406 MHz 
distress signal) or SAR Processors (which transmits 406 MHz distress 
signal real-time), this will most likely result in a coverage gap and 
SAR planners may see a substantial increase in the length of time it 
takes to receive distress alert(s). These coverage gaps/delays will 
ultimately delay SAR response efforts and will continue to exist until 
the new SAR/Global Positioning System becomes fully operational 
(expected sometime between Fiscal Years 2018-2020).
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to Tom Iseman

Access to Climate and Weather Data
    Question 1. How does NOAA disseminate their climate and weather 
data to state and local entities such as the WGA? Please provide 
examples.
    Answer. NOAA employs a range of tools and partnerships to 
disseminate weather and climate information, ranging from weather 
forecasts and websites to on-the-ground engagement with states, private 
sector and local communities.
    The most visible form of outreach is television and radio, and 
specifically the local weather forecast, where NOAA's National Weather 
Service field offices provide information on day to day conditions. 
Citizens tune into their forecast every day to decide whether to bring 
an umbrella or how long their morning commute might be.
    Another tool is websites, like weather.gov, climate.gov, or 
drought.gov (which was a direct outgrowth of our partnership on the 
National Integrated Drought Information System (NIDIS)). These websites 
are designed to collect and aggregate relevant information and to make 
it available as a `one-stop shop' for states and users. They allow 
interested viewers to find a range of information and to focus on 
geographic or topical issues of interest. However, these are passive 
services that require some user initiative and knowledge to exploit.
    NOAA also provides periodic Climate Outlook Forums. In these 
forums, NOAA experts provide the latest climate forecasts to interested 
users, and they are available for dialogue and Q&A with the audience. 
These vary in geographic and temporal scale, from an annual climate 
outlook for the Nation to a seasonal climate outlook for a particular 
region of interest, for example, drought in the Southwest or flooding 
in the Upper Missouri.
    Finally, NOAA works directly with states and local users to engage 
in the development of information services, for example in the case of 
``Early Warning Systems'' being developed by NIDIS. In these cases, 
NOAA works with stakeholders to understand the key weather and climate 
variables of interest for a relevant geography, and they ``co-develop'' 
a system to monitor and report on those variables over time. NOAA's 
Regional Integrated Sciences and Assessments (RISAs) conduct 
stakeholder-driven research needed to inform these systems at the scale 
of watersheds, cities, and local communities where managers make 
decisions. Early Warning Systems are being developed for the Upper 
Colorado River, the Apalachicola-Chattahoochee-Flint Basin in the 
Southeast, and the ongoing drought in the Southern U.S.
    These are the services that WGA is trying to promote through its 
MOU with NOAA: regional services that more actively engage states and 
other on-the-ground stakeholders in the identification and development 
of new tools to track and respond to key weather and climate events. By 
engaging states and other stakeholders, tools will address the key 
issues of interest--like how drought may affect a municipal water 
supply, or when flooding may delay the shipping of goods by rail, or 
whether infrastructure design criteria are sufficient to address severe 
storm events--and will be more widely adopted and employed than 
national websites. We recognize that regional, stakeholder-designed 
services may require additional resources and time; however, they are 
the best way to address the regional variability inherent in climate 
and its impacts to on-the-ground decisionmaking.

    Question 2. What concrete improvements can be made to increase 
access to this information?
    Answer. While portals like drought.gov have broad utility and 
should be continued, we support efforts to promote more active, 
stakeholder-initiated services that address key regional priorities. 
Regional systems provide a targeted assessment of key indicators, along 
with the expertise and resources to interpret and apply them to on-the-
ground decisionmaking. Regional systems can stimulate efforts to plan 
and prepare for climate and weather events, rather than simply 
responding after the fact. We want to get to the point where a farmer 
uses the seasonal outlook to decide whether to plant certain crops, or 
a water utility uses long-range snowpack projections to design new 
infrastructure--just like you or I listen to the weather forecast to 
decide whether to carry an umbrella.
    We recommend a rigorous assessment of existing regional early 
warning systems, including those developed under NIDIS, to inform the 
design and implementation of future efforts.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Dr. Peter P. Neilley

    Question 1. Public-private partnerships to improve weather data 
collection not only ease the burden on Federal agencies, but also 
create jobs and bolster the economy. How does The Weather Channel 
Companies build upon baseline NOAA weather data to provide higher 
resolution forecasts for specific geographic regions?
    Answer. The Weather Channel Companies builds upon baseline NOAA 
weather data to provide value-added services to consumers and 
businesses in many ways that serve the weather needs of the Nation. 
Increased resolution is just one significant enhancement. However, 
there are many other dimensions of value-adding that we perform. These 
include providing forecasts in formats that consumers can easily 
acquire and utilize; operating a 7x24 cable television network; 
building consumer-friendly weather applications for the Internet and 
mobile devices; providing forecasts for specific business needs and 
personal interests; creating more accurate and timely forecasts; and 
providing an overall satisfying engagement experience for our consumers 
and clients.
    We are able to achieve this with a laser focus on the needs and 
interests of our viewers and clients that results in provisioning the 
weather content that they need and can act on. We accomplish this by 
making specific investments in people, jobs, technology and products 
that use foundational weather datasets from NOAA and others and then 
improve upon those data using proprietary scientific methods. For 
example, one forecasting method that we have developed and deployed 
starts by ingesting all of the computer-based (numerical weather 
prediction) forecasts created by NOAA, and augments these with similar 
forecasts purchased from other countries and our own computer-generated 
forecasts. We then use a complex artificial intelligence based 
statistical engine to distill all of these different computer forecast 
``opinions'' into a final forecast optimized for accuracy and relevance 
to the particular application.
    Our ability to create such value-added products and services is 
critically dependent on the foundational data from NOAA. It would not 
be possible for The Weather Channel Companies or any other private 
entity to build and operate networks of weather radars across the 
country, fund and operate fleets of weather satellites, or capitalize 
the vast supercomputing facilities used by NOAA. It is critical that as 
nation we continue to appreciate and invest in these foundational 
weather services from NOAA so that companies such as The Weather 
Channel can continue to provide the best possible weather services for 
our Nation.

    Question 2. How can the public-private partnership process be 
improved to promote effective collaborations?
    Answer. First, it is important to recognize that there have been 
tremendous gains in the degree of cooperation and collaboration between 
NOAA and the weather and climate industry in the past decade or so. 
Guided heavily by the groundbreaking 2003 report by the National 
Research Council ``Fair Weather: Effective Partnerships in Weather and 
Climate Services'', there have been numerous formal institutions 
created (e.g., The NOAA Science Advisory Board's Environmental 
Information Services Working Group) that promote and sustain effective 
partnerships across our Nation's weather and climate ``Enterprise''. 
Critically important in these advancements has been the deep 
recognition within NOAA of the essential need for strong partners in 
order to serve the Nation and meet the mission of NOAA's National 
Weather Service (NWS). For example, the NWS could not fulfill its 
mission of protecting life and property without an effective 
cooperation with private-industry in order to publish time-critical 
warnings of impending severe weather.
    In order to promote effective public-private partnerships in the 
Nation's weather enterprise, it is important that the participants in 
the enterprise continue to recognize the particular strengths and 
assets that each constituent of the enterprise has and that those 
strengths and assets be leveraged and fostered so that our Nation 
receives maximum benefit and value and all players in the partnership 
remain strong. In particular, NOAA should continue to consider where 
the private sector may be better able to serve the weather needs of the 
Nation and leverage those strengths in order to serve the Nation most 
effectively and efficiently. For example, the private sector has proven 
very agile in the development of a rich set of weather information 
applications for digital and mobile devices and hence the need for NOAA 
to consider creating similar functionality may not only be unnecessary 
but likely decrease the value the enterprise provides to the Nation 
possibly disrupt the established partnership balance.
    A specific area where NOAA could help strengthen the partnership is 
to work with the private sector and others outside of NOAA to find ways 
to gain access to the vast sets of NOAA weather data that are currently 
created but for which practical considerations make them inaccessible 
outside (and often times even inside) of NOAA. For example, the 
National Centers for Environmental Prediction division of the NWS 
produces high-resolution and high-frequency forecast data that must be 
filtered significantly before publication via the Internet outside of 
NOAA. If it were possible for the private sector to place value-adding 
computer servers inside of NOAA to process the high-resolution data, 
valuable and skillful forecast content could be derived from those data 
to help serve the Nation's needs better. This is an example of the Open 
Weather and Climate Services paradigm that was recently endorsed by the 
NOAA Science Advisory Board and passed onto NOAA for consideration. 
Embracing the adoption of the Open Weather and Climate Services 
paradigm by NOAA will significantly advance the partnerships and the 
products and services provided.

    Question 3. Does The Weather Channel Companies currently have 
operations in the Northern Gulf of Mexico to improve hurricane 
forecasts and better determine impacts on coastal communities?
    Answer. The Weather Channel provides weather services for the 
entire nation. We are continuingly investing in operations and 
technologies that provide improved services for all of our consumers 
and clients. For the most part, our approach is to improve all 
forecasts and services that cover a range of weather types and 
locations. However, we recognize the significant impact that hurricanes 
can have along our Gulf of Mexico and Atlantic coastal communities and 
accordingly invest materially in being sure that state-of-the-science 
forecasts and communication services are available to those that might 
be threatened by tropical cyclones. In general when such storms 
threaten a specific community or region we shift our resources to 
ensure that the best, most-timely and most accurate weather information 
is conveyed to those in the storm's path.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Robert S. Marshall

    Question 1. Public-private partnerships to improve weather data 
collection not only ease the burden on Federal agencies, but also 
create jobs and bolster the economy. How does Earth Networks build upon 
baseline NOAA weather data to provide higher resolution forecasts for 
specific geographic regions?
    Answer. Earth Networks ingests all NOAA weather data and 
incorporates it into Earth Networks products and services. In addition 
to NOAA weather data, Earth Networks also operates its own observation 
networks (surface weather stations, lightning sensors and a weather 
camera network). By integrating both NOAA data and proprietary Earth 
Networks data into our products and services we are able to provide 
high resolution and very local forecasts and warnings for our 
customers.

    Question 2. How can the public-private partnership process be 
improved to promote effective collaborations?
    Answer. There are two sides to the public/private partnership that 
exists between NOAA and private sector weather companies. The side 
where private sector companies ingest NOAA data and distribute it with 
value added products to specific users is working relatively well.
    The second side of the partnership where NOAA ingests and uses data 
from private sector observation networks is not working as well. For 
reasons that are not completely apparent, NOAA has not fully embraced 
this model despite solid recommendations to do so by the NRC in its 
2008 report, ``From the Ground Up: A Nationwide Network of Networks''. 
In the challenging budget times that exist today and will continue for 
the foreseeable future, it is more critical than ever that NOAA embrace 
this form of the public/private partnership to cost effectively obtain 
observations that it needs to fulfill its mission of protecting life 
and property. NOAA should develop a peer reviewed plan and budget to 
achieve a National Mesonet. The plan should be developed in conjunction 
with and embrace private sector and academic institutions that operate 
observing assets that can support NOAA's mission.

    Question 3. Does Earth Networks currently have operations in the 
Northern Gulf of Mexico to improve hurricane forecasts and better 
determine impacts on coastal communities?
    Answer. Yes, Earth Networks operates a number of weather 
observation stations along the northern gulf coast and on oil platforms 
in the gulf. Further, the Earth Networks Total Lightning Networks 
covers a significant portion of the entire Gulf of Mexico. These 
observation assets as well as those of other private and academic 
network operators in the region have the potential to improve hurricane 
forecasts and will clearly improve the ability to determine impacts on 
coastal communities.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
